<html>
<title> - FOREIGN OPERATIONS, EXPORT FINANCING, AND RELATED PROGRAMS APPROPRIATIONS FOR 2004</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]


 
      FOREIGN OPERATIONS, EXPORT FINANCING, AND RELATED PROGRAMS 
                    APPROPRIATIONS FOR 2004--Part 4



      FOREIGN OPERATIONS, EXPORT FINANCING, AND RELATED PROGRAMS 
                        APPROPRIATIONS FOR 2004

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED EIGHTH CONGRESS
                              FIRST SESSION
                                ________

   SUBCOMMITTEE ON FOREIGN OPERATIONS, EXPORT FINANCING, AND RELATED 
                                PROGRAMS

                      JIM KOLBE, Arizona, Chairman
 JOE KNOLLENBERG, Michigan          NITA M. LOWEY, New York
 JERRY LEWIS, California            JESSE L. JACKSON, Jr., Illinois
 ROGER F. WICKER, Mississippi       CAROLYN C. KILPATRICK, Michigan
 HENRY BONILLA, Texas               STEVEN R. ROTHMAN, New Jersey
 DAVID VITTER, Louisiana            MARCY KAPTUR, Ohio               
 MARK STEVEN KIRK, Illinois
 ANDER CRENSHAW, Florida

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
    Charles Flickner, Alice Grant, and Scott Gudes, Staff Assistants,
                     Lori Maes, Administrative Aide
                                ________
                                 PART 4

               TESTIMONY OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 89-226 O                   WASHINGTON : 2003

                       COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                        DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California                   JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky                   NORMAN D. DICKS, Washington
 FRANK R. WOLF, Virginia                   MARTIN OLAV SABO, Minnesota
 JIM KOLBE, Arizona                        STENY H. HOYER, Maryland
 JAMES T. WALSH, New York                  ALAN B. MOLLOHAN, West Virginia
 CHARLES H. TAYLOR, North Carolina         MARCY KAPTUR, Ohio
 DAVID L. HOBSON, Ohio                     PETER J. VISCLOSKY, Indiana
 ERNEST J. ISTOOK, Jr., Oklahoma           NITA M. LOWEY, New York
 HENRY BONILLA, Texas                      JOSE E. SERRANO, New York
 JOE KNOLLENBERG, Michigan                 ROSA L. DeLAURO, Connecticut
 JACK KINGSTON, Georgia                    JAMES P. MORAN, Virginia
 RODNEY P. FRELINGHUYSEN, New Jersey       JOHN W. OLVER, Massachusetts
 ROGER F. WICKER, Mississippi              ED PASTOR, Arizona
 GEORGE R. NETHERCUTT, Jr.,                DAVID E. PRICE, North Carolina
Washington                                 CHET EDWARDS, Texas
 RANDY ``DUKE'' CUNNINGHAM,                ROBERT E. ``BUD'' CRAMER, Jr., 
California                                 Alabama
 TODD TIAHRT, Kansas                       PATRICK J. KENNEDY, Rhode Island
 ZACH WAMP, Tennessee                      JAMES E. CLYBURN, South Carolina
 TOM LATHAM, Iowa                          MAURICE D. HINCHEY, New York
 ANNE M. NORTHUP, Kentucky                 LUCILLE ROYBAL-ALLARD, California
 ROBERT B. ADERHOLT, Alabama               SAM FARR, California
 JO ANN EMERSON, Missouri                  JESSE L. JACKSON, Jr., Illinois
 KAY GRANGER, Texas                        CAROLYN C. KILPATRICK, Michigan
 JOHN E. PETERSON, Pennsylvania            ALLEN BOYD, Florida
 VIRGIL H. GOODE, Jr., Virginia            CHAKA FATTAH, Pennsylvania
 JOHN T. DOOLITTLE, California             STEVEN R. ROTHMAN, New Jersey
 RAY LaHOOD, Illinois                      SANFORD D. BISHOP, Jr., Georgia
 JOHN E. SWEENEY, New York                 MARION BERRY, Arkansas             
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
 DAVE WELDON, Florida
 MICHAEL K. SIMPSON, Idaho
 JOHN ABNEY CULBERSON, Texas
 MARK STEVEN KIRK, Illinois
 ANDER CRENSHAW, Florida

                 James W. Dyer, Clerk and Staff Director

                                  (ii)



      FOREIGN OPERATIONS, EXPORT FINANCING, AND RELATED PROGRAMS 
                        APPROPRIATIONS FOR 2004

                              ----------                              


 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              

                                          Wednesday, April 2, 2003.

                   HIV PREVENTION AND THE PEACE CORPS

                                WITNESS

HON. JUANITA MILLENDER-McDONALD, A REPRESENTATIVE IN CONGRESS FROM THE 
    STATE OF CALIFORNIA

                      Chairman's Opening Statement

    Mr. Kolbe [presiding]. We will call the hearing to order 
here. This is the meeting of the Foreign Operations 
Subcommittee of the Appropriations Committee, and today is our 
public witnesses hearing, where we have an opportunity to hear 
from members of Congress, as well as from outside groups, who 
want to make their points of view known about various aspects 
of the president's requests and the proposed appropriation bill 
that we might mark up.
    So with that, we are pleased to begin with a very 
distinguished colleague, Juanita Millender-McDonald here.
    And the floor is yours, Juanita.
    Ms. Millender-McDonald. Thank you so much, Mr. Chairman. 
And thank you so much for your help and your commitment to HIV 
and AIDS. And for the absence of the ranking member, but I have 
spoken with her, and so I am sure that she will be in shortly, 
but to members in all, I thank you for the opportunity--hi 
there, Ranking Member.
    I was just telling them that--no, I have just spoken about 
you, so I tell you, this grand entrance is really something.
    Mrs. Lowey. Well, good. Thank you.
    Ms. Millender-McDonald. I thank you both so much and for 
the committee allowing me this opportunity to talk to you this 
morning about two bills that I am introducing.
    As you know, since coming to Congress in 1996, I have 
carried the mother-to-child transmission and also the Peace 
Corps bill for increased volunteers in the Peace Corps.
    I was really pleased when the president announced in his 
State of the Union that he would be giving $15 billion over the 
next five years for HIV and AIDS, and I thought it was such 
great leadership that I sent him a letter, and I would like to 
submit this letter for the record, if you do not have that 
letter before you.
    Mr. Kolbe. Be happy to put that in the record.
    Ms. Millender-McDonald. Thank you.
    I have the two bills. One is the Peace Corps bill. And with 
respect to the president's request to increase in fiscal year 
2004, I support him on this and join him in the fight for HIV/
AIDS, especially in underdeveloped countries.
    As we know, that HIV/AIDS has been a pandemic, is a 
pandemic in Africa. And it has spread now to India. I have 
talked with the consul general of China. I have met with 
members of the parliament from Eastern Europe. It has really 
become the disease, I guess, of the 21st century.
    And so this Peace Corps bill simply increases the numbers 
that we have to 125, because we really do feel that while you 
have about 1,000 Peace Corps folks who are in and around Africa 
and India, they are doing other than just concentrating on 
training those folks who can best help our mothers and sons and 
daughters and children to find the nexus that will help them in 
the fight against HIV and AIDS.
    And so, Mr. Chairman and Ranking Member, my bill asks for 
$5 million, which would fund these 125 additional Peace Corps 
volunteers, who would work just on HIV and AIDS and solely on 
the training, the train the trainers program to educate and 
improve the skills of professionals, local organizations and 
indigenous people in HIV/AIDS prevention and treatment.
    And so I respectfully request this distinguished panel to 
consider my legislation in fiscal year 2004 appropriations. 
This is a small price to pay for immediate intervention of a 
pandemic we all recognize is overwhelming in countries and on 
continents.
    I recently received an e-mail from a Peace Corps volunteer 
who has served in Sierra Leone and India and was the country 
director in Mongolia. He writes that he strongly supports my 
bill, H.R. 1145, and ``knows how cost effective this bill will 
be in the field. It will positively affect many lives and build 
good will, understanding and peace.'' That is Mr. Zobers' 
statement, and it is especially poignant at this time when we 
are fighting a war abroad and the fear of terrorism is ever 
most on our mind.
    And so I believe that there are other Peace Corps workers 
who have returned from their assignments and they are here 
today, Mr. Chairman and Ranking Member, just to speed me on and 
to support the bill. And I would just like to quickly introduce 
them if I may. Lauren Hill, who served in the Ivory Coast; 
Carrie Hessler, who served in the Samoa Islands; Carolyn Behr, 
who served in Burkina Faso; Dana Aranovic, who served in Mali; 
and Virginia Taggert, who served in Uganda. These are all 
outstanding Peace Corps volunteers who have now come back, but 
who have been working with me on this Peace Corps bill.
    And I think it is not too much to ask for 125 additional 
volunteers to go deep into Africa and into India and help folks 
to be trained whereby they can learn the prevention and the 
care of HIV/AIDS.
    And the second one is the Mother-To-Child Transmission-Plus 
Initiative. Again, I introduced this concept when coming to 
Congress in 1996. This is my second bill.
    And the Mother-To-Child Transmission-Plus now talks about 
the holistic family. The Mother-To-Child Transmission only 
talked about the mother-to-child and treating the child with 
the antiretroviral regimen once that child is delivered.
    But now we know that there are so many children who are now 
orphans, and we have to look at the holistic family now as ever 
before in places like Africa, India, China, Eastern Europe and 
Central America.
    So this Mother-To-Child Transmission-Plus really addresses 
the needs and the rights of that child to grow up with parents 
so that millions of children are not left orphans before they 
can even walk. And this bill, H.R. 1485, does just that.
    Any effective program to make significant inroads at 
addressing the HIV pandemic must go beyond just breaking the 
cycle of the transmission of HIV/AIDS from mother to child, and 
it must be a comprehensive program.
    This program does and is comprehensive. This program 
mirrors the one in the Senate, Senator Bill Frist, whom we know 
is a physician and a leader in HIV/AIDS and the mother-to-child 
transmission, along with Senator Kennedy.
    And so those are the two bills that I am introducing. I 
have a passion for HIV/AIDS and I sure hope that--and I know 
you two do and this whole committee--and so we are asking you 
to include this in your fiscal year 2004. And thank you so much 
for your time.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kolbe. Thank you very much. And I--you are right, both 
Ms. Lowey and I share a great, deep concern about the issue of 
the pandemic of AIDS. It has been one of my major priorities. 
And also the Peace Corps legislation, I want to say as well, 
that we certainly hope that you will be talking to the 
authorizing committees about----
    Ms. Millender-McDonald. Yes.
    Mr. Kolbe [continuing]. Pushing that legislation.
    Ms. Millender-McDonald. Absolutely.
    Mr. Kolbe. Once we have an authorization it makes it much 
easier for us to include the funding for those things or to 
consider it as a part of it. But we appreciate your being here 
today.
    Ms. Millender-McDonald. Thank you.
    Mrs. Lowey. I share the appreciation of my chairman, and I 
know of your outstanding work. We look forward to continuing to 
work with you to focus on these priorities.
    Ms. Millender-McDonald. Thank you both so much.
    Mr. Kolbe. Thank you very much. We appreciate it.
    Ms. Millender-McDonald. Thank you.
    Mr. Kolbe. Since we have a member here and the next person 
on our list is not here, we will try and catch up here. We will 
just keep moving right on. Sherrod Brown here is the next 
person up.
    Ms. Millender-McDonald. I will commit my complete statement 
to the record, please.
    Mr. Kolbe. Yes. Yes, thank you.
    Ms. Millender-McDonald. Thank you.
    Mr. Kolbe. Thank you very much.
    Thank you, Sherrod.
                              ----------                              

                                          Wednesday, April 2, 2003.

                 TUBERCULOSIS/GLOBAL FUND TO FIGHT AIDS


                                WITNESS

HON. SHERROD BROWN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OHIO
    Mr. Brown. Thank you, Mr. Chairman.
    It is an honor and it is a pleasure to succeed Juanita and 
listen to her testimony.
    I would like to thank the chairman and Ranking Member Lowey 
for the terrific work, and this whole subcommittee, Mr. 
Rothman, Ms. Kilpatrick, and for all that this subcommittee has 
done on TB and on infectious disease internationally. I know 
that the chairman and the ranking member have intense personal 
interest in this, and the staff, in all that you all have done 
on this very, very important issue.
    You know, the statistics, TB kills 2 million people a year 
around the world. In India, every day it kills 1,100 people. In 
people that died of AIDS in Africa, somewhere between 40 and 50 
percent of them actually died from tuberculosis. You know all 
of that.
    You know the explosive potential of TB intersecting with 
AIDS in countries like India and China and Russia, countries 
that have seen TB epidemics and are about to see very 
widespread AIDS, and how the death rates in those countries 
will just skyrocket similarly to the way that they have in 
Africa.
    This subcommittee also knows, under the direction of Mr. 
Kolbe and Ms. Lowey, understand what multi-drug resistant 
tuberculosis means.
    I spent a few days last summer in the city of Tomsk, a city 
in Central Siberia, at a prison colony where all the prisoners 
in that area of Siberia are sent to one prison. All the areas 
of all the prisoners who have TB that are sent to that one 
prison, they had about 1,100 inmates, about 65 to 70 died every 
year in the mid-1990s. I was there in 2002; no one died that 
year because of either drug-resistant TB or drug-sensitive TB, 
because of directly observed treatment short course, and 
because DOTS, and because the world community, working with the 
Russian government and the Russian health ministry and prison 
system, working together clearly made a difference.
    So we know what to do with TB. We know that is it is very 
curable. We know that in developing countries, drug-sensitive 
TB can be cured for as little as $100 per patient in a six-
month drug regiment. And we know that it is much, much more 
expensive with drug-resistant TV, and that is becoming a 
problem especially in Russia, Estonia, Ukraine and in countries 
in the former Soviet Union.
    This subcommittee has led the way in increasing resources 
for TB. Five or six years ago, we spent virtually nothing. This 
past year, this subcommittee and the Congress spent some $75 
million to $80 million on TB. I urge you to continue this 
effort.
    The World Health Organization has estimated it will cost 
$750 million additional each year to treat TB effectively. The 
administration has, unfortunately, called for cutting bilateral 
infectious disease programs by some $80 million in 2004; TB and 
other programs. I urge you to resist any such cut. And the 
opposite: encourage you to continue to expand funding for TB.
    I would also ask that you ensure that TB funding is used 
more effectively. After the generosity of this subcommittee 
last year and as this progressed the money was sent to USAID. I 
brought them in, people from USAID, into my office and listened 
to them--frankly, not very well--justify how they were spending 
their money, in terms of how much went for medicine, how much 
went for cures, how many people were cured, how many people's 
lives were saved. I think that is important that this 
subcommittee address that as much as possible.
    I urge you to provide $15 million for the global TB drug 
facility in 2004 as part of this overall effort. We provided $3 
million the past few years. Canada did $13 million. The 
Netherlands did $6 million. I hope we can do better than that.
    Mr. Kolbe. I do not know much about that facility.
    Mr. Brown. It is part of the World Health Organization.
    Mr. Kolbe. Is it a laboratory?
    Mr. Brown. No, it is the actual arm to combat TB.
    Interestingly, very briefly, Mr. Chairman, the leader of 
the head of the Stop TB Program at the WHO, come July, will be 
the director general of the World Health Organization, Dr. Lee 
from South Korea; a friend of many of us and Congress who have 
worked with him over the years.
    I would also urge the committee to pay particularly close 
attention, Mr. Chairman, to the global fund of fighting AIDS, 
TB and malaria. If we were to commit $1 billion in 2004, 2 
million patients could be treated over the next five years, 
many of them, as I said, for as little as $100. I urge my 
colleagues to provide $500 million in future 2003 supplemental 
appropriations bill for the global fund.
    The global fund has two major strengths that I do not think 
our bilateral spending does. One is it has more accountability. 
The global fund cuts off funding if they do not see results 
within two years.
    The global fund also has leverage; the more that we put in, 
the more we can encourage philanthropists and other governments 
to put in. The global fund is now in 85 nations. The 
president's proposal, while I was very excited about it when he 
made it, is limited to 14 countries; 12 in sub-Saharan Africa, 
Ghana and Haiti, in our hemisphere, which leaves out the hugely 
populated countries Brazil, Mexico, India, China, Russia, 
Bangladesh, Pakistan, countries like that. So I would ask more 
participation from all of us in the global fund especially.
    And I thank you.
    I am very grateful, as is the world health community, as to 
what the subcommittee has already done.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kolbe. Thank you very much. And I do appreciate your 
comments. And I happen to agree with you on a lot of what you 
said, particularly about the global fund, and I think that our 
subcommittee is going to be pushing for greater participation 
in the global fund than is recommended in the president's 
budget.
    I had an opportunity to spend a weekend in Haiti looking at 
the global fund programs, and a day in Geneva, just meeting 
with the staff over there. And I am very impressed by the work 
of the global fund.
    Mr. Brown. What they have done in Haiti, especially, and 
they will do in other places too.
    Mrs. Lowey. I thank you. And I appreciate your focus on the 
delivery; it is not enough to appropriate money, we want to be 
sure it is used well. So I look forward to continuing dialogue 
that follows after your comments.
    Mr. Brown. Thank you. Thank you very, very much for your 
assistance and interest.
    Mr. Kolbe. Thank you.
    Well, our other members are not showing up in a timely 
fashion, but I think we have some UNICEF people out in the 
hallway. We are going to let them in.
    Mr. Lyons, you are here for the U.S. Fund for UNICEF, so 
right now we are pushing you a little faster, faster, thought 
you would catch your breath, but if you would go can go ahead, 
we would appreciate it.
                              ----------                              

                                          Wednesday, April 2, 2003.

                     UNITED STATES FUND FOR UNICEF


                                WITNESS

CHARLES J. LYONS, PRESIDENT, UNITED STATES FUND FOR UNICEF
    Mr. Lyons. Thank you very much, Mr. Chairman, members of 
the subcommittee. My name is Charles Lyons, president of the 
U.S. Fund for UNICEF, and I very much appreciate the 
opportunity to be here. It is a real honor for me.
    First I want to thank the subcommittee for the very 
consistent support that you have given to UNICEF over the 
years, but it goes beyond funding. The subcommittee members and 
staff have the knowledge of UNICEF at work, have an interest in 
UNICEF work, have an understanding of it that we think actually 
makes us more effective by virtue of the exchange, the dialogue 
that we have.
    It is our view that we are a vital partner for the United 
States on initiatives to save children's lives and to protect 
their futures. It is that partnership, we believe, that has 
helped us make tremendous progress in a variety of areas, 
despite the many challenges.
    Our request this year for 2004 is that you consider a 
contribution of $130 million for UNICEF.
    The way in which this partnership plays out has been quite, 
I think, evident in the last number of years, dramatically, at 
this time last year in the health work that we did, the getting 
kids back in school in Afghanistan, for example, for tens of 
thousands of little girls back to school for the first time.
    It has been in display already in Iraq, in terms of trying 
to protect children's health. UNICEF is in Iraq today, and our 
work together in the next weeks and months I think will be 
essential for protecting as many children's lives in that 
country as possible.
    Just a lot of words, but to put a couple of faces to it, 
this is a mother and her children who have benefited from a 
therapeutic feeding center provided by UNICEF in Iraq.
    It is not a conflict-inspired emergency, but the AIDS 
pandemic is an emergency. And we are working together in a 
variety of ways. I was in Haiti last week. I know the chairman 
was in, I believe, was in Haiti recently as well. We had the 
opportunity to see, despite incredible challenges in that 
country, some really encouraging progress in examples of health 
care delivery. These are fortunate kids because they are here 
in the catchment area of a very innovative and we think 
promising example of providing more health care for the poor 
majority in Haiti.
    The contribution to UNICEF, in conclusion, helps us move in 
our five priority areas: first and foremost, providing basic 
education; second, promoting integrated early childhood 
development; third, expanding immunization work and protecting 
children against preventable disease; fourth, HIV and AIDS and 
confronting that pandemic; and fifth, maybe less heralded by 
many but important nonetheless, the work that we do together in 
protecting children from abuse, the hideous practice of 
trafficking of children for sexual purposes. We have been able 
to work together effectively there as well.
    The investment in UNICEF, we believe, positions UNICEF to 
be a partner on the ground, in the countries, before, during 
and after emergencies, and working to help at a time when there 
is so much more interest in international health initiatives, 
whether it is Gavi that you will hear more about or the work 
that is intended to be done on HIV and AIDS.
    And so, as you are challenged with a lot of priorities and 
looking for high-impact, high-investment return on 
international dollars, we again respectfully request an 
appropriation of $130 million, if that is possible.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kolbe. Thank you.
    This subcommittee has long shown an interest in UNICEF and 
strong support for it. And I believe the amount you are asking 
for for UNICEF for the voluntary contribution is the same as 
the president's request, is that correct?
    Mr. Lyons. The president's request is $120 million.
    Mr. Kolbe. And you are asking for $130 million.
    Mr. Lyons. Which we did discuss with the administration 
earlier in the year.
    Mrs. Lowey. Thank you. Obviously, because of the many 
people who are waiting, we are going to hold the questions, but 
with the lack of questions, I do not want you to think we do 
not appreciate all the good work you are doing.
    Mr. Lyons. We know you do. You demonstrate it in other 
ways. Thank you very much.
    Mrs. Lowey. Thank you.
    Mr. Kolbe. Thank you very much. Appreciate your testimony.
    We will catch up here with a couple members who are coming 
in now. I will ask Mr. Pallone and Mr. Schiff to join us at the 
table up here together.
    Is it separate from the rest of the committee?
    Mr. Rothman. They do not want to be associated with me too 
closely. But they do let me in the room.
    Mrs. Lowey. He is our star, you know, he just has a place 
for himself.
    Thank you very much. Mr. Chairman.
                              ----------                              

                                          Wednesday, April 2, 2003.

                   AID TO ARMENIA, CYPRUS AND ISRAEL


                               WITNESSES

HON. FRANK PALLONE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
HON. ADAM SCHIFF, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Pallone. Thank you, Mr. Chairman, members of the 
committee, particularly my colleague from New Jersey, Mr. 
Rothman.
    I am going to summarize my testimony, if that is okay? I 
have three areas, Armenia, Cyprus and Israel, that I wanted to 
mention. With regard to Armenia, three major issues.
    One is the need to provide the same level, or I should say 
not less level of funding that you provided last year for 
humanitarian assistance, which was $83.4 million; that is 
significantly more than what the president's budget recommends, 
but we are hopeful that you can at least provide what you did 
last year. And the situation has not changed.
    We still have the blockades by Azerbaijan and Turkey, and 
as well the fact that, you know, given the war in Iraq, you 
know, Armenia is in a very dangerous situation.
    Also, just to give you an idea, and I am sure you know 
this, Armenia really has made some major economic reforms, 
which is why I think that, you know, the continued policy of 
the humanitarian aid is important.
    In December this year they formally acceded to the World 
Trade Organization, so this is a country that is making 
economic reforms but still has a great deal of need for 
assistance because of the situation with the blockade.
    You also provided $3 million in military financing and 
$750,000 IMET funding last year. That is in the president's 
budget again. We would ask that at least that amount be 
approved again.
    And finally I wanted to highlight aid to Nagorno Karabakh. 
They still have not spent that $20 million in aid that you 
appropriated three years ago. We would like that to be 
completely spent this year. And then we are asking for an 
additional $5 million which was recommended, I think, by your 
subcommittee last year, as well. We would like to see if you 
could do that again and hopefully it will survive the full 
committee in the conference with the Senate.
    With regard to Cyprus, unfortunately the president has 
recommended half the amount from last year. It went from $15 
million to $7.5 million. Again, I would ask that you go back to 
the previous amount of $15 million.
    As you know, the effort to try to come to a settlement with 
Cyprus last month when the U.S. was, the U.S. was unsuccessful. 
Cyprus is now going to accede to the European Union, just the 
Greek part of the island. But we are hopeful that we can still 
see a negotiated settlement before the accession takes place 
next year.
    And so I think we should try to go back to the $415 million 
from previous years. I mean, the situation, again, is no 
better. It has not been resolved, and so I think it is a 
mistake to cut that in half.
    And lastly, with regard to Israel, I have the provision, 
which I know many members support, of the $2.16 billion 
military assistance, and $.48 billion in economic assistance. I 
do not have to tell you why it is important to do that given 
the situation that we have in the Middle East beyond the war 
and all the other problems that are out there.
    So thank you for all you do. You are the best. We rely on 
you for these things, and if it was not for you I do not know 
what we would do, but I appreciate all your efforts.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kolbe. Well, thank you very much for your comments. Let 
me call on Mr. Schiff and then we will see if there are 
questions for the two of you here.
    Mr. Schiff. I will be very brief, too. On the aid to 
Armenia, the sanctions in Azerbaijan were waived in hope of 
securing greater cooperation in curbing Al Qaida and the war on 
terrorism.
    Regions such as Central Asia and the Caucasus were seen as 
vital in the war effort, and several countries were dubbed 
front-line states, making them eligible for additional military 
and economic assistance.
    I continue to support giving the administration this 
flexibility, but I want to renew my concern that the war, which 
resulted in increased security cooperation with Azerbaijan, may 
yet shift the regional balance in the area, jeopardize the 
current cease-fire, and put the security of the people of 
Armenia and Nagorno Karabakh at risk.
    Two years ago during the conference process the members of 
the subcommittee fought hard to protect the people of Armenia 
and Nagorno Karabakh, and I applaud your effort to make sure 
that none of the military aid to Azerbaijan could be used 
against Armenia or Armenian communities in the Caucuses.
    I would respectfully ask the subcommittee to remain 
vigilant that these funds allocated under the waiver are not 
misused, and some of the rhetoric in the Azerbaijan press has 
indicated that they might use these funds for prohibited 
purposes.
    The bill you are about to draft is an excellent vehicle to 
send a strong message to Azerbaijan to lift its blockade of 
Armenia as a gesture of good will.
    The dual blockades of Armenia by Azerbaijan and Turkey 
continue to impede Armenia's economic well-being, and I want to 
echo what Mr. Pollone said about the necessity of making sure 
that Armenia receive the same, at least the same level of 
funding in fiscal year 2004 as it did in fiscal year 2003, not 
less than $90 million.
    And I also want to reiterate my support for Armenia's 
request for at least $4 million in foreign military financing 
and $300,000 IMET. With respect to Karabakh, I also want to 
associate myself to the remarks of Mr. Pallone about the need 
to allocate the $20 million in humanitarian assistance that was 
appropriated but not spent at this point, and make sure that 
that money reaches its intended recipients, the people of 
Nagorno Karabakh.
    With respect to Cyprus, I will completely associate myself 
with Mr. Pallone's remarks.
    And, finally, on the subject of Israel, I think it is 
essential at this time that as the world's leading democracy 
that we stand by our democratic friend and ally that is also 
facing waves of terrorism.
    They need to know they can count on our economic and 
security assistance. I support fully their request for $2.16 
billion in security systems; $480 in economic aid and an 
additional $50 million for refugee resettlement.
    And I want to thank you, again, for the opportunity to 
testify today. And I know you have a long day with many of us 
coming before you. And I want to applaud the good work that you 
do.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kolbe. We thank both of you for coming. And we thank 
you for the strong commitment you have made trying to bring 
peace in that region of the Caucasus between Azerbaijan and 
Armenia. And your work stands as a beacon, I think, for all of 
us, so we appreciate what you have done.
    Mrs. Lowey. I could not have said it better myself. I 
associate myself with the distinguished chair. Thank you very 
much.
    Mr. Rothman. Mr. Chairman, if I may----
    Mr. Kolbe. Yes, of course.
    Mr. Rothman [continuing]. As a matter of state privilege.
    Mr. Kolbe. Briefly, Mr. Rothman. We are running a little 
behind.
    Mr. Rothman. I want to acknowledge the work of my colleague 
and dear friend, Frank Pallone, and my colleague and dear 
friend, Adam Schiff. In this regard, I must take note of 
Congressman Pallone's long-standing efforts in all of these 
three areas. We look to you for leadership.
    You have done the hard work on the ground to educate the 
Congress as to the needs of the region. And I want to associate 
myself not only with the praise of the chair and the ranking 
member, but also with the substance of your remarks and both of 
your requests.
    Mr. Kolbe. Thank you very much.
    This looks like New Jersey day at the Foreign Ops Committee 
here. [Laughter.]
    Looking at the lineup we have here today.
                              ----------                              

                                          Wednesday, April 2, 2003.

                           ERADICATING POLIO


                                WITNESS

HON. DONALD PAYNE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
    Mr. Payne. Frank Pallone's words are you are the best. Let 
me just start with that. He is a very wise man. So it is on 
record, you are the best.
    Mr. Kolbe. Thanks.
    Mr. Payne. Let me just say it is a pleasure to be here. I 
acknowledge my good friend from New Jersey, and gentlelady from 
across the river there, my classmate.
    Just like to talk about several issues, quickly. I know 
that we are doing good things, starting to increase money for 
HIV and AIDS and so forth. As this starts to grow not only in 
Africa, the Caribbean, but now South Asia. This pandemic is 
really going to be unbelievable.
    There is another health issue I would like to ask you to 
focus on for a minute. It is about polio. Polio, as you know, 
is something that we had here in the West, but much of it has 
been eradicated, but believe it or not there are still seven 
countries where polio is still a very serious problem. So in 
response to that, I have introduced H. Res. 20, which will 
provide additional U.S. assistance for eradicating polio, the 
same way we did with smallpox.
    Our feeling is that if we can zero in on this--there are 
only 1,800 cases reported last year--we think that we would be 
able to eradicate it. We are asking for $275 million over the 
next few years. The initiative has strong partnerships. It 
currently has the World Health Organization, UNICEF, Rotary 
International does a fantastic job, the World Bank, 
International Committee of the Red Cross, the U.N. foundation, 
The Gates Foundation, USAID and the CDC; all of them are 
working to eradicate it.
    And we believe that once the eradication happens, that 
would be another success like we had with smallpox. And we 
think that it is doable.
    And we would really like you to seriously consider the $275 
million that is needed by 2005 for us to close that gap. We had 
a meeting about a month ago where people came from Geneva, from 
the U.N. from our health areas. And we think that we are really 
at the point where we can eradicate it. So I would ask your 
serious consideration.
    Just sort of concluding three other quick areas I would 
like to mention, I write the portion of the Congressional Black 
Caucus's alternative budget. In that budget for African/
Caribbean, we have asked for a 6 percent general increase.
    And I am not going to ask for it specifics, but the areas 
that we think ought to be increased are child survival and 
health, development assistance, economic support funds, 
peacekeeping operations, which was actually cut by about 60 
percent; the Millennium Challenge Account and HIV and AIDS, and 
the famine emergency fund.
    We just believe that Africa has always been underfunded. 
And even though there is specific HIV and AIDS, the monies that 
will be made available, we are still being underfunded. And 
actually there has been a level or a drop in some of the other 
areas, I think, to make up some of that so-called new $10 
billion for HIV and AIDS. So we are sort of starting to take 
from Peter to pay for Paul's work.
    Finally, I would like to mention the international fund for 
Ireland. Currently, the fund allocates $25 million to secure 
peace and stability in Northern Ireland. As we know what the 
Good Friday accords the whole question of the Sinn Fein and the 
government working together.
    We think that it is unfortunate that this fund has been 
drastically cut in this budget for the first time. We think 
that the work that Sandra Mitchell did for so many years for us 
to have the fund cut, I think, is a serious move. It is cut 
actually from $25 million to $8.5 million. So I hope that there 
will be some consideration for that fund.
    And, finally, I would just like to mention about Cyprus as 
my friend Frank Pallone did, that the budget is reduced by half 
the amount appropriated for Cyprus. It was $15 million; it is 
down to $7.5 million. Usually, it is generally ESF funds, and 
it provides programs for both communities. It provides 
scholarships.
    As you know, the goal is reunification. And now that Cyprus 
is ascending to the E.U., we think that it would be very 
important that those funds be restored.
    With that, I see that the sand is down, my time is up. I 
thank you very much for having me here.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kolbe. Well, thank you. You are in good company on the 
Ireland fund with a number of other members of Congress who 
have spoken to us about the president's request on cutting the 
Ireland fund.
    A question I might ask you is, you mentioned the MCA 
account. Is the House International Relations Committee going 
to pass an authorization for that?
    Mr. Payne. That is a good question. It is going to be 
marked up. It was supposed to be done this week. I think next 
week, you know, Chairman Hyde had been ill and a number of 
things. The HIV and AIDS legislation, which is now going to be 
marked up as we speak. And as you know, there has been some 
requests to make some changes in the basic way that the 
Millennium fund is set up.
    So there will be some back and forth. We think that it can 
be strengthened. The fact that it is strictly an OMB and 
treasurer and a CEO. And we also questioned some of the 
criteria; some countries will never ever be able to qualify.
    But we have spent a lot of time, believe it or not, small 
committee, and I have been recommended to the National Black 
Caucus and just in general about the fund and how it should be 
amended in the interest of assistance.
    Mrs. Lowey. As usual, you have presented a very important 
statement, and I just wanted to agree with you on many issues, 
but one in particular because of your position on the 
committee. As we address emerging crises, we all have to be 
careful.
    And with that, we continue to pay attention to the long-
range development issues, because as you and I know, some of 
these issues can take decades to address seriously. And we 
cannot just move the money to the crises and just forget about 
education, health care, et cetera. I think that is something we 
are both going to have to look at.
    Mr. Payne. Thank you, Mr. Chairman.
    Mr. Kolbe. More New Jersey.
    Mr. Rothman. Again, I want to welcome my colleague, a real 
leader in our delegation, the dean of our delegation. And while 
I agree and associate myself with all of the issues and the 
positions that my colleague has asked the committee to 
consider, in particular the Africa-Caribbean Initiative, where 
we make sure that we stay focused on the needs there.
    While there are plenty of distractions around the world, 
there are a great, growing and critical need in Africa and in 
the Caribbean Basin to address. I do not think we have done so 
fully. I think we need to plus-up those accounts. And I support 
my colleague, especially in that regard, as well as the other 
priorities he has mentioned.
    Mr. Kolbe. Thank you. Yes.
    Mr. Vitter. Brief question. Thank you for all of your 
comments and I certainly support your goals. Obviously, there 
are all sorts of needs in the world that we try to address 
through this part of our budget. Many of them like to take one 
of the most obvious examples: AIDS in Africa. I think it is 
pretty obvious to say, unless we and other Western countries 
make a commitment there, we are never going to turn the corner.
    The situation in Northern Ireland is very different from 
that. You know, we are talking about a situation that exists in 
democracy and freedom a vibrant capitalist economy. Given all 
the other demands on our resources, why should we be supporting 
that when it is in the backyard and it is a historical issue 
for countries with the means, quite frankly, to fund it 
themselves.
    Mr. Payne. That is a very good question. And one of the 
reasons I have gotten very involved, I have been up there a 
number of times actually during the marching season, rubber 
bullets go around and stuff.
    Once again, the reason I mentioned that is because I think 
it is one of those things that is doable. For example, there 
are a number of problems in the world, but we have not invested 
as much in other parts as we have done in Northern Ireland, for 
example. Senator Mitchell spent a lot of time finally bringing 
these groups together, really worked hard at it.
    It is one of those things that is almost ready, it is 
doable. You know, it is that close, the Good Friday accords. 
And that is the only reason I would not consider funding this 
for the next 25 years. I think the next one or two or three 
years that this thing can finally break through. And I think 
that the Good Friday accords, some of the new policing and so 
forth. So that is the only reason that I would not want to just 
break off when we were that far apart--better.
    Mr. Kolbe. Thank you very much. And you are welcome to 
remain at the table or you can depart. Thank you very much, Mr. 
Payne.
    Mr. Payne. This is kind of personal----
    [Laughter.]
    Mr. Kolbe. Mr. Andrews.
                              ----------                              

                                          Wednesday, April 2, 2003.

                   FUNDING FOR THE REPUBLIC OF CYPRUS


                                WITNESS

HON. ROBERT ANDREWS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
    Mr. Andrews. Good morning. Thank you, Mr. Chairman.
    I apologize for my tardiness. I hope I did not 
inconvenience the committee. Although we are losing our New 
Jersey quorum if Mr. Payne leaves.
    Mrs. Lowey. You have taken up the whole morning. It is 
about time--New Jersey.
    Mr. Andrews. We are the only state with our own foreign 
policy, Mr. Chairman.
    Thank you for this time. Thank you for your support of the 
people of Cyprus over the years. I am here to urge the 
committee to consider increasing the administration's request 
from $7.5 million for Cyprus item up to the $15 million that is 
been previously funded.
    I know this committee has been a strong advocate for 
democracy in Cyprus. And I know that that advocacy is felt 
everyday by the people of that country who are laboring so 
mightily to achieve it.
    We are very disappointed that within the last 45 days or so 
we came so close to a resolution of this vexing problem, for 
which the U.N. deserves great credit, for which the government 
of Cyprus deserves great credit, and frankly for which the 
people of northern Cyprus deserve great credit. They took to 
the streets in great numbers to try to urge a solution to this 
problem. Unfortunately, I think the record will reflect that 
Mr. Denktash stood in the way of a resolution, once again.
    I think this is precisely the wrong time to be penalizing 
that effort by reducing the amount that we are sending to 
Cyprus. I think this is the right time to reward the very real 
risks for democracy and peace that the government of Cyprus 
took in recent times by restoring the funding level.
    I am not a professional in analyzing Cypriot politics, but 
I think it is a fair conclusion that the recent election 
results there were in large part tied to the courage of 
President Clerides in pushing this negotiation process. Indeed, 
many concessions were made by the Greek Cypriots.
    They continue to be willing to make those concessions. They 
were willing to put this U.N. proposal on the ballot. I think 
the people of northern Cyprus would have demanded that it be 
put on the ballot had their government permitted to occur.
    The fact that we came so close to success, but did not 
achieve it this time should not discourage us. It should 
embolden us to try again. And the work that is done as a result 
of this line item in promoting peace, cooperation, education is 
essential to that work.
    So I would ask respectively that this committee continue 
its tradition of supporting democracy in that very important 
part of the world, endeavor in any way that it can to restore 
the full $15 million item funding.
    And I thank you for your time.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kolbe. Thank you. You make a very compelling case. This 
is something we are going to be considering very closely. And I 
hope our subcommittee is going to be able to get there. As a 
matter of fact, it is one of the places we plan to go during 
Easter break, but looks like we are not going to make it 
because of other circumstances in the area. But we appreciate 
your interest.
    Mr. Andrews. Thank you, Mr. Chairman. I appreciate that.
    Mr. Kolbe. Thank you.
    Mr. Rothman. Mr. Chairman, if I may?
    Mr. Kolbe. Yes.
    Mr. Rothman. Briefly, I want to acknowledge the work with 
my distinguished colleague and dear friend, Congressman 
Andrews, who makes excellent points. This has been a long-
simmering problem and it is a vitally important, sensitive 
region of the world where we have a great many interests.
    And if we can continue the level of funding that the 
congressman has recommended I believe we will reach the right 
solution in a much shorter period of time, and send the right 
message that we will not be deterred by temporary setbacks but 
we will continue to pursue this until the just and right result 
is reached.
    So I want to thank my colleague and associate myself with 
his remarks.
    Mr. Kolbe. Thank you, Mr. Rothman, thank you very much.
    Mr. Andrews. Thank you very much, Mr. Rothman, I appreciate 
the committee's time and effort.
    Mr. Rothman. Thank you.
    Mr. Palacios. Good morning.
    Mrs. Lowey. Thank you.
    Mr. Kolbe. Well, we are, if Mr. Bloomenauer does not show 
up we are back on track, we are right on time here. Alex 
Palacios from the Vaccine Fund is with us here.
    Alex. Good morning, thank you very much.
                              ----------                              

                                          Wednesday, April 2, 2003.

                            THE VACCINE FUND


                                WITNESS

ALEJANDRO PALACIOS, EXECUTIVE VICE PRESIDENT, RESOURCE MOBILIZATION, 
    THE VACCINE FUND
    Mr. Palacios. Good morning, Mr. Chairman. Thank you very 
much. Ms. Lowey, nice to see you, you are here often.
    Mrs. Lowey. Good morning.
    Mr. Palacios. Mr. Chairman, I am sorry, after the steady 
stream of New Jerseyans appearing before you this morning.
    Mr. Kolbe. That is all right.
    Mr. Palacios. But I come before you today representing the 
needs and interests of 8,000 children who die each day from 
preventable diseases and from the lack of basic immunization.
    And I am here today, as well, to thank the committee for 
its steadfast commitment to prevent those deaths from occurring 
and to request that the committee provide for, in fiscal year 
2004, at least $60 million as recommended by the committee last 
year for the Vaccine Fund.
    I think the Vaccine Fund's progress has really been 
extraordinary. In just three years partnering with the Global 
Alliance for Vaccines and Immunization it is delivering on our 
promise to work with some of the world's poorest countries to 
help them build up their health infrastructure and deliver new 
and under-used vaccines to the children most in need.
    I am proud to report that today, thanks in large part to 
the assistance from the United States government, 180 million 
vaccine doses have been delivered to 55 of the world's poorest 
countries, and over 200,000 lives have been saved.
    And that is just the beginning. In addition, we have helped 
ensure that children will not fall ill from contaminated 
syringes by financing the distribution of 208 million safety 
syringes and 1.3 million safety boxes, syringes such as these 
produced by the Becton, Dickinson Corporation, again, from New 
Jersey, my apologies.
    But these are life-saving devices, particularly in an era 
of HIV/AIDS.
    Thanks to the unique public-private partnership of GAVI, 
the world has been given an opportunity to close the gap 
between children who have access to immunization, and those who 
do not.
    The alliance includes UNICEF, the World Health 
Organization, the World Bank, the pharmaceutical industry, the 
Gates Foundation and governments, including USAID, as close 
partners.
    This assistance is saving child lives and protecting human 
health through access to life-saving vaccines. Partnering with 
GAVI, the Vaccine Fund was created to harness and quickly 
channel resources where they are most needed and to assure that 
those resources are well-spent and are in addition to those 
already being provided by governments and private institutions.
    The work of GAVI and the Vaccine Fund is designed to 
strengthen immunization systems and to provide new and 
underutilized vaccines in the 75 poorest countries, and to 
increase levels of immunization for children from the current 
level of 56 percent globally to 80 percent.
    And our progress, again, has been I think quite impressive. 
In just three short years, 64 of 75 countries with a GDP of 
less than $1,000 per capita have been approved for assistance, 
and another six are expected to be approved this year.
    Over $900 million has been committed to developing-country 
government immunization programs, and outcome-based grants are 
in place.
    Again, I think we are succeeding because we have resources, 
we have an approach that depends on a public-private 
partnership and we have focus.
    Again, I just want to thank the chairman for this 
committee's support, and I would be happy to answer any 
questions.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kolbe. Thank you very much, Mr. Palacios.
    I had an opportunity to see the Vaccine Fund's work in 
Cambodia a year and a half ago, and I just have to tell you it 
is just an extraordinarily outstanding program, so.
    Mr. Palacios. Thank you very much, Mr. Chairman.
    Mr. Kolbe. I am a big supporter of what you people are 
doing. With small amount of resources, you use it in a very 
effective way of actually delivering a very specific program.
    I think it is a model that other NGOs can use.
    Mr. Palacios. Thank you very much, Mr. Chairman. We do 
appreciate your taking the time from your busy schedule to make 
that visit, and we hope that other members of the committee 
will have that opportunity, as well.
    Mrs. Lowey. Thank you very much.
    Mr. Palacios. Thank you again.
    Mr. Kolbe. Thank you very much, we appreciate it. I think 
next is Mr. Moore, from Kiwanis International.
    Mr. Moore. Yes, sir.
    Mr. Kolbe. Thank you very much. Mr. Moore.
                              ----------                              

                                          Wednesday, April 2, 2003.

                         KIWANIS INTERNATIONAL


                                WITNESS

ROBERT L. MOORE, PRESIDENT-ELECT, KIWANIS INTERNATIONAL
    Mr. Moore. Thank you, Mr. Chairman.
    Kiwanis International Campaigned to end Iodine Deficiency 
Disorders, which I will refer to as IDD, which is the leading 
cause of mental retardation among children. We are in sight of 
virtually eliminating IDD worldwide.
    On behalf of Kiwanis International, I want to thank you and 
the subcommittee for the critical role you have played in this 
process. To paraphrase people who have been here today, you are 
the best and we want to ask you to continue the support for our 
IDD program.
    I am president-elect of Kiwanis International. I will be 
the president of the organization starting in October. I live 
in Venice, Florida, and I have come here today on behalf of 
Kiwanis to express the importance of eliminating iodine 
deficiency disorders.
    We have appeared before this committee for six years and 
asked the United States to join in our partnership with UNICEF. 
The United States Agency for International Development is, 
indeed, now a partner with UNICEF and us.
    We are all working together to help the children of the 
world. On behalf of more than 6,200 Kiwanis Clubs in the United 
States, I want to thank the subcommittee for its tremendous 
support.
    Because of your help Kiwanis International, in partnership 
with UNICEF and USAID, has ensured that millions of children 
are born every year without the risk of mental retardation and 
other problems that result from the lack of iodine in their 
diet.
    Iodization of salt is a simple solution to iodine 
deficiency. This process prevents iodine deficiency disorders, 
reverses many existing conditions and improves mental 
capabilities and productivity in iodine-deficient populations. 
Salt can be iodized for only a few pennies per person.
    Mr. Chairman, prior to the involvement of Kiwanis and 
UNICEF, more than 2 billion people, or 40 percent of the 
world's population, were at risk because of lack of iodine in 
their diet.
    Almost half of that at-risk population were children. Since 
the involvement of Kiwanis, funding has been contributed for 
IDD programs in more than 100 countries.
    More then $70 million in funds supported by Kiwanis has 
been provided to date. UNICEF has reported that 100 million 
children will be born free of iodine deficiency disorders this 
year.
    From the start of our campaign to 2002, the number of 
households estimated to be consuming iodized salt has jumped 
dramatically from fewer than 30 percent in designated countries 
to over 80 percent. The world is beginning to feel the major 
impact from our program.
    Mr. Chairman, we are nearing the point where Kiwanis 
International will sit before this committee, and we are 
looking forward to that day, to tell you that iodine deficiency 
disorders have been virtually eliminated.
    Thousands of Kiwanis Clubs have already worked together to 
pledge and make private gifts toward the $75 million committed 
by Kiwanis to help eliminate IDD. Mr. Chairman, we are 
successful in our working partnership with UNICEF. It has been 
a successful example of how the private-public sector working 
together can help children.
    It has been a model for other programs which are following 
the same strategy, and so we urge you to support funding in 
fiscal 2004 of the $130 million for our partner, UNICEF.
    Finally, I ask, Kiwanis asks, that you recommend that the 
U.S. Agency for International Development provides at least 
$3.5 million in additional funding in fiscal year 2004, to 
support the Kiwanis-UNICEF Iodine Deficiency Program.
    This would include at least $2 million for the Children and 
Health Account, and $1.5 million for the account of the former 
Soviet Union. Mr. Chairman, we are not seeking the funds for 
ourselves or even our organization, we are asking funds for 
children.
    As Kiwanians we believe that children become the love they 
know.
    We are in a sense planting seeds for trees. When the trees 
grow, the roots grow deep and take hold and they will shade and 
help others.
    I hope you will continue to support our efforts to 
eliminate the single largest preventable cause of mental 
retardation in children. And in the process, help us plant 
seeds that will help others and provide for a better world.
    We seek your continued help as Kiwanis serves the children 
of the world. We thank you very, very much for your previous 
contributions to this effort.
    And I brought my prop, which is Morton's Salt, iodized. And 
nobody here from Illinois. This was made in Illinois.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kolbe. Great tie.
    Mr. Moore. Thank you. That is a Save the Children tie. 
Well, this one happens to be from Kwanis.
    Mrs. Lowey. Is that a Kiwanis tie?
    Mr. Moore. Yes. Kiwanis International tie. I wore this one 
today.
    Mr. Kolbe. I just want to thank you very much. You know, 
one of the really inspiring things about the public witness day 
to me is the number of groups that come before us, the NGOs who 
come before us. And particularly service organizations like 
yours, or Rotary, that come before us that have picked out a 
particular problem in the world and really focused on it.
    And it really amazes me: Without your attention to this, it 
is hard to imagine that we would be doing what is being done 
today. And so to all Kiwanians across the country and around 
the world I say, thank you for what you are doing.
    Mr. Moore. We appreciate your help because, to be frank 
with you, I was on this from the beginning. And when they 
mentioned iodine deficiency disorder, I had no clue as to what 
it was. I do not think many of us do. And you have helped 
educate the world.
    And so now we are on the verge of that success. And we 
appreciate that.
    Mrs. Lowey. Are all the Kiwanis Clubs working on this 
issue?
    Mr. Moore. Yes, ma'am. In fact, all over the world, 
including in some places actual hands on. Like in the 
Philippines, they are out there actually doing stuff.
    Mrs. Lowey. How many members do you have now?
    Mr. Moore. We have, between our youth organization and 
everything, about 650,000. We have 220,000 key clubbers who 
have raised over $2.5 million towards this effort. That is high 
school kids in the United States. We have builders clubs in 
middle schools that done that. It shows that they can look 
beyond their own borders as to what people need around the 
world.
    Mr. Kolbe. Thank you very much.
    Mr. Moore. Thank you, appreciate it.
    Mr. Lowey. Thank you.
    Mr. Kolbe. We have Anne Keating from the Helen Keller 
Foundation. Thank you very much, Anne, for being with us this 
morning.
                              ----------                              

                                          Wednesday, April 2, 2003.

                         HELEN KELLER WORLDWIDE


                                WITNESS

ANNE KEATING, MEMBER, BOARD OF TRUSTEES HELEN KELLER WORLDWIDE
    Ms. Keating. Mr. Chairman, fellow committee members, my 
name is Anne Keating and I come before you from New York today 
as a volunteer member of the Board of Trustees of Helen Keller 
Worldwide.
    Let me begin by thanking you and all the members of the 
subcommittee for the funding you have provided for our programs 
to help prevent blindness; and, in the larger context, the 
increased resources you have made available for child survival 
programs. This funding is making a difference in the lives of 
children around the world.
    Helen Keller is in one of its most important periods in its 
history. Never before have we been engaged in so many programs 
to prevent disadvantaged people from becoming blind and to 
assist those who are blind. We, in fact, heeded the advice of 
our founding trustee, Helen Keller, who in 1932 said, ``If we 
look at difficulties bravely, they will present themselves as 
opportunities to us.''
    Our programs benefit 200 million vulnerable people each 
year. But the need is still great to do more. Worldwide, one 
child goes blind every minute and thousands of children are 
dying from disease that could be prevented with Vitamin A.
    Childhood blindness is devastating, not only to each child 
who is blind, but also because of the serious social 
consequences. Blind children must depend completely upon their 
families and government health systems. The World Health 
Organization estimates that through the loss of production and 
provision of medical services, blindness causes the global 
economy $25 billion per year.
    The House Foreign Operations Committee more than a decade 
ago initiated the program for blind children in developing 
countries. Funded by the U.S. Agency for International 
Development, the program primarily addresses blindness caused 
by congenital cataracts, the most common form of treatable 
childhood blindness. A simple operation to remove cataracts can 
make a blind child see again.
    Another essential activity funded by and carried out in 
partnership with the USAID is the program to address vitamin A 
deficiency.
    Mr. Chairman, here is the sample of a Vitamin A capsule 
that we administer to children, and a child receiving it in 
Bangladesh.
    The micro-nutrients in Vitamin A fight against the causes 
of blindness and poor vision. The Vitamin A Deficiency Program 
is one of Helen Keller's largest and most successful endeavors.
    Interventions through Vitamin A supplementation, proper 
food consumption and food fortification help prevent 
unnecessary blindness. And at the same time, significantly 
reduce child mortality.
    The 2002 World Health Report produced by the World Health 
Organization states that 21 percent of children in the world 
suffer from Vitamin A deficiency. Vitamin A deficiency is an 
ongoing treatable threat with annual casualties totaling 
800,000.
    Vitamin A is essential for proper functioning of the immune 
system. It gives children the strength to overcome diseases, 
such as measles and dysentery, which in the developing world 
are life-threatening.
    Vitamin A supplementation is among the most cost-effective 
public health program. In fact, Vitamin A supplementation cost 
less than a dollar a year per child. Helen Keller Worldwide has 
also made significant progress in increasing the availability 
of micro-nutrients, including Vitamin A, through the better and 
wider use of vegetables and food planting.
    This is a cost-effective and important means of increasing 
the availability of Vitamin A and other micro-nutrients through 
educated individual crop development.
    In 2002, Helen Keller Worldwide benefited 100,000 
households in Niger through homestead planting programs.
    Mr. Chairman, we asked that you include language in your 
committee report recommending $1.5 million for the program for 
blind children, and at least $30 million for micro-nutrients, 
including $20 million for Vitamin A.
    We also ask that you include language in the committee 
report, calling on the U.S. Agency for International 
Development to provide $500,000 in the development assistance 
funds for programs that address micro-nutrient deficiencies 
through the use of educated crop planting.
    Helen Keller said, ``Every one of us is blind and death 
until our eyes are open, until our ears hear the voice of 
humanity.'' I urge the committee to continue to listen to the 
voice of humanity and to assist us in funding programs that 
help prevent blindness around the world.
    Thank you.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kolbe. Thank you very much.
    Ms. Keating, once again, it is such a simple little thing, 
but it just illustrates. I mean, sometimes when you focus so 
much on the really esoteric diseases and illnesses, and it is 
so cost-effective for such a simple little thing we can do to 
provide basic health for literally millions of children around 
the world.
    We appreciate you.
    Mr. Lewis. Almost 50 years ago, I was a guest at an army 
hospital in the southern part of India. The people stood by for 
blocks and the doctor brought to us two boxes filled with 
cataracts that he had removed personally in the last 30 days. 
This problem is one that has been here for a long, long time 
and it is worth it to hear from you. It is very important.
    Ms. Keating. Thank you.
    Mr. Kolbe. By the way, has your headquarters been restored?
    Ms. Keating. Yes.
    Mr. Kolbe. I know you were destroyed on September 11th.
    Ms. Keating. Yes. We moved to Midtown. And we are fully up 
and running.
    Mrs. Lowey. In New York?
    Ms. Keating. In New York.
    Mrs. Lowey. Are you a New Yorker, as well?
    Ms. Keating. I am a New Yorker. I grew up in Rye, though. 
[Laughter.]
    Mrs. Lowey. Oh, did you?
    Ms. Keating. Yes.
    Mrs. Lowey. I am sorry you do not live there anymore.
    Ms. Keating. I know, me too. It is a wonderful place to 
grow up.
    Mr. Kolbe. Mr. Rothman, you have a question?
    Mr. Rothman. How often does a child need to ingest this 
vitamin capsule?
    Ms. Keating. Once every six months, that is two of these 
capsules a year.
    Mr. Rothman. Thank you.
    Mr. Kolbe. Thank you very much. We appreciate it.
    Ms. Keating. Thank you. Thank you for your time.
    Mr. Kolbe. We now have Dr. Moree, from the Malaria Vaccine 
Initiative.
    Thank you very much for joining us. Thank you.
                              ----------                              

                                          Wednesday, April 2, 2003.

                       MALARIA VACCINE INITIATIVE


                                WITNESS

MELINDA MOREE, DIRECTOR, MALARIA VACCINE INITIATIVE
    Dr. Moree. Mr. Chairman and members of the subcommittee, I 
appreciate the opportunity to testify before you this morning.
    I want to, first, thank you for the language that was 
included in the omnibus appropriations conference report, 
calling on direct support in fiscal year 2003 for the Malaria 
Vaccine Initiative. It will make a difference in saving the 
lives of children who die everyday as a result of malaria.
    NIH estimates that malaria kills between 2 and 3 million 
people every year, most of them are young children living in 
the world's poorest countries. Along with HIV/AIDS and 
tuberculosis, malaria is one of the three biggest infectious 
disease killers in the world today.
    We applaud the increased U.S. government attention and 
funding to the global fight against infectious diseases, most 
notably for HIV/AIDS.
    Today, we are here to draw your attention to the less well-
recognized global health crisis of malaria, and the need for 
malaria vaccine is the best way to prevent this debilitating 
and deadly disease.
    We also want to thank you, Mr. Chairman, Mrs. Lowey and the 
members of the committee for your leadership in ensuring that 
someday malaria vaccines will be part of the solution to this 
disease.
    In just the minute that it has taken me to greet you, three 
more children have died because of malaria. Yet the 
overwhelming number of deaths caused by malaria represent only 
a small fraction of this disease's devastation.
    Between 300 and 500 million people fall ill to malaria 
every year. In addition to the tragic impact on life and 
health, malaria is one of the few diseases that has a direct 
correlation to poverty.
    Malaria's estimated cost to Africa is $12 billion annually, 
slowing economic growth by 1.3 percent per year. Clearly 
malaria prevention should be a key component in efforts to aid 
the economic and social development of countries that are hit 
hardest by the malaria epidemic.
    With appropriate diagnosis and early treatment or drug 
therapy, the physically and economically debilitating effects 
of malaria can be lessened. The tools we currently have to 
fight malaria, though, are not sufficient to have a substantial 
and sustained impact that is needed to resolve the malaria 
crisis.
    The growing resistance to anti-malarial drugs and 
insecticides points to the need for new tools, such as a 
vaccine for children that could actually prevent malaria. 
Currently there are no licensed malaria vaccines.
    The Malaria Vaccine Initiative has significantly 
accelerated the progress of developing malaria vaccines in its 
three short years of existence. Since its founding with the 
generous grant from the Bill and Melinda Gates Foundation, MVI 
is accomplishing its mission, to accelerate the development of 
promising malaria vaccine candidates and assure that they are 
available and affordable in developing countries.
    MVI has identified the most promising vaccines and 
technologies and implemented very targeted partnerships between 
research scientists, vaccinologists and industrial vaccine 
developers. Our work has renewed efforts and expanded the 
interests and the research and development of promising malaria 
vaccine candidates. And our strategically applied funds have 
multiple vaccine candidates to clinical trials on an aggressive 
schedule.
    This year we are supporting 11 clinical trials in five 
different countries, and the list of potential vaccine 
candidates that will be heading into trial is growing.
    MVI's efforts have led to the manufacture and the initial 
clinical trials of five novel malaria vaccine concepts, 
including four products that have never been in vials before.
    The market for a malaria vaccine is primarily poor people 
living in developing countries, so the market forces that 
require an acceptable return on investment by industry will not 
drive malaria vaccine development. Ensuring the successful 
development of a vaccine for a disease that primarily affects 
the poorest people in the world requires push incentives, such 
as the funding for research and development and also pull 
incentives, such as the funding for vaccine purchase and a 
guarantee of market. Funding for the vaccine fund that was 
already addressed in previous testimony this morning is very 
important to enhance the credibility of these developing 
country markets.
    We at MVI know that our efforts so far represent a good 
start. With our partners, we have established the momentum, but 
more and broader support is needed to achieve our common goal 
in the shortest time possible. For each year that we delay, 
another 2 to 3 million lives are lost.
    In order to reach the goal of developing a malaria vaccine, 
I urge the committee to recommend that $5 million be provided 
in fiscal year 2004 for the Malaria Vaccine Initiative. I also 
encourage the committee to increase funding in fiscal year 2004 
in the child survival and health account. Increased funding for 
child survival and health in general and for the malaria 
program specifically will save children's lives around the 
world.
    Thank you very much for your consideration. And I am happy 
to answer any questions.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kolbe. Who actually operates the Malaria Vaccine 
Initiative?
    Dr. Moree. We are a non-governmental organization.
    Mr. Kolbe. It is through you?
    Dr. Moree. PATH is the organization and the Malaria Vaccine 
Initiative is a program. So PATH is a non-governmental 
organization. Our quarters are not in New Jersey, but actually 
in Washington.
    Mr. Kolbe. Okay, PATH is the administrator, what actually 
administers, okay. PATH then is the one who administers----
    Dr. Moree. Correct.
    Mr. Kolbe [continuing]. The program?
    Dr. Moree. Correct.
    Mr. Kolbe. What is your total funding now for that, the 
program?
    Dr. Moree. We were funded three and a half years ago for 
$50 million from the Gates Foundation, yes. And right now we 
are spending about $10 million a year.
    Mr. Kolbe. Do you get anything at this time from USAID?
    Dr. Moree. We are in the process. We have a meeting with 
them next week to actually to see some results from the 
language that was put in last year. So we are in the middle of 
that process.
    Mr. Kolbe. Well, you know, a vaccine for malaria would just 
be an incredible breakthrough in the world and save so many 
lives. So I appreciate your coming in to talk to us about this.
    Mrs. Lowey. Thank you again for your commitment and hard 
work.
    Dr. Moree. Thank you.
    Mr. Lowey. And I would just associate myself with the 
chairman's remarks.
    Dr. Moree. Thank you very much.
    Mr. Kolbe. Thank you very much, Dr. Moree.
    We are next going to hear from Markos Kounalakis, chairman 
of the board for Internews.
                              ----------                              

                                          Wednesday, April 2, 2003.

                               INTERNEWS


                                WITNESS

MARCUS KOUNALAKIS, CHAIRMAN OF THE BOARD, INTERNEWS
    Mr. Kounalakis. Yes, good morning. Thank you, Mr. Chairman. 
Thank you for your continued support.
    Good morning, Congresswoman and members.
    I am from Sacramento, California, and serve as a volunteer 
to the Internews Network. Last year our president, David 
Hoffman, appeared before you.
    And a bit about myself: I am a former foreign 
correspondent. I worked for Newsweek and for NBC Regional News 
in Moscow. I covered the fall of the Soviet Union and the war 
in Afghanistan. And I am currently the publisher and owner of 
the Washington Monthly.
    I am here to tell you three specific things and to thank 
you first of all for your support on all three of these.
    Internews, as you may recall, is working very differently. 
We work on the pandemic of propaganda in many ways and to 
combat the types of problems that you have heard about through 
information and through training. The three are problems in the 
Middle East, secondly, HIV/AIDS and Africa, and thirdly really 
just thank you for your working support in the Burmese region.
    On the Middle East, there are three specific issues. One is 
during this last week, as war has raged in Iraq, we were able 
to train 45 journalists in Amman, Jordan, 36 of whom are women. 
These journalists are now in a much better position to be able 
to go into a post-conflict Iraq, to be able to report using 
international values and standards, and will be able to provide 
the type of information that will be important in the nation-
building that follows and the moves toward civil institutions 
and democracy.
    The second thing is, I have been asked by the Greek 
government to chair a conference. The conference will begin 
with a working group in Cairo with media legal experts, NGOs 
from the Arab world, to develop a media legal framework and 
regulatory framework for a post-conflict Iraq.
    And that will be held soon. The working group is already 
working in Cairo.
    Thirdly, I think it is just a general comment to talk about 
the need for moderate voices to evolve in the region. We are 
all familiar with the types of vituperative language that comes 
out of there, the hate, the propagandistic nature of the media, 
and Internews has worked in many other parts of the world to 
combat this through the development of independent, open, 
pluralistic media.
    We have been doing it in Afghanistan, we are working in the 
East Timor, and other areas around the world. Forty-one 
countries have to date trained 22,000 journalists.
    Secondly, HIV/AIDS, of which you all heard a great deal 
about. We are now, thanks to your support last year, in two 
countries, Nigeria and Kenya. We have a support infrastructure, 
which includes both the stations and the resource centers that 
will allow us to train not just the journalists on the ground 
but all the way through the management chain, program 
directors, managers and the like, to be able to do things on 
the ground.
    We are not talking about parachuting journalists in, we are 
talking about teaching those who are there to be able to deal 
with their problems on the ground. For that we request a 
minimum of $2 million.
    And finally I wanted to touch upon the Burmese issue, which 
your committee has been very supportive of. And we are active 
in Thailand training journalists. We also have now support from 
the Dutch government to set up a journalism school in Thailand, 
and I believe this year we had 60 journalists who were trained.
    And so this is the work we do. I think I am even short, so 
thank you very much for your support.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kolbe. You operate with a grant now from the Bureau of 
Democracy, Human Rights and Labor.
    Mr. Kounalakis. That is right.
    Mr. Kolbe. Well, you are in a perfect position to, I do not 
know if capitalize is the right word, but to take advantage or 
to help with the new Middle East initiative that Secretary 
Powell has proposed. Is that not right?
    Mr. Kounalakis. That is correct.
    Mr. Kolbe. And we are going to be, in the supplemental 
funding, at least we have recommended $100 million in that 
fund, so there is going to be a substantial amount.
    I hope you will be a major player in that.
    Mr. Kounalakis. We hope to be, and we are certainly in 
discussions with those who can help us in that regard.
    Mr. Kolbe. Okay, thank you very much.
    Mrs. Lowey. I just want to follow up, you said you were 
asked to put on a conference.
    Mr. Kounalakis. Yes.
    Mrs. Lowey. Can you tell me by who and who are you inviting 
and what is your role?
    Mr. Kounalakis. Yes. We, Internews, felt it was important 
that this conference not be seen or even, in fact, be a U.S.-
led effort to enter into a post-conflict Iraq, so that it would 
become a much more multinational conference.
    The U.S. government is helping us in developing this.
    Mrs. Lowey. Did the U.S. government ask you to put on the 
conference?
    Mr. Kounalakis. No, in fact, we had put together the 
working group. We had approached the U.S. government, the 
USAID, and had discussions regarding our conference. They have 
been very supportive, but they are, in fact, not the lead 
organization in doing this.
    And so we have an Internews organization in Europe, we have 
the Greek government; as I mentioned, Foreign Minister 
Papandreou's been very supportive of this. A number of Iraqi 
expat exile groups are, in fact, looking to attend. And this 
Arab NGO group, one member of which I should not mention, but 
they are media legal experts and human rights experts, well, 
from Egypt. While there are many NGOs in Egypt, the majority of 
them are GOs. This one, in fact, does have an NGO strength and 
support, and it is independent of governmental support.
    Mrs. Lowey. I would be interested in just hearing who is 
being invited and what is the agenda.
    Mr. Kounalakis. I can get you specifics on that.
    Mr. Kolbe. That would be interesting to hear. I think we 
would both be interested in that.
    Mr. Kounalakis. Good. Thank you very much.
    Mr. Kolbe. Thank you very much. We appreciate it.
    Let's try to keep on track as much as possible. Jim 
McDermott, remember our distinguished colleague?
    Jim, thank you for joining us this morning. Please proceed.
                                          Wednesday, April 2, 2003.

                           GLOBAL HIV CRISIS


                                WITNESS

HON. JIM McDERMOTT, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    WASHINGTON
    Mr. McDermott. I think you have a written testimony which 
we have given to you, but I feel like I am preaching to the 
choir here. When they asked me if I would come over to talk I 
thought why should I go tell Kolbe what needs to be done, since 
you and I have done so many things together in trying to deal 
with this issue.
    But I do think that this is a particularly auspicious time 
because you have two statements, I think, that are really very, 
very important. One is that Colin Powell has already said that 
the AIDS epidemic is more important than the war on terrorism. 
I think that statement alone says something about the real 
impact of what is going on, that this man recognizes, who sees 
the whole thing, the essence of it.
    And I think the other thing is that the president has seen 
fit to put a serious effort forward and said he is committed to 
it, and I hope that the Congress will appropriate the full 
amount that he asked for.
    I recognize these are difficult times, but if that money is 
not begin to be in the pipeline, and the infrastructure 
becomes, in the process of being built, we are going to have no 
chance to stop what is going on in Africa, or India, or what is 
coming in other parts of the world.
    I am not going to sit here and recite figures to you; no 
need to. But I think there are two things that I would say, and 
one of them is in how you put the money out, one is the issue 
of use of NGOs.
    With all due respect to USAID and a lot of other 
organizations, I would encourage you to think about ways in 
which you can make specifically possible to have money go to 
NGOs.
    I had an experience in India, which I will tell you about. 
Having been to India a number of times, I knew the finance 
minister, Jaswant Singh. So I visited with him one day and we 
talked about Boeing airplanes or whatever. And then as I was 
leaving I said, you know, ``There is $20 million sitting over 
in USAID that we would like to give straight to an NGO and we 
cannot because the Indian government wants to run it through 
the health ministries. And everybody knows that 10 cents on the 
dollar will finally make it out to the program.''
    He just, kind of, mumbled, ``Oh, I understand,'' and that 
was the end of it. But next time I came back, the money had 
gone.
    And I think that there is an understanding in many of these 
governments that if we find good NGOs that we can direct money 
almost directly to them, if we approach the governments and 
say, ``Look, this is a place that is really working and you 
ought to help them.''
    The second issue, and this one is an issue that I think is 
even more difficult. And I have a constituent who wrote his 
Ph.D. thesis on the communication of AIDS education to native 
populations in Botswana. He was a missionary kid raised in 
Botswana, spoke Tswana and went over there to figure out how 
things were done. And after he was there for a while he figured 
out that the best way was to sit around the fire at night with 
people who would listen and talk about how they found out about 
what was going on.
    And there are three people in a village who have an impact 
on what is happening: the schoolteacher, the nurse and the 
native healer. Now, the first two groups obviously are 
perfectly acceptable in our country and you could defend it in 
the press. But efforts to get the native healers involved in 
what is going on is much more difficult because it lends itself 
to somebody putting a headline in the paper somewhere that the 
Congress has sent money out to witch doctors or whatever.
    But I would at least encourage you to look and listen to 
organizations that are working with indigenous people. Because 
getting people to change their most private, personal behavior 
is not done by sending an expert from the University of 
Washington, which is the best university in the country; has an 
awful lot of experts at least.
    When they go over there, they put their hand in the bucket 
of water. When they leave, they pull it out and there is 
nothing left because they are an American. And they may have 
made some little impact. But the real impact is made by the 
people on the ground.
    And I would encourage you, as you are looking at how you 
distribute the money, whether it is all to AIDS education or 
all for buying medications or whatever, I think there should be 
some split in there with a big part on education.
    And I am going down next week to visit Paul Harmer who is 
delivering Boston-style medicine, or at least hopes he is.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kolbe. I was there in January. Oh, you have seen him. 
Okay, good, because I want to see how he is doing it. Because 
the delivery of 10 tons of medication to the dock in Lagos does 
not do anything. It is how do you get it out. Yes, I will be 
interested in your observations when you come back from there.
    Let me just say thank you. There is nobody in the Congress 
that is your equal in terms of either your commitment, your 
understanding and knowledge about the HIV/AIDS pandemic. And 
certainly what is in your written testimony, the issue of how 
we allocate these funds between the president's new bilateral 
initiative and the global fund is one that this subcommittee is 
going to consider very carefully because I am concerned about a 
new program's capacity of that much money that we are talking 
about.
    Mr. McDermott. You raise an issue that troubled me. I mean, 
I read the Millennium Challenge Account and I thought, ``Which 
countries in Africa are going to get any money out of this, 
given those prescriptions?'' So, you have a tough job and I 
know you will do a thoughtful job on it.
    Mr. Kolbe. Thank you.
    Mrs. Lowey. I appreciate your commitment as well. And I 
share your concern about delivery of services. I can remember 
seeing programs funded where the money would go directly to the 
local barber because the community people were talking to him 
and he can provide the best education.
    So know that the chairman and I agree with you. And we look 
forward to continuing dialogue. Thanks so much.
    Mr. McDermott. Thank you very much.
    Mr. Kolbe. Since I am going to have to leave in the next 
couple of minutes, before we call our next witness, I am going 
to ask Mr. Knollenberg to take the chair here and I will sit 
there.
    Mr. Knollenberg [presiding]. Next witness is Howard Kohr 
from AIPAC.
    Welcome and your entire testimony is going to be entered 
into the record. But you are free to make your comments.
                              ----------                              

                                          Wednesday, April 2, 2003.

                                 AIPAC


                                WITNESS

HOWARD A. KOHR, EXECUTIVE DIRECTOR, AIPAC
    Mr. Kohr. Thank you. I will attempt to be brief here.
    First, I want to thank my colleagues who are here, Brad 
Gore, Mr. Curse and other members of our organization who are 
with us today.
    I want to start by thanking, first of all, you, Mr. 
Chairman, Mr. Kolbe, Ms. Lowey, all the distinguished members 
of this committee, for your longstanding support and all that 
you have done over the years to strengthen the ties between the 
United States and Israel. I, in particular, want to make 
mention of your support yesterday for the emergency 
supplemental and its inclusion of the $1 billion military 
assistance and the $9 billion in loan guarantees. They come at 
a very, very critical time for Israel's economy and security.
    In fact, I just left one of my colleagues here, who is 
Wendy Singer, while I did something over onto the Jerusalem 
office. Wendy just left. And she told me a story that I 
actually want to tell the committee.
    She has three small children in Israel today and she left 
them to be here for our conference which just took place. And 
about three weeks ago, she was celebrating with her children 
the Jewish holiday Purim, which I guess the closest analogy on 
the American calender is the holiday of Halloween where kids 
get dressed up in various costumes here.
    And she has small children, and her small children did not 
want to put on a costume. Then they put on the mask, took it 
off, and she has got a 3-year-old that just did not like it, 
did not want to wear it, and finally she gave up, just said, 
``All right, you do not want to wear it then we will go to the 
party without the costume.''
    About a week later the conflict in Iraq started, the people 
of Israel, all of them, from the youngest to the oldest, are 
preparing themselves for the worst that may come, being very 
supportive of the war and the president's actions, as the 
government of Israel is, but the citizenry has to prepare 
itself for an unconventional attack that Saddam may launch.
    And the children, starting in the preschools, go to school, 
and as the teachers explained to the parents, they are each 
given a gas mask that they must carry with them all the time, 
and they tell them this is not like Purim, where you do not 
have to wear the mask. You have to wear the mask when you put 
this on, and for a 3- and 4-year-old this is very difficult. 
But it is the reality at the moment.
    Israel is supportive of this effort, providing the United 
States in this war against Iraq with advanced technology, with 
logistic support, with advice on homeland security, weapons 
technology. But the reality for the citizenry here it is a 
tremendous expense emotionally; the sheer providing of the gas 
masks to the population is $500 million. Keeping their air 
force on readiness costs hundreds of millions of dollars here 
and there, and now basically 24-7 and on full alert 
anticipating what may or may not happen. In addition to the two 
and a half years of the war on terrorism that was launched, and 
Yasser Arafat has exacted a tremendous toll.
    And this committee's willingness to provide not only the 
emergency assistance but the ongoing assistance to Israel, is 
deeply, deeply appreciated by the pro-Israel community here and 
by the people of Israel.
    And I just want to say thank you.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Knollenberg. That is the extent of your comment? Well, 
thank you very much. I do think that the news of yesterday was 
substantial and I think for reasons that are substantial, too, 
it obviously favors Israel. I know that you are very pleased 
with that, as we are, too.
    And I think the committee in its entirety pretty much feels 
that way, too.
    Mrs. Lowey. I just wanted to join my colleague in 
expressing my strong support for the Israel-United States 
relationship, as you know, and particularly thank you and your 
colleagues who are here because the information and the 
expertise that you share with members who may not be as 
familiar with the issue is absolutely vital to your success and 
the reason why we get this strong support.
    And certainly now, with Israel being right there in the 
region, we understand the possible threat, and it is our 
privilege to be on this committee, to be able to be supportive.
    Mr. Kohr. Thank you.
    Mrs. Lowey. So I thank you.
    Mr. Rothman. Thank you, Mr. Chairman.
    Let me say the educational work of AIPAC is so important, 
not only as so many other organizations who come before this 
committee, to describe humanitarian relief that we can provide, 
but frankly, in tough economic times here in the United States, 
the education that you provide the members of Congress and to 
the people of the country about the vital national interests of 
the people of the United States of a strong, safe and secure 
Israel is very critically important.
    It is not just about American altruism, it is about 
America's self-interest in a strong, stable, secure Israel.
    Mr. Kohr. Thank you, Congressman.
    Mr. Knollenberg. Well, I thank you very kindly.
    Mrs. Lowey. Thank you very much.
    Mr. Kohr. Thank you.
    Mr. Knollenberg. Next we have Aaron David Miller, the Seeds 
of Peace. Aaron, I know, was the former deputy negotiator in 
the Arab-Israeli conflict and a deputy for Dennis Ross.
    So welcome. Good to have you here.
                              ----------                              

                                          Wednesday, April 2, 2003.

                             SEEDS OF PEACE


                                WITNESS

AARON DAVID MILLER, PRESIDENT, SEEDS OF PEACE
    Mr. Miller. Thank you very much. I want to thank everyone 
on the committee, the chairman, for the opportunity to talk to 
you briefly about Seeds of Peace today.
    My message is very direct and simple. For the last 24 years 
I had the honor and privilege of advising six secretaries of 
state on the Arab-Israeli peace process.
    That process now lies broken and shattered.
    It will resume, and when it does resume we, and I would 
include myself in this, because I bear as much of the 
responsibility as anyone else, have to do a much better job of 
investing in the kinds of programs that are capable of creating 
real ties and relationships between people.
    Governments will negotiate the agreements, but the 
character and the quality of the peace that ultimately has to 
be reached will be defined by people. And Seeds of Peace is one 
of perhaps the most preeminent organizations in terms of its 
capacity to succeed.
    Seeds is training leaders, and in a generational conflict 
that is going to take years to resolve, young leaders are 
critical. Seeds is providing these young leaders with the 
negotiation, mediation and critical thinking skills that are 
required to define common ground.
    It is not about kids singing ``Kumbaya'' out in the woods. 
It is extremely hard and difficult work.
    And Seeds is also about creating practical alternatives to 
conflict and giving young people an option. In a decade we have 
had more than 2,000 kids through the program from four of the 
world's most intractable conflicts: South Asia, Cyprus, the 
Balkans, but primarily the Arab-Israeli issue.
    And even now, when the situation is really grim, we are 
doing remarkable work through our Center for Coexistence in 
Jerusalem. Hundreds of Israelis and Palestinians over the last 
six months have not only gone to the camp in Maine but 
continued with follow-up coexistence sessions in Jerusalem.
    Hamas is running 5,000 kids a summer through their 
coexistence camps in the West Bank and Gaza. We are trying to 
run 450 kids, and my message is very simple: With sufficient 
resources we can guarantee the quality of these kids. We simply 
have to find a way to increase our access to the quantity.
    And Congress has been remarkably supportive. I want to 
thank all of you for your continued support.
    Now, the Seeds message is more critical than ever. We, as a 
government, as a people, need to be associated with efforts to 
promote dialogue and understanding, and Seeds also offers a 
terrific window into America. We have 100 kids on scholarships 
that have gone through the program at U.S. colleges and 
universities, exposing them to America's openness, its 
tolerance and its diversity.
    So it is a great program and I want to thank you for your 
support.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Knollenberg. Mr. Miller, as you know, I have been to 
the camp in Maine and I know a little bit about what goes on up 
there. It really, truly is something that if you have not had 
the opportunity I would recommend because they do some amazing 
things there. And if you are going to give peace a chance, you 
ought to, I think, consider this program. This committee has 
been very, I believe, very supportive of this organization.
    I just want to weigh in and say, I think we would be losing 
greatly if we did not in fact, to the extent that we do, fund 
this organization for what it does. But I just want to thank 
you. Keep up that leadership. And I believe you will find that 
it is reflected in the support here.
    Mr. Miller. Thank you very much.
    Mr. Knollenberg. Thank you.
    Mrs. Lowey. And I, too, thank you for your testimony and 
the important work you do. And just for the record, maybe if 
you can just tell us in a couple of sentences or less about the 
Hamas camps, are they run by Hamas, the 5,000 camps you are 
talking about?
    Mr. Knollenberg. Five thousand kids.
    Mr. Miller. They are run by a variety of Palestinian 
organizations and groups. And they are teaching the kinds of 
socialization of grievances and hatred that we have to find a 
way to counterbalance.
    Mrs. Lowey. Who else is running them besides Hamas? Or is 
it difficult to try and determine who is responsible?
    Mr. Miller. Well, our access was difficult then when I was 
in government, and it has been even more difficult since 
January. But believe me, there is enough hatred and 
conditioning of a young generation in the ways of violence and 
terror to go around.
    My point is very simple. If this is going to survive, it 
has to survive in the bright and harsh realities of life in the 
West Bank and Gaza and in Israel. And that is what coexistence 
has to be struck. And that is why we need to follow up with 
funding around.
    Mrs. Lowey. I appreciate this. Thank you very much for your 
important work.
    Mr. Knollenberg. Next we have Rabbi Bruce Cohen, the 
Interns for Peace.
    Rabbi, you are welcomed and you may commence your 
commentary. And your statement will be included, obviously, in 
the record. So you are welcome.
                              ----------                              

                                          Wednesday, April 2, 2003.

                           INTERNS FOR PEACE


                                WITNESS

RABBI BRUCE COHEN, DIRECTOR, INTERNS FOR PEACE
    Rabbi Cohen. Thank you very much.
    I am Rabbi Bruce Cohen, international director and founder 
in 1976 of Interns for Peace, which views peace, like war, as a 
profession and has been training professional community peace 
workers in Israel, Palestinian Gaza and the Balkans.
    My colleague, Hishan Pulab, founder of Interns for Peace 
training in Palestinian Gaza, is unable to be with us today due 
to the Gulf War.
    On behalf of the entire Interns for Peace staff, I thank 
the Honorable Jim Kolbe, the Honorable Nita Lowey of my own 
18th Congressional District of New York, and all the members of 
the committee and your staffs for this opportunity to share an 
analysis based on the 27 year field experience of Interns for 
Peace on how best to overcome the cult of terror spreading 
among youth in the developing world.
    More than 150 ethnic conflicts are now raging worldwide. 
They are all fueled by hate. When someone flies an airplane 
into a building full of people, they are motivated not by 
economics but by hatred. In ``Why We Hate,'' Rush Dozier, Jr. 
writes, ``In the post-Cold War era, there remains one 
overwhelming threat to peace: hate.'' This may be humanity's 
last chance to solve this daunting problem.
    The need for congressional leadership to confront this 
spreading hate becomes clear when examining studies by the 
donor world and its own performance to establish prosperity, 
stability and peace in the developing world.
    The World Bank documents that over 50 percent of the 
countries where peace is established lapse back into conflict 
within five years.
    The U.N. reports that aid in urban and rural economic 
development has failed to empower the poor to positively 
influence their own future.
    USAID acknowledges that its field missions still need to 
understand that economic reconstruction is primarily a battle 
for hearts and minds.
    Economic and political empowerment is absolutely vital, but 
it does not melt away entrenched hatreds.
    The State Department reports that its focus on the elites 
and their children is mandated by the Fulbright Program's false 
assumption that social change mainly occurs from the top down.
    The poor of the developing world, even their leaders, are 
rarely mainstreamed by either U.S. aid or diplomacy. Ambassador 
Dennis Ross, former chief U.S. peace negotiator, learned from 
experience the human tragedy that occurs when indigenous 
grassroots peacemakers are not thrown a life line and are not 
empowered because the focus remains on the elites while the 
youth in the street are ignored.
    Those Palestinians who grew up in refugee camps in Gaza and 
joined Interns for Peace in 1993 with Oslo predicted that the 
failure of this peace process unless deliverers of aid and 
indigenous educators were trained to be on the front line of 
tolerance training.
    In the West Bank and Gaza and other areas of the developing 
world, terror groups are amply funded to serve up hate at these 
camps that you have heard about with milk and cookies.
    Those who do seek, and they are there, in their religion 
and society and to keep their religion and society from being 
hijacked by the extremists--those moderates are marginalized 
without the necessary resources being given them.
    Interns for Peace has demonstrated what Rush Dozier, Jr. 
has said in ``Why We Hate'' over these past 27 years of field 
training. Mainly, cooperating with others in mutually 
beneficial ways to achieve a common goal does build bonds of 
trust that can replace feelings of mistrust, fear and hatred.
    We have learned how to identify the natural leaders and to 
train them as community peace workers who, one, mentor the poor 
and unite diverse groups in sustainable development and teach 
tolerance even to the most resistant fundamentalists and street 
youth.
    My time is up. In sum, we are requesting the committee for 
congressional leadership to recognize to the State Department 
that successful peace plans require compulsory peace education 
for all youth traumatized by the conflict.
    And two, to USAID, to recognize that a reconstruction plan 
to be successful must finance the extensive training of 
indigenous aid workers and educators as community peace 
professionals.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Knollenberg. Rabbi, thank you very kindly.
    Any questions from the panel?
    Mr. Lowey. Thank you very much, we appreciate your 
important work.
    Rabbi Cohen. Thank you
    Mr. Knollenberg. Thank you.
    Dr. John Sever, who is with Rotary International. Dr. 
Sever, you are welcome and you can begin your commentary right 
away. You are recognized.
                              ----------                              

                                          Wednesday, April 2, 2003.

                          ROTARY INTERNATIONAL


                                WITNESS

DR. JOHN L. SEVER, ROTARY INTERNATIONAL
    Dr. Sever. Thank you very much, Mr. Chairman, to Ms. Lowey, 
members of the subcommittee, I appreciate this opportunity to 
represent Rotary International in our effort to continue our 
program to eradicate polio and to continue to have the support 
from the U.S. Agency for International Development.
    This has been a real race to complete this job of 
eradication of polio.
    Starting in 1985, we began on this targeted effort to work 
in this area, and progressively things have gone well. We are 
still on target now to complete this world-wide eradication of 
polio by the end of the year 2005.
    But there still is this last effort in that race to get the 
job done, to make those last two years effective and complete 
eradication.
    When we started in 1985, there were more than 1,000 
children paralyzed worldwide with polio every day. Now we are 
down to the point at which there are just seven countries which 
still have endemic polio. And there were less than 2,000 cases 
of polio in the world last year.
    It has been a tremendous decrease. But when you focus down 
on those areas, those become critical areas that you must 
target and complete the job, because if there is polio anywhere 
in the world, there is always the chance that it will move 
right back again to the populations.
    The effort has been going very well, but without the 
support of USAID, the polio-eradication activities would be 
impossible. The program has now been estimated to have 
prevented over 5 million cases of paralytic polio worldwide so 
that there are good markers, good evidence of progression, good 
evidence of the program succeeding and the goal of being a 
world free of polio. We still have these seven countries.
    And if you will permit me just to pass out some colorful 
maps that show you where those countries are.
    You can see that there is a cluster of countries in 
Southeast Asia and that is India and Pakistan and Afghanistan, 
which still have polio. And actually it is not the whole 
countries that have polio. In India, it is just two states in 
the north of India that still have polio. The rest of the 
country is free of polio.
    So that there is a tremendous concentration necessary to 
eradicate polio in those two states.
    In Pakistan, it is just several regions more or less 
adjacent to India where it exists. And in Africa, although you 
can see several countries reporting polio, it is almost 
exclusively really concentrated in Nigeria, and specifically 
northern Nigeria.
    In fact, 99 percent of the cases of polio that occurred 
last year were in this northern area of India, part of Pakistan 
and northern Nigeria.
    And so, we can now focus our efforts very, much, the USAID 
and WHO, on completing this eradication, because we are down to 
these specific areas where polio is still going on.
    That effort Rotary is very much behind over 30,000 Rotary 
Clubs worldwide, 1.2 million Rotarians, about 400,000 in the 
United States alone. And all of the clubs are promoting this 
effort.
    Rotary has contributed now almost $500 million for 
vaccines, vaccine carriers, special mobilization to encourage 
immunizations. There has been millions of hours of volunteer 
work directly in these countries to accomplish this 
immunization.
    In India, for example, the last immunization day, 150 
million children in the country of India were immunized in one 
day. And over 100,000 Rotarians and their families in that 
country participated in that effort.
    Now, we know that this job is not done. And for that 
reason, Rotary has this year initiated a program among 
Rotarians to raise an additional $80 million to help to 
complete this job. And we are in the midst of doing that, and 
we feel confident that we will do that.
    We have joined in this coalition to eradicate polio with 
the March of Dimes, American Academy of Pediatrics, the Task 
Force on Child Survival and Development, and the United Nations 
Foundation as well as the U.S. fund for UNICEF in this country.
    Worldwide, of course, we work with UNICEF World Health 
Organization, governments themselves and other NGOs in those 
countries.
    Your subcommittee has been very helpful and supportive. 
Last year there was $27.5 million for USAID to work it with 
this effort. And this year we are asking for $30 million to 
complete the job hopefully in the next two years.
    Mr. Knollenberg. Dr. Sever, could you conclude your 
comments?
    Dr. Sever. Okay. The contributions of USAID are really 
essential to this effort. We will appreciate your support. And 
we would appreciate your continued support. Thank you.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Knollenberg. One question: Egypt, that is one of the 
countries, obviously?
    Dr. Sever. Yes.
    Mr. Knollenberg. Where in Egypt is the problem?
    Dr. Sever. I was in Egypt about two months ago, and I went 
on Immunization Day. There are two cases in Giza around Cairo. 
There are about four cases there. And there are another four or 
five cases near Luxor and that region.
    Mr. Knollenberg. So it is Luxor and it is----
    Dr. Sever. And Giza.
    Mr. Knollenberg. It is not Cairo?
    Dr. Sever. It is the western edge of Cairo.
    Mrs. Lowey. You said Luxor.
    Dr. Sever. Luxor is in the south, and the two in the south. 
And so, there are only a handful of cases. But you have to 
eradicate it completely, because every year there is another 
population of children who could be at risk. In India it is 
Uttar Pradesh and Bihar.
    Mr. Knollenberg. Near the Pakistani border?
    Dr. Sever. Yes.
    Mr. Knollenberg. Thank you, Dr. Sever. Thank you very much.
    Mrs. Lowey. Thank you.
    Mr. Knollenberg. The next gentleman is in for Save the 
Children.
                              ----------                              

                                          Wednesday, April 2, 2003.

                           SAVE THE CHILDREN


                                WITNESS

BOB LaPRADE, DIRECTOR OF THE CHILDREN IN EMERGENCIES AND CRISIS UNIT, 
    SAVE THE CHILDREN
    Mr. LaPrade. I am not used to doing this. So I am going to 
be using a lot of notes here. I hope that is okay.
    Mr. Knollenberg. In fact, your entire document will be 
included. But you can proceed with any commentary. And we have 
a vote coming up shortly, but we can obviously get all of your 
testimony in.
    Mr. LaPrade. Okay, great.
    Thank you for providing this opportunity for Save the 
Children to testify before your committee. My name is Bob 
LaPrade, and I am the director of Save the Children's Children 
in Emergencies and Crisis Unit.
    I have been working in the field of humanitarian relief for 
over two decades and spent most of my career living and working 
in conflict zones in Africa and Asia: Mozambique, Angola, 
Sudan, Somalia, Afghanistan, et cetera.
    First I would like to say that we are very pleased the 
House Appropriations Committee saw fit to reassign the proposed 
humanitarian and reconstruction monies for Iraq to the 
Statement Department and other civilian agencies like USAID. 
There must be a role for civilian leadership and provision of 
aid to the Iraqi people.
    I have submitted a written statement that includes for 
requests for funding increases in development assistance that 
we believe will have the most impact on allowing children to 
survive and thrive.
    My comments today, however, will focus on Save the 
Children's humanitarian work in Iraq. Save the Children works 
in 40 countries around the world. We are active in the Middle 
East, and we have been there for 30 years. We have programs in 
Gaza, West Bank, Jordan, Lebanon, Egypt and other countries 
around it.
    In Iraq, over the next year, we will be seeking to provide 
activities and programs to children and their families in the 
area of health care, food and nutrition, water and sanitation, 
shelter and also protection programs to create safe and 
nurturing environments for kids.
    There are two points that I would like to make. Number one 
is that we hope that the U.S. government ensures sustained and 
substantial resources to support both in the short term 
humanitarian needs and then also in the longer term, 
reconstruction needs in Iraq.
    Our program, we plan on programming about $20 to $30 
million in the first year in Iraq. We will be getting funding 
from both public and private resources. And we have recently 
received a grant from OFDA for $10 million within the last 
week.
    We think money will be needed for the immediate needs of 
internally displaced people and victims of the war, people that 
may in an acute phase in an emergency to begin with as well as 
longer term funding to address some of the ongoing emergency 
humanitarian needs that were actually existent before the 
current war started.
    There are a lot of systems that deteriorated over the last 
10 years: the water systems, health systems, that type of thing 
that resulted in things like the child mortality rate having 
doubled over the last 10 years. And half of the children in 
rural areas that cannot even get a clean glass of water to 
drink.
    Obviously, this has severe consequences for the children 
around.
    Anyway, it took a long time for these things to deteriorate 
and it is going to take quite a while to rebuild these systems.
    Mr. Lewis. Could I interrupt your testimony?
    Mr. LaPrade. Certainly.
    Mr. Lewis. In a country that has a considerable base of 
wealth. How can it be that those water systems deteriorate like 
that? Just explain that if you will.
    Mr. LaPrade. Well, I do not necessarily know all of the 
details of how it happened in Iraq, but I can speak from 
experience working in other places that resources get allocated 
to other things that are of higher importance.
    Mr. Lewis. Like what? Save the Children? What is of higher 
importance than that?
    Mr. LaPrade. Well, I think sometimes for, you know, either 
military reasons, or whatever the government that is in power 
may allocate things to. Not to social needs of the people in 
the country.
    Mr. Lewis. It was not exactly a rhetorical question, but 
you understand that.
    Mr. LaPrade. So the second point is that I think we should 
let NGOs do what they do best, and that is provide humanitarian 
relief, and the military do what they do best, to provide 
security.
    We feel that we need to remain neutral and independent of 
the military to provide aid impartially, based solely upon 
need.
    These are humanitarian principles that at Save the Children 
we feel are very important.
    We feel that if we are joined at the hip with military, it 
threatens our staff worldwide. And our field staffers are seen 
as partisan. If we favor certain groups, that undermines our 
credibility with communities.
    The third point that I would like to make is that we plead 
for assistance in addressing some of the bureaucratic hurdles 
that NGOs are facing right now in providing relief in Iraq.
    It has been difficult getting OFAC licenses to legally work 
in Iraq. And even though we have received recently an OFDA 
grant and license that came with that money, it does not allow 
us to program public funds that we raise from the American 
public in Iraq.
    So that continues to be a problem.
    We understand that this issue, to waive OFAC licensing, has 
been deferred to the House International Relations Committee, 
and we hope that any help that is possible can be given for 
that, because we are looking to get into Iraq some time this 
weekend, we hope, and the time is upon us.
    Finally, while we are focused on war, we would just like to 
remind the members that there are 30-plus wars going on around 
the world. One in four children live in these situations. Over 
the past decade 2 million kids have died in wartime.
    Now, traditionally, relief has been kind of focused on food 
and shelter, and less on safety and security, protection of 
women and kids.
    And that needs to get more priority. Congresswoman Nita 
Lowey has agreed to introduce a Woman and Children in Armed 
Conflict Protection Act of 2003, and we hope that members will 
support that bill.
    And, sorry if I have gone over my time. Thank you very 
much.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Knollenberg. You had a question that was in the middle 
of that, so Mr. LaPrade, thank you very much, and we will go on 
to our next witness.
    Mr. LaPrade. Okay, thanks.
    Mrs. Lowey. I would just like to thank you very much for 
the important work you are doing. And you made, in my judgment, 
a very critical point.
    As we respond to emerging crises, we cannot forget the 
current crises in the funding of those all throughout the world 
that I think many people forget that there are 30 wars going on 
around the world, and that is the time to respond to HIV/AIDS, 
and malaria and TB. We cannot divert our assets, we have to 
increase our budgets overall.
    Thank you for your important work.
    Mr. Knollenberg. Thank you.
    Dr. Donald Burke, who is with the American Society of 
Tropical Medicine and Hygiene. Dr. Burke.
                              ----------                              

                                          Wednesday, April 2, 2003.

           AMERICAN SOCIETY OF TROPICAL MEDICINE AND HYGIENE


                                WITNESS

DR. DONALD BURKE, CHAIRMAN, ASTMH LEGISLATIVE TASK FORCE
    Dr. Burke. Thank you very much. I represent the American 
Society of Tropical Medicine and Hygiene, a group of 3,500 
researchers and field workers in tropical medicine, most of 
whom work in the developing countries of the world trying to 
address these problems.
    I am also at the Johns Hopkins Bloomberg School of Public 
Health teaching on the subject.
    Recently the Institute of Medicine released a report on 
which I was a co-author on microbial threats to health, 
emergence, detection and response.
    The Institute of Medicine pointed out that we have now had 
invasions in the United States of several tropical infectious 
diseases, not the least of which is AIDS, starting in Central 
Africa, not the least of which is West Nile Virus, also 
starting in that region, and now we are facing yet another with 
the Severe Acute Respiratory Syndrome that almost certainly 
started in China.
    Now, each of these have in common they are infectious 
diseases starting outside the United States in places where 
there is a very poor health infrastructure, no capability to 
deal with the disease initially, no ability to alert 
institutions and other places where they might get help to 
control the diseases before they become global infectious 
disease threats that threaten the United States.
    Now, so my main message to you today is that many of the 
disease threats that are faced in the developing countries that 
are under your purview can best be addressed by early action, 
by investments in those health infrastructures, in those 
countries, and that in the long run is not really a development 
issue or even a humanitarian issue. It can be seen as a 
national security issue for ourselves.
    So that is it is an investment that cuts several different 
ways, and probably one of the best investments that could be 
made.
    Having said that, I am concerned that I see that I see that 
although the AIDS budget is dramatically increasing, which we 
applaud, we are concerned a bit that some of the other lines 
for other infectious diseases seem to be declining in the 
proposed budget.
    And many of the diseases that I mentioned to you would fall 
under that category of not being AIDS or TB or malaria. So that 
I would please ask the committee to reconsider that the cuts in 
those particular lines, because many of the diseases that may 
face us tomorrow are going to be dependent on this 
infrastructure and on this ongoing assistance.
    Let me say a little bit about some of the most important 
diseases. Malaria is an extremely important disease. Malaria 
has been increasing worldwide; it has not been decreasing.
    There has been increasing resistance to the drugs that were 
used, there are no new drugs on the horizon, and there is 
increased resistance to the insecticides that are used to 
control the mosquito vectors.
    And so that we need a continued effort, both in the 
research and in the field applications for malaria. Other 
parasites like river blindness, onchocerciasis, is a major 
problem throughout Africa.
    I know this one personally. I was infected with that agent, 
and I have been cured since then. So I am very sensitive to 
this as yet another of the tropical infectious diseases that 
need our ongoing attention.
    So I will be short because I know the time is short. But I 
did want to emphasize that although AIDS, TB and malaria, and 
AIDS in particular, are extremely important and we are very 
supportive of those, there are many other infectious diseases 
that are both important in the short term and the long term as 
investments.
    Mr. Knollenberg. You survived river blindness?
    Dr. Burke. That is correct.
    Mr. Knollenberg. So you can survive it once you get it?
    Dr. Burke. Yes, there is a drug that can be taken. You have 
to take it every six months for five years, and that is what I 
have done, and I have been cured.
    Mr. Knollenberg. How commonplace is it?
    Dr. Burke. In Africa it is exceedingly commonplace. If you 
go into the rural areas in, say, Cameroon, where I got it most 
of the adult population will get it. If they get the drugs, 
then they, too, can be cured. But the problem is, they do not 
get the drugs and they go on to blindness.
    Mr. Knollenberg. That is very common.
    Dr. Burke. It is exceedingly common. There are multiple 
adults with chronic infections in their skin as well as the 
blindness. That is very commonplace throughout equatorial 
Africa.
    Mr. Knollenberg. If there is no treatment, they will go 
blind.
    Dr. Burke. If they do not get the treatment. There is a 
treatment and it is cheap and it is easy, but the problem is 
the health infrastructure does not get them the drugs.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mrs. Lowey. Thank you very much for your important 
testimony. And it just once more reinforces the tremendous 
challenge we have. It seems to be immoral. If we have the means 
to cure and a means to prevent and are not doing it, it is just 
darn wrong.
    Dr. Burke. It is not only immoral, it does not make sense.
    Mrs. Lowey. It really does not.
    Now, let me thank you so much.
    Mrs. Lowey. Okay, thank you, ma'am.
    Mr. Knollenberg. John Salzberg, with the Center for Victims 
of Torture, you are welcome.
                              ----------                              

                                          Wednesday, April 2, 2003.

                   THE CENTER FOR VICTIMS OF TORTURE


                                WITNESS

JOHN P. SALZBERG, WASHINGTON REPRESENTATIVE, THE CENTER FOR VICTIMS OF 
    TORTURE
    Mr. Salzberg. Thank you, Mr. Chairman. I greatly appreciate 
having this opportunity to testify on behalf of the Center for 
Victims of Torture. But also in a very real sense, on behalf of 
foreign treatment centers for victims of torture worldwide.
    In 1998, Congress recognized that the United States has a 
responsibility to support domestic and foreign treatment 
centers, when it is enacted, the Torture Victims Relief Act.
    This act charts three federal agencies with this 
responsibility: The Department of Health and Human Services to 
support domestic treatment centers for victims of torture; the 
Agency for International Development to support foreign 
treatment centers for victims of torture; and the Department of 
State to contribute financially to the United Nations voluntary 
fund for victims of torture.
    My testimony today relates to the two agencies which fall 
under this subcommittee's jurisdiction, AID and the Department 
of State.
    Over the last 20 years there has been a phenomenal growth 
in treatment centers for victims of torture. Beginning with 
just a few centers in the early 1980s. There are now one or 
more centers in at least 73 countries. Treatment centers exist 
in both countries of refuge such as the United States and 
countries of Western Europe as well as in countries where 
governments have practiced or continue to practice torture.
    Since 1985 in this country alone, the number of treatment 
centers has increased from a handful to now more than 30 
treatment centers in 19 states. In fact, some of you may have a 
treatment center or clients of a treatment center in your own 
congressional district.
    The clients of these domestic centers are persons tortured 
by foreign governments, often because they were leaders in 
seeking human rights and democratic change in their country.
    AID now has an active program in supporting foreign 
treatment centers for victims of torture. Through AID, our 
center is assisting 15 treatment centers in Latin America, 
Asia, Africa, the Middle East, and Eastern Europe.
    The overall goal of our program is to strengthen the 
center's organizational financial sustainability, their 
treatment services, and their advocacy efforts to prevent the 
practice of torture. Further information on our program is 
contained in the annex to this testimony.
    AID has also published a report describing the programs of 
the victims of torture fund. We would recommend that AID 
concentrate on helping indigenous treatment centers in host 
countries. AID headquarters should encourage its country 
missions to research whether their host country has an 
indigenous treatment center. And headquarters can also seek out 
information from those with international expertise such as the 
United Nations Voluntary Fund for Victims of Torture.
    In 2002, the fund assisted 166 organizations in 60 
countries and hence would be in an excellent position to give 
advice to AID on treatment centers. In enacting the Torture 
Victim's Relief Act, Congress noted: ``By acting to heal the 
survivors of torture and protect their families, the United 
States can help to heal the effects of torture and prevent its 
use around the world.''
    With respect to AID, the legislation states: ``Such 
assistance shall be provided in the form of grants to treatment 
centers and programs in foreign countries that are carrying out 
projects or activities designed to treat victims of torture for 
physical and psychological effects of torture.''
    This subcommittee, over the last several Congresses, has 
reaffirmed the intent of Congress in adopting the Torture 
Victim's Relief Act and adopting the foreign operations 
appropriation bill last year. The House Committee on 
Appropriations stated: ``Supporting treatment centers is 
permanent national institutions is the best way of providing 
treatment services to victims of torture and advocating for the 
elimination of torture globally.''
    We ask that the committee reaffirm this recommendation. For 
the last three years, the House Committee on Appropriations has 
recommended that AID devote $10 million in assisting treatment 
centers for victims of torture.
    Given the level of development AID has obtained for this 
program and the significant need for international assistance, 
we ask the committee to recommend $11 million for fiscal 2004.
    The United Nations Voluntary Fund for Victims of Torture 
enables the United States to support multilateral assistance to 
victims of torture. The fund was established in 1981. Over the 
years the fund has increased a number of projects assisted and 
reached out to more countries as well.
    Many of the United States treatment centers for victims of 
torture received grants from the fund. For the last three years 
the committee has recommended an annual voluntary contribution 
of $5 million. Given the growth of the funds program, the 
extraordinary needs worldwide, we ask the committee to 
recommend a contribution of $6 million for 2004.
    Finally, last year this committee recommended that the U.N. 
contribute $5 million to the fund, for which we are deeply 
grateful. Due to the lateness of the appropriation process, the 
Department of State has not yet made this contribution. And the 
funds board of trustees will be meeting in a matter of weeks to 
decide on grants. The U.S. contribution is a significant part 
of the U.N. funds resources.
    I ask that the subcommittee urge the Department of State to 
make this contribution well before the trustees meeting.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Knollenberg. Thank you.
    The last point you brought up, it is in the pipeline. You 
are right, we were late, very late in getting the 2003 bill 
done. Is that what it is?
    Mr. Salzberg. Yes. There are certain hoops that the----
    Mr. Knollenberg. We know about some of those. Probably put 
them in place ourselves. But it is coming, that is the point, 
it is coming.
    Mr. Salzberg. Hopefully in time.
    Mr. Knollenberg. Mr. Salzberg, thank you very kindly.
    Next we have the American Lung Association, Dr. Lee 
Reichman.
                              ----------                              

                                          Wednesday, April 2, 2003.

                       AMERICAN LUNG ASSOCIATION


                                WITNESS

DR. LEE B. REICHMAN, DIRECTOR OF THE NEW JERSEY SCHOOL, NATIONAL 
    TUBERCULOSIS CENTER
    Dr. Reichman. Thank you, Mr. Chairman. I am Lee Reichman. I 
am executive director of New Jersey Medical School, National 
Tuberculosis Center in Newark. I am representing the 
International Union Against Tuberculosis and Lung Disease. And 
the American Lung Association serves as the U.S. organizational 
representative of that organization.
    Today I want to thank the subcommittee for its ongoing 
support for international tuberculosis-control activities. I 
would like to report on the groundbreaking total global TB 
control efforts that have been catalyzed by USAID.
    And I would like to encourage the subcommittee to continue 
the important work that you have started by providing 
additional resources for global TB control activities.
    The consistent support of this subcommittee, combined with 
the growing awareness of the magnitude of economic impact of 
tuberculosis has led to a strong commitment to TB-control 
activities at USAID. I firmly believe that USAID's new attitude 
is a direct result of the foresight and leadership provided by 
this subcommittee.
    Of considerable importance, USAID is a major stakeholder in 
the coordinated global TB-control framework. Their funding is 
serving to leverage financial support from other sources, 
public and private, governments and private foundations, which 
have assumed responsibility for different aspects of the global 
plan. But it is USAID that has provided the leadership to 
ensure each element of the plan is executed in a coordinated 
and efficient way.
    For example, the Tuberculosis Coalition for Technical 
Assistance, a unique partnership of six organizations 
interested and involved in global TB control, funded through a 
cooperative agreement from USAID, substantially improves and 
expands the capacity of the USAID to respond to the global TB 
epidemic by providing state-of-the-art, context-appropriate, 
technically sound and cost-effective consultation and technical 
assistance to high-incidence countries, as well as USAID 
missions.
    To control TB, it is crucial that there be a consistent 
supply of TB drugs. And I am pleased to report that a global 
TB-drug facility has been created to provide access to these 
drugs for countries that are committed to conducting effective 
TB-control programs.
    Country-level staff assigned from WHO have a unique 
potential to leverage national/international resources to 
tuberculosis control. The staff can provide invaluable two-way 
communication, informing countries of the latest technical and 
policy developments, use front-line information from the 
country to improve and inform global policies.
    Area activities include technical assistance to implement 
global policies at the national level, support key personnel in 
ministries of health, establish national training 
infrastructures, develop laboratory systems, mobilize resources 
and to provide country monitoring of TB control activities.
    Individuals trained in TB control in the U.S. serve in this 
capacity in many countries, including the WHO's highest burden 
countries, China and India.
    Providing WHO with $10 million dollars will ensure that all 
high burden countries have a country-level TB medical officer.
    Representatives Sherrod Brown, Heather Wilson and others 
will soon introduce bills, one for domestic and one for 
international TB control, that are based on the Institute of 
Medicine's recommendations on controlling TB in the U.S. and 
around the globe.
    We estimate that it will cost $200 million for USAID to 
implement the international component of the Iowa report on TB 
control. And I encourage the subcommittee to review the TB 
legislation and provide NIH, CBC and USAID with the resources 
needed to address TB in the U.S. and around the world.
    Mr. Chairman, the subcommittee has initiated important 
programs to control TB internationally, but the work has only 
just begun. Consider that in 2002, over half of the U.S. TB 
cases occurred in foreign-born individuals.
    Globally this year, 2 million people will die of TB, making 
TB, which is preventable and curable, the largest killer of any 
single infectious disease worldwide.
    It is estimated 8 million people will develop TB this year. 
TB affects people in their most productive years. TB creates 
more orphan children than any other infectious disease. TB is 
the leading killer of HIV-infected individuals, causing 30 
percent of all HIV deaths. And multi-drug-resistant 
tuberculosis has emerged as a major threat.
    To close, Mr. Chairman, these statistics amplify and 
reflect that the sound bite that defines global TB control in 
an era of successful programs domestically is: ``To control TB 
anywhere, one must control TB everywhere.'' In doing so, they 
provide a compelling rationale for this subcommittee to 
continue its support of international TB control by providing 
$200 million to USAID for TB control and $10 million for WHO 
technical assistance in fiscal year 2004.
    On behalf of the union, I would like to thank the 
subcommittee for its leadership.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Knollenberg. Mr. Reichman, thank you very much. I would 
love to ask a question or two, but as you probably have noticed 
there is a vote on and I have to go vote. I am going to yield 
the chair now to Congressman Kirk. So if we can do that and if 
he has a question, he may obviously--
    Dr. Reichman. Thank you very much, Mr. Chairman. I 
appreciate that.
    Mr. Knollenberg. Thank you.
    Mr. Kirk [presiding]. Tell me what you can about TB in 
North Korea.
    Dr. Reichman. That is a very good question. South Korea has 
an excellent TB control program. North Korea, since they do not 
have much communication with the South Koreans, I am not sure 
what they have.
    The International Union Against Tuberculosis that I 
represent here is an NGO that has constituents in most of the 
countries. I believe that there is no constituent in North 
Korea. So the information does not really get out. I know that 
the World Health Organization does communicate with North Korea 
as part of the Asia Pacific region, whatever they call it 
there.
    And I assumed that in any developing country whose 
priorities lie elsewhere, they have very high rates. They do 
not implement the World Health Organization dot-strategy. They 
do not have a constant drug supply, and they certainly do not 
have political will. But I cannot say that authoritatively.
    Mr. Kirk. Thank you very much. Thank you, Mr. Reichman.
    Dr. Reichman. Thank you.
    Mr. Kirk. Mark, with the International Medical Corps. 
Welcome.
                              ----------                              

                                          Wednesday, April 2, 2003.

                      INTERNATIONAL MEDICAL CORPS


                                WITNESS

MARK C. CLACK, VICE PRESIDENT, GOVERNMENT RELATIONS, IMC
    Mr. Clack. Good to see you again.
    Mr. Kirk. Good to see you.
    Mr. Clack. My name is Mark Clack with the International 
Medical Corp, IMC, the Los Angeles-based health and development 
organization currently operating in 16 countries.
    I know that the war in Iraq is looming large for many of us 
here in Washington and particularly you on Capitol Hill.
    For the past seven months, IMC, along with other NGOs have 
been meeting with USAID and the State Department to talk about 
contingency planning and other matters for the upcoming war or 
the current war.
    As my colleague from Save the Children had mentioned, one 
of the first issues we had to tackle was the matter of the 
Office of Foreign Asset Control restrictions. Those seem to be 
working their way through. Hopefully, the bill that you passed 
yesterday will help further break that logjam down the road.
    Where it is of critical importance to us in the NGO 
community is that we need to have certain computers for program 
implementation and backbones and other things for security and 
communications. So if that final hurdle can be cleared, it 
would greatly help.
    Additionally, IMC is one of the five founding NGO members 
of the joint NGO Emergency Partnership Initiative, which is 
funded by the Office of Foreign Disaster Assistance as a means 
of coordinating information and programmatic staff with those 
American NGOs that have been involved in the Middle East for 
the past 10 years or so.
    NEPI is based in both in Amman and Kuwait and is used as an 
information facilitation tool. And thus far it has been working 
out fairly well.
    Currently, IMC has staff and offices in Amman, Kuwait City 
and Ankara, Turkey. We just received a $10 million grant from 
OFDA, so once the security situation is arranged and cleared, 
we will be sending in emergency response teams, health training 
teams.
    IMC, as well as the others in the NGO community are 
grateful for the Appropriation Committee's decision to put the 
funding for humanitarian programs in the State Department. This 
offers a clear delineation for us that it will be mostly in 
civilian control, and it does not muddy the waters or put of 
staff and programs in jeopardy of being confused with the 
military.
    On another issue, while the situation in Iraq is still 
pretty tense and ongoing, we do not want to lose sight of our 
relief and reconstruction agenda in Afghanistan.
    In the past week we have seen two American soldiers 
ambushed, a Swiss aid worker killed, and there is high anxiety 
in Afghanistan amongst international relief workers that 
Afghanistan not be forgotten and that the reconstruction agenda 
and the support for the Karzai government be allowed to work, 
otherwise it will undermine things that we are trying to do in 
other parts of the country.
    And finally, rightly or wrongly, whenever there is a 
repriority of international affairs issues and a reprogramming 
of money, there is always the perception that Africa always 
loses out. So we are hoping that the committee will continue 
with its strong support for HIV/AIDS in Africa and also those 
programs that assist African countries to participate and 
exploit the new regime of the African Growth and Opportunity 
Act.
    So with that, I thank you very much.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kirk. Thank you. And how many people do you think will 
be able to get into Iraq?
    Dr. Reichman. Initially, we are looking at 30 to 40 expats 
and then to hire as many Iraqi nationals as we can. We are 
currently trying to expedite visas through the Humanitarian 
Operation Center in Kuwait City for about 25. And the rest we 
are going to try to get in through Amman.
    So our goal is to hire as many Iraqi nationals as we can 
and then to nationalize the program as quickly as we can in 
accordance with whatever the reconstruction agenda and program 
is.
    Mr. Kirk. Is your agenda primary care or is it training?
    Dr. Reichman. It is both. It is training for primary care 
and water sanitation, maternal, child health, tertiary care, 
therapeutic feeding, supplemental feeding.
    Mr. Kirk. Thank you.
    Dr. Reichman. Thank you.
    Mr. Kirk. Welcome back, good to see you.
    Okay. From the U.S. Conference of Catholic Bishops, Father 
Headley.
    Thank you, welcome to the committee.
                              ----------                              

                                          Wednesday, April 2, 2003.

                  U.S. CONFERENCE OF CATHOLIC BISHOPS


                                WITNESS

FATHER WILLIAM R. HEADLEY
    Father Headley. Thank you very much, Congressman Kirk.
    Congressman Kirk and Congressman Vitter, thank you for your 
attention when you have so many world problems that you are 
struggling with these days. Your leadership and support on a 
number of priorities has been critical to helping the poorest 
of the world that CRS is associated with.
    As deputy executive director of Catholic Relief Services, I 
represent an agency with nearly 60 years of experience serving 
the poorest of the world, enabling people to carry on for 
themselves. I also represent today and speak for the United 
States Catholic Conference of Bishops.
    Our experience is that poverty and instability are 
intrinsically linked and that the U.S. foreign assistance 
programs are vital to addressing these. War obligations, as 
well national and global security compel us to establish 
foreign assistance programs that address root causes along with 
poor governance and limited citizen voice. These things 
exacerbate, if you will, the sense of powerlessness that can 
engender support for terrorists and their aims.
    A strong and engaged civil society can effectively improve 
government openness, accountability and positive decision 
making, reversing the sense of powerlessness and setting the 
conditions for effective development.
    CRS, the agency I represent, and the rich tapestry of 
American private voluntary organizations, PVOs as we like to 
call them, can therefore make a unique contribution in 
implementing U.S. foreign assistance programs. Our vast network 
of partners provide a level of accountability, community access 
and local understanding that many developing governments cannot 
do for themselves.
    In these troubling times, I am heartened by President 
Bush's proposal to increase development assistance by $5 
billion annually through the Millennium Challenge Account. The 
MCA represents an opportunity to approach development in a new 
way, ensuring that governments and civil society work together 
on local priorities and locally designed programs.
    We have two particular concerns that I would like to bring 
to your attention today. The first one is that the proposal to 
include lower middle income countries in year three will reduce 
the funds available to the poorest countries of the world, 
countries which do not have access to the same kind and levels 
of resources as the better off countries.
    The second point that we would make is that the application 
of the three criteria of the governance, investment in people 
and economic freedom, as well as the 16 indicators designed to 
measure them could exclude many poor people of very deserving 
nations. We urge that the MCA funding be reserved for the 
poorest countries, defined as those eligible for concessional 
loans from the World Bank's IDA arm.
    We further urge that MCA funds be available to poor 
countries, which fall short of the administration's eligibility 
criteria, but are nonetheless able to use foreign aid 
effectively; countries that respect human rights, fight 
corruption and have promising programs for poverty reduction.
    With respect to overall foreign assistance, we consider the 
MCA as only one tool of a comprehensive program. As you 
consider the fiscal year 2004 budget, we urge you not only to 
appropriate the administration's full request for the MCA, but 
to significantly augment existing foreign assistant accounts. 
We particularly call for the increase of $1 billion over 
existing levels for African focused development assistant.
    With respect to HIV/AIDS and other diseases ravaging the 
continent of Africa, I am reminded of the situation being in 
Northern Zimbabwe several years ago and going into a village 
where there were an improportionate number of small children. 
And I went into a particular home and there was an elderly 
couple there. And I realized that both of their two children 
had died and their spouses had died and these grandparents were 
taking care of seven extra children. I am very sensitive to 
that because yesterday was my 65th birthday.
    The severity of the crisis and its importance for global 
and national security demand our immediate and extensive 
response. The president's proposed $2 billion for HIV/AIDS 
funding is commendable, but does not go far enough.
    We appeal to you in fiscal year 2004 to provide $3 billion 
for morally and culturally responsible programs to combat HIV/
AIDS and other infectious diseases, with at least $1 billion 
targeted to Africa.
    The war in Iraq is potentially a humanitarian crisis, and 
the needs for reconstruction are, indeed, in the fore of all of 
our minds today.
    In Iraq, the United States must partner with the U.N., 
American PVOs and others to assume a major role in providing 
humanitarian assistance.
    The U.S., recognizing the need for broader international 
support, must accept the long-term responsibility to help 
Iraqis build a just and enduring peace in their country.
    Coming to a close, let me note again the inter-
connectedness of our world. We call upon you to assure 
protection of refugees fleeing injustice from many corners of 
the world.
    Additional resources are required to integrate refugees 
into their communities, and we appeal for an increase in 
resources of no less than $927 million for the State 
Department's Migration and Refugee Assistance Account, as well 
as $50 million for the Emergency Fund.
    In closing, I want to thank you for your attention. I 
realize your whole community could not be here. We have given 
you our document. I thank you for this opportunity, I ask that 
your work and you be blessed.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kirk. Thank you, Father. No one is larger in this field 
than CRS. We have seen operations throughout the world. Can you 
tell us, what is your view, assuming this kind conflict comes 
to an end in Iraq, of CRS's role?
    Members are most interested in how you could help out 
there.
    Father Headley. Surely. Well, we would like to do the 
things that we do best in emergency situations. We begin by 
feeding the people, taking care of their very basic needs of 
housing, clean water and items like this.
    We like, however, as soon as we possibly can to move people 
to development. Interestingly, Congressman Kirk, I think to 
your point is that as we begin to do this what we will do also, 
and it is part of how we go about our work now, is integrate 
ways that people can begin to see that they might be able to 
work together better.
    In other words, the principles of conflict resolution and 
peace-building, as we give development aid we give this sort of 
thing. So we move from relief to development, and in the 
context of that we integrate the principles and practices of 
conflict resolution and peace-building.
    And we hope that we can be important partners with the 
United States government in this.
    Mr. Kirk. Thank you. No one is more experienced than you. 
Thank you very much.
    Father Headley. Thank you, too.
    Mr. Kirk. I am very happy to be joined here by the 
distinguished representative of 7th District of New York, a 
world-renowned Irish guitarist, the Honorable Joseph Crowley.
    Welcome. Welcome to the subcommittee.
                              ----------                              

                                          Wednesday, April 2, 2003.

                  AMERICA'S INTERNATIONAL INVESTMENTS


                                WITNESS

HON. JOSEPH CROWLEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Crowley. Thank you. I believe the committee has my full 
statement and I will not belabor you with that. I will just 
outline. And I have broken it down into three divisions that, 
one bridging the divide between peoples; two, promoting 
regional and global stability; and, three, economic empowerment 
and self-sufficiency.
    First of all I want to thank the subcommittee and the 
committee as a whole for support of the Irish peace process, 
and particularly the increase that the International Fund for 
Ireland has enjoyed over the past couple of years.
    The president's budget that he submitted will decrease the 
allotment from the present $25 million to $8 million. I would 
be respectfully request that the committee put back $17 million 
toward the International Fund for Ireland, which would follow 
the authorizing legislation, the Northern Ireland Peace and 
Reconciliation Act, which we passed on the 31st of March. Here 
is that same language.
    In this time, when the peace process is apparently seems to 
be faltering, there is a lot going on behind the scenes, and I 
think a strong message of commitment by our country toward the 
ongoing peace process in Northern Ireland is representative in 
many ways of our support for the International Fund for 
Ireland, which is not only within the six counties of Ulster 
which lie in Northern Ireland, but also for the six bordering 
counties of the Republic of Ireland, which have also gone 
through economic hardship because of the conflict.
    So I would appreciate restoration of those funds. I would 
also want to talk about another project looking for favorable 
language in the Foreign Ops appropriations, and that is Project 
Children, which is a program that brings young boys and girls, 
pre-teenage years, who have known nothing but bigotry and have 
experienced discrimination, but really have nothing favorable 
to say about the other side of this conflict--Protestants and 
Catholics--and puts them into an atmosphere often in homes that 
are the opposite of the tradition that they grew up in.
    And it gives them the opportunity to really experience this 
country and what makes this country great in terms of our 
diversity. And we are requesting a favorable report language 
within the Foreign Ops Appropriation Bill.
    On the Middle East, the Middle East Children's Association, 
also known as MECA; it is a joint endeavor by the Israeli and 
Palestinian educators that focuses on the educational systems 
of the two communities.
    MECA cooperates with educational leaders, teachers and 
students. It trains and explores tolerance, difference, human 
rights, mutual respect to promote a culture of peace and 
tolerance.
    We are requesting $100,000 in this fiscal year.
    The second category, promoting regional and global 
stability, the issue of Cyprus. The president's fiscal year 
2004 budget reduces the SF funding for Cyprus from $15 million 
to $7.5 million, and I believe this funding, used for bi-
communal initiatives targeted a reunification of the island, 
needs to be maintained.
    Given the failure of the U.N. peace talks recently, and 
Cyprus is going to join the EU in a matter of two weeks, U.S. 
support for bi-communal initiatives and confidence-building 
measures is now more important than ever.
    So I request keeping the appropriation level at $15 
million. On the issue of Armenia, the president's budget 
reduces aid to this needy country. In fiscal year 2003, Armenia 
received $90 million and it showed positive results.
    Armenia is one of America's strongest allies in the 
Caucasus, moving toward democratization. Maintaining previous 
foreign assistance levels will make Armenia economically viable 
and a catalyst for stability and development in a strategically 
important region to the United States.
    And, lastly, in the issue of economic empowerment and self-
sufficiency, I want to thank the committee for the report 
language last year on the Asian University for Women, the 
positive report language.
    AUW will teach democratic essentials such as moderation and 
reconciliation, key weapons in the war on terrorism. AUW will 
lay the foundation for gender equality in the future.
    The country which will house the university is the country 
of Bangladesh, a moderate Muslim nation which is also an ally 
of the United States.
    And what I would request is the committee to urge USAID 
support of AUW through positive report language once again.
    The positive report language that came out in last year's 
Foreign Ops Appropriations Bill actually led to the USAID 
committing $1 million toward this endeavor, and we know that 
the problems within the Islamic world, especially in terms of 
opportunities for women in higher education, we believe this 
will be a further opportunity to promote the empowerment of 
women and help, in my opinion, to bring about democracy within 
many of these nations as well.
    And lastly, the United Nation's Populations Fund, also 
known as UNFPA, which enjoys bipartisan support, and Secretary 
Powell has expressed his support for UNFPA in the past. In 
fiscal year 2003, Congress allocated $34 million, but it is 
likely that funding will be frozen due to politics over policy, 
as was the case in 2002 funding. UNFPA promotes safe pregnancy, 
prevents teen pregnancy and the spread of HIV/AIDS, and 
subsequently also prevents abortions as well.
    So it is my hope that they receive favorable support within 
the Foreign Ops Appropriations bill and with you as well. And I 
thank you for your time.
    [The information follows:]


GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kolbe. Thank you.
    Mrs. Lowey.
    Mrs. Lowey. I just have one question. First of all, as 
usual, you have given an outstanding presentation, and your 
interest and your involvement is very important.
    Does MECA operate here or there?
    Mr. Crowley. It operates there.
    Mrs. Lowey. Where.
    Mr. Crowley. In the Middle East. In Israel itself. And we 
have further details and information----
    Mrs. Lowey. Additional information on it.
    Mr. Crowley [continuing]. In the packet on it. But really, 
to bring the two communities in an educational setting closer 
together, teaching tolerance, teaching that it is okay to be 
different but have respect for one another.
    Mrs. Lowey. So are they the two communities that are in 
Israel or do you bring people there from----
    Mr. Crowley. Yes, they all come from----
    Mrs. Lowey. Pardon me?
    Mr. Crowley. They have workshops.
    Mrs. Lowey. You will get me some more information.
    Mr. Crowley. Yes, I will get you some more information on 
it.
    Mrs. Lowey. Okay. I appreciate it.
    Mr. Crowley. Thank you.
    Mr. Kirk. Thank you very much. Excellent statement. Thank 
you.
    The committee would also like to hear the U.S. Energy 
Association, Barry K. Worthington. Welcome.
                              ----------                              

                                          Wednesday, April 2, 2003.

                        U.S. ENERGY ASSOCIATION


                                WITNESS

BARRY K. WORTHINGTON, EXECUTIVE DIRECTOR, USEA
    Mr. Worthington. Good afternoon. Thank you for allowing me 
to be here today.
    I am the executive director of the U.S. Energy Association, 
which is a private sector, nonprofit organization representing 
every element of the U.S. energy business. But what we want to 
talk to you today about is the importance of energy in economic 
development and social development in the developing world, as 
well as countries whose economies are in transition, and we are 
concerned about the decline in U.S. government support for 
energy programs as part of economic development activities in 
developing countries.
    We saw first-hand in the United States what happens when 
you have energy shortages and what happens when you have high 
energy prices. You know, we lost 500,000 manufacturing jobs due 
to natural gas prices in the last recession, and everyone is 
well aware of the problems in California caused by an 
inadequate energy infrastructure and energy system.
    These same kinds of issues impede development in developing 
countries. Energy demand is growing as their economies grow and 
as their societies prosper and, not being able to provide 
adequate supplies of energy jeopardizes the opportunity for 
growth, it threatens democracy by threatening social stability.
    Secretary Abraham recently held a G-8 energy ministers 
meeting in Detroit, and it was noted at that meeting that two 
billion people in the world do not have access to energy, 
particularly electric power. Farmers cannot use electricity to 
irrigate their fields, hospitals cannot refrigerate vaccines, 
schools cannot provide adequate lighting. Without an adequate 
energy infrastructure. The results: unemployment, illiteracy, 
the spread of diseases, environmental problems and you just 
cannot break them out of that cycle of poverty if you cannot 
get them on the first rung of economic development.
    We have seen and watched the dramatic impact in Afghanistan 
of not having adequate supplies of electricity. Hospitals 
cannot operate equipment without lights, students in the newly 
opened schools cannot study if they do not have electricity in 
their homes. Nation-building through the telecommunication 
networks that everyone is spending a lot of money on are not 
going to function if they do not have electricity.
    In Afghanistan today only 5 percent of the population has 
electricity. Ninety-five percent of the people there do not 
have any electricity at all. None at all.
    And when we start looking at what is going to happen in 
reconstructing Iraq, it is even going to be a larger problem 
because they have a much more modern society, a much more 
modern electricity system than Afghanistan, and if we do not 
properly focus reconstruction efforts on electric power there, 
we are going to have huge, huge problems with trying to convert 
them from the system that they are in now to one that is much 
more friendly to U.S. interests.
    What we do, as the U.S. Energy Association, is we get the 
U.S. private sector, and for that matter, state government 
agencies involved in helping their counterparts in developing 
countries. We match a U.S. electric utility or a gas utility or 
a state-level regulatory commission with their counterparts in 
different countries.
    The Michigan Public Service Commission, for example, has 
been an active participant in teaching new regulatory 
commissions in developing countries how to regulate the energy 
industry. Most of the energy organizations in New York have 
been active participants in our program: KeySpan Energy and 
most of the other utilities there.
    What we do through the voluntary efforts of our members is 
they bring one dollar of private sector funding for every 
dollar of USAID funding that goes into these programs. We have 
had 85 such programs in over 30 countries.
    Over 12,000 utility and regulatory executives have 
participated in these programs. And our members have 
contributed $55 million towards these efforts in the past 10 
years matching dollar for dollar, the contributions that USAID 
has provided. Sixty private companies and 22 state regulatory 
commissions have voluntarily contributed their time, but more 
important than their time, their expertise to help their 
counterparts in these countries learn how to do their jobs 
better.
    These have received numerous results. I will just state one 
because others are documented in our written testimony. In one 
country a U.S. utility helped them implement a safety program 
that reduced fatalities from 17 fatalities in one year to zero 
the next year. What our concern is, though, is that the energy 
programs at the USAID are being dramatically cut. And what we 
are asking for today is that you look at how those funds could 
be restored.
    And the energy team and the Office of Energy and 
Information Technology had their budget cut 50 percent in the 
past two years. At the same time, assistance programs, energy 
programs in most of the former Soviet Union have been either 
dramatically cut or eliminated. And so, what we are asking you 
today to do is to restore the $12 million in funding for fiscal 
year 2004 for the energy team and the Office of Energy and 
Information Technologies. And also, to restore the funding for 
energy programs in the former Soviet Union.
    And I do want to make one thing clear. What we are not 
doing is asking any more money for our programs. What we are 
asking is that the total broad energy budget at USAID be 
restored. So I just want to make that clear. Even though we are 
an implementer of AID programs, we are not at all asking for 
more funding for ourselves.
    And thank you very much for letting me have the opportunity 
to talk to you.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kirk. Thank you, very informative.
    Mrs. Lowey. Thank you very much.
    Mr. Worthington. Okay, thank you.
    Mr. Kirk. Thank you.
    I would like to call Ambassador Princeton Lyman of the U.S. 
Committee for UNDP; known, when I was on the 7th floor of the 
State Department, as one of the grand formages. Also our U.S. 
ambassador to South Africa and prior to that with the USAID. 
Welcome.
                              ----------                              

                                           Wednesday, April 2, 2003

                        U.S. COMMITTEE FOR UNDP


                                WITNESS

PRINCETON N. LYMAN, EXECUTIVE DIRECTOR, GLOBAL INTERDEPENDENCE 
    INITIATIVE, THE ASPEN INSTITUTE
    Mr. Lyman. Thank you very much, Mr. Chairman and members of 
the committee. And I appreciate your taking the time to hear so 
many witnesses in this area.
    As you mentioned, I am here on behalf of the U.S. Committee 
for the UNDP. And I do so because I believe that work of the 
U.N. and the UNDP, in particular right now, directly 
contributes to the objectives of the United States.
    Moreover, there has never been a time I think when it has 
been more important for the U.S. to be demonstrating that it 
works both on a bilateral and a multilateral basis. And this 
alliance, if you will, between our bilateral and multilateral 
programs is going to add credibility around the world to our 
objectives and our motives when a lot of people are questioning 
them.
    Just now when we are engaged in this very difficult war in 
Iraq, sending a message that we are a part of an international 
effort of this development, I think to be very important ones.
    Let me just touch on a few areas in which the UNDP program 
is so complementary to the objectives that the United States is 
now emphasizing. Both in our regular age program and in the 
president's new proposal for a Millennium Challenge Account, 
there is a great deal of emphasis on two things, better 
governance and economic policy and human rights on the one 
hand, and development programs that reach people with 
education, health, clean water, et cetera.
    U.N. needs these programs moved exactly in the same 
direction. Right now, 60 percent of the UNDP program is in 
democratic governance, helping legislatures, electoral systems, 
civic societies.
    They are also the point agency for the millennium 
development goals, which are similar. They are education, they 
are health, they are gender equality, et cetera. So there is a 
marvelous complementary between what the UNDP is doing in over 
100 countries and what we want to emphasize in our own program.
    And I want to put special emphasis on what the UNDP is 
doing in the Middle East. And I know you are familiar with this 
report, the Arab Human Development Report that UNDP did in 
2002. What is significant about this, I think, for purposes of 
our hearing, is this is something a multilateral agency could 
do.
    This report was written all by Arab scholars, and it 
focuses on issues in the Middle East of democracy, of 
education, of gender equality and technological developments. 
These are issues of which we are all concerned.
    This report has become a tremendous source of conversation 
throughout the Middle East. And coming as it does, both from 
Arab scholars and UNDP, it carries a credibility that when we 
raise these same issues that seem to be coming from people with 
other motives. We can build on this and it is very important.
    I mentioned a couple of other areas. One is HIV/AIDS. 
Again, the president has proposed a major increase. This is one 
of the great, great pandemics of our time. And we are just 
still in the middle of this increase. And it is a major 
problem.
    In the field, the UNDP representative is often the 
coordinator of the U.N./AIDS program, the multiplicity of U.N. 
agencies that have come together to coordinate their efforts on 
AIDS. They have been doing a lot of work, UNDP in particular, 
in helping communities organize themselves to deal with this.
    And one thing we are learning in the AIDS business is that 
it is very hard to get at this problem if the local communities 
are not organized, if you do not have de-stigmitization of the 
people affected, et cetera. The UNDP works a lot in this very 
area. They are also helping governments plan comprehensive 
programs to go to the global side or access other U.N. 
agencies.
    A third area is in the whole area of post-conflict 
reconstruction, which everybody is concerned with now. The UNDP 
has been very active in this area in a wide number of 
countries--Angola, Mozambique, et cetera--and has been there 
operating in northern Iraq throughout the period of the 
autonomous region there, restoring the electricity grid, 
carrying out a lot of the Oil for Food program there, et 
cetera.
    UNDP is poised with teams ready to provide support for 
humanitarian efforts inside the rest of Iraq once that 
situation makes it possible.
    So in a variety of ways and in a variety of emphases that 
we have in the United States, the UNDP is a marvelous partner.
    Now in recent years that budget for UNDP has gone down 
quite substantially. Our contributions dropped in the 1980s, 
early 1990s, have come up thanks to the subcommittee. I hope 
the committee will fill the president's request of $100 
million. I would even push for $110 million. But also remember 
that that mobilizes at least six times as much money from the 
rest of the world all for these same objectives.
    Thank you very much.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kirk. Thank you.
    Mrs. Lowey.
    Mrs. Lowey. I would just be interested, you probably have 
the numbers someplace. What did the rest of the world 
contribute last cycle?
    Mr. Lyman. Well, the core budget of the UNDP is around $650 
million. That is the core budget that everybody contributes to 
unrestricted. In addition, a lot of other donors carry out 
their development programs through UNDP. So UNDP's overall 
budget comes close to $3 billion. And that is mostly from other 
donors who, not having aid missions in the field like we do, go 
to UNDP and say please carry out this development program. So 
much more of their resources come from other countries than 
from us.
    Mrs. Lowey. Thank you for your very important work. And 
that was 4 percent standing.
    Mr. Lyman. Right. Thanks so much. I appreciate it.
    Mr. Kirk. I just have one quick question.
    Mr. Lyman. Please, Mr. Chairman.
    Mr. Kirk. Do you think UNDP would be able to creatively use 
its Oil for Food and Northern Iraq mandate to expand its work? 
Or does it need another U.N. Security Council resolution to do 
that?
    Mr. Lyman. Although UNDP's interventions in post-war Iraq 
will be focusing on humanitarian needs, the nature of its 
mandated obliges it to take into account broader considerations 
that the immediate supply of relief assistance.
    All such assistance would be provided under established 
international norms for humanitarian relief and in strict 
adherence to UNDP policies and practices. The provision of 
emergency humanitarian assistance to civilians in conflict 
zones requires no specific authorization from the Security 
Council or from military authorities.
    Long-term UNDP development aid, including assistance with 
governance, would require Security Council authorization.
    Mr. Kirk. All right. I think UNDP is going to be hugely 
valuable and they are fairly forward linking right behind the 
allied forces.
    Mr. Lyman. Yes, I agree.
    Mr. Kirk. Great, thank you very much.
    Mr. Lyman. Thank you.
    Mr. Kirk. I would like to call Earth Voice with Jan Hartke.
    Welcome, how are you today?
                              ----------                              

                                          Wednesday, April 2, 2003.

                              EARTH VOICE


                                WITNESS

JAN HARTKE, EXECUTIVE DIRECTOR, EARTH VOICE
    Ms. Hartke. Thank you.
    First, I want to thank the committee for meeting on such a 
beautiful spring day and listening to us all.
    Mrs. Lowey. And being in this briefing room. [Laughter.]
    Ms. Hartke. My name is Jan Hartke and I am executive 
director of Earth Voice. We are a global environmental 
organization. And I also serve in the capacity as co-chair of 
the United Nations Alliance for Sustainable Development 
Programs.
    And I would first associate myself, I hope, with the 
remarks of the ambassador you just heard because I think the 
United Nation Development Program, which people do not really 
in the world understand, is the face of the United Nations in 
the non-war situations. I mean when you go into these 
developing countries, that is who you meet, the United Nations 
Development Program, the coordinator of all these other U.N. 
activities. So they play a central role of coordinating all 
other kinds of United Nations activity.
    The reason I am testifying today is that I care about the 
cause of sustainable development, the effort to make economic, 
social and environmental efforts coordinate together so that 
the environment is not degraded and destroyed, which people 
need to be able to live and support themselves. To some people, 
they think the environment is a luxury; to the people in the 
world, in the developing world particularly, it is the 
essential condition for being able to stay alive and to 
supporting your families.
    So what we did, we formed an organization called this 
alliance, about 100 organizations behind us now in the United 
States. We want to take it international. But our cause is to 
bring to the Congress' attention and the president's attention 
and they have been listening and I appreciate it.
    The fact that the international institutions, the United 
Nations Environment Program, International Fund for 
Agricultural Development, UNESCO, the Global Environment 
Facility and a range of these other kinds of ones that are in 
my testimony and I would expect to be in the record, of course, 
are the central effort in the non-security field, in this non-
war field. We put it very bluntly, not just security because I 
think these are security issues.
    These are the best efforts we could put forward around the 
world to be able to reach out in a multilateral sense and to do 
something helpful to communities. No matter what the issue is 
across the board, an agenda 21 that was set up at the Earth 
Summit of 1992 under the leadership of Maurice Strong and with 
all countries in the world participating now has, I think, a 
more important issue than ever.
    And at a time like we are in now, it is very important, I 
think, for the Congress to send a message that these 
multilateral voluntary agencies, in this country we call them, 
are important to us, that these relationships do matter.
    And I would just share one other comment with you. In a 
way, I am in the same business, I just do not have as much 
money as the Congress does. But, I do check out these programs. 
We are not receiving money from the federal government. And I 
can tell you that the greatest single financing mechanism for 
the environment over the last half century was the Global 
Environment Facility.
    It was started up in about 1990, 1991, 1992. It has been 
going now for 10 years. Mohamed El-Ashry, who has been heading 
it that entire time, has been the greatest possible leader. But 
he is now going to leave. It has funded over 1,000 projects, 
many of which I have seen. In Mato Grosso, the greatest wetland 
in the world in Brazil; in Patagonia, the areas to save the 
whales and the coastal regions; projects in Africa and China, 
Indonesia.
    I have seen these projects up close and personal. And they 
are so enormously important. And what you are doing here is so 
incredibly important to providing the tools and resources to 
people around the world to be able to save their environment so 
that they have the conditions for making a living, a quality, 
sustainable living.
    But at the same time, they do not see the coral reefs, the 
forests, the wetlands, the soil degraded. And these are the 
institutions that I am here to testify for, because these are 
the institutions that are doing the work on the ground. And 
these are the ones people have spent their lives trying to 
build over the last half century.
    And I think at the beginning of the 21st century, at a time 
like this, when people are questioning the need for or the 
importance of multilateralism, this is a wonderful way to step 
up to the funding of these institutions and say, ``No, we care 
and we understand.''
    And so I will maybe just give a little bit of the summary 
of the organizations that I care about most. I think, first and 
foremost, the Congress has a wonderful opportunity to walk us 
back into UNESCO. I understand the reason why we walked out of 
it before. And they were, quite frankly, understandable.
    There is no reason earth, given the change of leadership, 
the president's position, September 12th recommending we get 
back in. All of the NGOs that I am aware of, at least in the 
environment-social fields, want us back in UNESCO. There are 
$60 million that could be enormously useful now, the 
educational initiatives to provide for a literate world for all 
of the young people coming in, the cultural activities that 
they do.
    It is in my testimony, the profound importance of their 
environmental programs are just extraordinary. And I see an 
opportunity now for the Congress on the UNESCO issues to make a 
very big shot across the bow that we care about these 
international institutions.
    And I would just urge you to take a special effort this 
year to try to make sure that we rejoin UNESCO. I suspect it 
will done next year anyway.
    But if we could move it up a year, I think is the time to 
say that. I just say it in one other respect, the Global 
Environment Facility has a unique situation right now. They are 
going through a change of leadership. The only guy that has 
ever run it since its inception is gone.
    These are amazing institutions: the World Bank, the United 
Nations Environment Program and United Nations Development 
Program, all of the ones that run this. Every NGO in the world 
who is trying to get major projects done on the environment is 
going to this financing mechanism and saying, ``I have 
enormously good projects that help women in China, that help 
environmental issues from forests to coral reefs, to coastal 
regions.''
    And you are going to have a new leader here in about a 
month or two. It sure would be wonderful to be able to step up 
for full funding as I requested here so that that new person 
gets off to the kind of start they want. They have mobilized in 
a 10-year period for the environment, mind you, $11 billion 
because of congressional efforts so far to help spur this 
effort.
    And so we have a great opportunity with that one. And my 
last comment would be I hope in the area of tropical forests 
conservation, I know the president has only requested $20 
million. I serve on the Enterprise for America's board. And $20 
million is just wonderful, but the authorization was for $100. 
And I would sure like to see us move closer to that figure.
    John Turner over at State is doing a great job of trying to 
do debt major swaps. They mean a lot. They are getting a huge 
return. They have built up a network throughout South America 
of NGOs around these monies. And they are setting their own 
funds up. So that would be helpful.
    And I will leave with only this comment. If your bill goes 
through on coral reefs, another matter which was not part 
particularly of my testimony, I will make sure that our 
organization and these organizations that I represent, help to 
replicate that coral reef debt-for-nature swap bill around the 
world, because it would be an innovative financing mechanism to 
save the coral reefs.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kirk. Thank you. Thank you for your time.
    Mr. Lowey. Thank you very much.
    Mr. Kirk. Thank you, Jan.
    I would like to have the most oldest and most prestigious 
environmental groups, the World Wildlife Fund, represented by 
Estrellita Fitzhugh. Welcome to the committee.
                              ----------                              

                                          Wednesday, April 2, 2003.

                          WORLD WILDLIFE FUND


                                WITNESS

ESTRELLITA J. FITZHUGH
    Ms. Fitzhugh. Thank you and welcome to the committee also, 
Congressman.
    Before I start I want to say to the ranking member, Dr. 
Theo Coburn says hello.
    Mrs. Lowey. Oh, I have not seen him for a long time.
    Ms. Fitzhugh. She is having back problems in Colorado, but 
she is still active from that perch.
    Mrs. Lowey. She did an incredible book on plastics.
    Ms. Fitzhugh. And disruptions, that is right.
    Mr. Lowey. Well, thank you.
    Ms. Fitzhugh. Well, she said to tell you hello.
    Let me, in the sake of time, as you know World Wildlife 
Fund is one of the leading privately supported international 
conservation organizations in the world. It has sponsored since 
1961 2,000 projects in 116 countries.
    The conservation programs in this budget have a long-
standing record of helping the U.S. achieve its foreign 
assistance goals. For example, the goal of strengthening 
economies and developing free markets often depends on wise 
management of a country's natural resources. Also, many of 
these conservation programs have promoted civil society by 
teaching communities to demand a say in allocating local 
resources.
    Effective solutions to public health programs such as HIV/
AIDS must consider environmental concerns. Families, for 
example, decimated by this disease, struggle to find 
alternative livelihoods and often lay waste to the land.
    Some programs have successfully taught communities 
environmentally friendly means of livelihood such as selling 
honey and raising guinea fowl. This is particularly so in the 
Malawi and other African countries.
    Population pressures cause deforestation, water and food 
shortages, wildlife extension and other depletions of natural 
resources.
    Women's daily choices affect population growth and 
migration. For example, educated girls often chose to have 
smaller families later in life and become freer to become 
active stewards of the local resources.
    So with USAID support for example, WWF has a girls 
scholarship program that encourages sound decisions in family 
size and natural resource management. And this program operates 
in key conservational areas such as Nepal, the Congo Basin, 
Kenya, Bhutan to name a few.
    Another area that helps shape our aid foreign aid policy is 
leveraging U.S. funds to engage in private sector and 
sustainable resource management. It also helps to shape a 
country's economic development. The private sector literally 
pours billions of dollars into developing countries. So through 
the USAID's program, the Global Development Alliance, WWF 
partners with USAID and other NGOs to work with Home Depot and 
other major companies on forest conservation work in the Far 
East and China and Eastern Europe to name a few.
    I will then list a few programs that we have put in 
testimony that are critical to effectively integrating 
conservation and natural resource management in our 
government's foreign aid policy. For the sake of time, I will 
just highlight a few of them, if I may.
    And I just want to dwell a little bit on USAID's Global 
Development Alliance. The administration has requested $30 
million and we very much support that and hope the committee 
will as well.
    To further talk about this, USAID with its NGO partners 
have been able to engage not only Home Depot, North Canada, it 
is the third largest ground paper company in North America and 
other industries in an effort to improve forest management and 
stem the global trade in illegally extracted timber. Illegally 
extracted timber conservatively estimates costs the government 
in annual uncollected revenues at least $5 billion.
    Another program very close to my heart is the USAID 
Conservation Biodiversity programs. WWF recommends $150 
million; it is the same level that was enacted in Congress in 
fiscal year 2003. Funding at this level enabled USAID to 
continue to be a leader among bilateral foreign aid donors in 
helping communities better manage their resources and address 
the highly destructive practices threatening global biological 
diversity.
    Another program, which is the Global Environment Facility 
you just heard about. We very much endorse Mr. Hartke's 
comments and we applaud the administration's request level of 
fiscal year 2004 of $184.9 million for the GEF. President 
Bush's pledge last year of $500 million over four years for the 
replenishment of GEF was critical in leveraging millions of 
other dollars from other donor countries. GEF's decade-long 
work in tackling critical global environment problems is good 
for the health of the world's communities, including Americans.
    And one more program that is little known about but a very 
highly effective program called the East Asian Pacific 
Environmental Initiative. This program was zeroed-out in the 
fiscal year 2004 budget. It was funded with the economic 
support fund. We urge that the subcommittee restore funding of 
that at the fiscal year 02 level of $3.5 million.
    EAPEI, as it is called for short, basically improves 
environmental conditions and the quality of life in East Asia 
and Pacific. What is unique about this program is it operates 
in USAID non-presence countries and, therefore, provides an 
excellent opportunity for addressing U.S. policy objectives in 
those areas.
    Lastly, I want to make some comments about the Millennium 
Challenge Account, the new kid on the block. We believe this 
new mechanism can significantly contribute added value to the 
U.S. assistance programs. However, we urge that safeguards be 
put in place to ensure that the Millennium Challenge Account 
does not support projects that cause significant environmental 
damage.
    We also urge the committee to avoid displacement of 
development and currently provided by USAID. MCA and USAID are 
designed for complementary, yet different purposes.
    So in conclusion, WWF appreciates the subcommittee's 
support for conservation programs in the past, and we look 
forward to your support for these programs in fiscal year 2004.
    Thank you.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kolbe. Thank you.
    Mrs. Lowey. Thank you very much.
    Mr. Kolbe. Thank you for coming.
    Next we would like to hear from David Nemtzow with the 
Alliance to Save Energy.
    Welcome to the committee.
                              ----------                              

                                          Wednesday, April 2, 2003.

                      THE ALLIANCE TO SAVE ENERGY


                                WITNESS

DAVID M. NEMTZOW, PRESIDENT, THE ALLIANCE TO SAVE ENERGY
    Mr. Nemtzow. Thank you, Mr. Chairman, Madam Congresswoman 
Lowey. Thank you very much for the opportunity to testify 
before you today.
    I am David Nemtzow, president of the Alliance to Save 
Energy, and we are a bipartisan, nonprofit coalition of 
business, government, consumer, and environmentally, they are 
dedicated to promoting energy efficiency. We were founded by 
Senator Percy 26 years ago and we continue our work with 
private companies and consumers and environmentalists.
    I am here to testify in strong support for the energy 
efficiency programs of USAID, and I appreciate this 
subcommittee's support of those programs in the past. The 
Alliance to Save Energy, my group, has been deeply involved 
with USAID's energy efficiency programs and, while they are not 
without flaw, we think they are excellent programs that provide 
many benefits.
    As Mr. Worthington said earlier, the energy team within 
USAID has had their budget cut in half over the past couple of 
years, and also the USAID bureaus and missions are not living 
up to their potential, and let me briefly also agree that the 
GEF should be supported.
    What I would like to do, with the committee's permission, 
is rather than go through my written testimony and make the 
case for these programs, frankly with the nation at war, and I 
was thinking about our place in the world, I wanted to step 
back a level and think about how energy efficiency fits into 
the broader picture, if I may.
    You may think of energy efficiency the way we do at home as 
a way, ``Well, let's not wait, let's turn off the lights, let's 
make sure we have the right furnace in the house, let's not 
waste energy.'' That is, of course, right.
    But the reason, the way it fits into the world of 
development in USAID I think is really more profound. It is not 
just a matter of not wasting energy. It is a matter of 
supporting the other goals that this subcommittee, that this 
government, that AID work so hard at.
    And I will list five in particular. Number one is efficient 
energy efficiency, avoiding waste, is really an energy 
resource, the way coal is or oil. And for the developing world 
in particular, that has energy shortages, they are trying to 
build power plants and refineries as fast as they can, they 
need to use energy more efficiently so that all their 
populations needs.
    We used to think that energy efficiency was just for rich 
countries, like our own. We now realize that countries 
throughout the world waste energy even in their own poverty. 
And by spreading the existing energy of resources more 
efficiently there is more electricity for refrigerators to keep 
vaccinations cool or light bulbs to help kids study. So it is 
really part of an energy portfolio, not just an efficiency 
portfolio.
    Two, I think it goes without saying that energy efficiency 
helps protect the world's environment. Energy creates 80 
percent of the air pollution and 90 percent of the greenhouse 
gas emissions, so if we lose less energy there is less 
pollution.
    Number three is, energy efficiency is part of a global 
investment and trade pattern that you have worked so hard to 
support. The United States is one of the leaders in energy 
efficiency worldwide, and when other countries adopt the 
efficient appliances or equipment, they tend to go to U.S. 
companies and other Western companies, and that stimulates 
trade.
    And finally, energy efficiency actually promotes 
democratization by developing a civil sector in non-profits and 
small businesses that is part of the broader goal of 
democratization and social change.
    Let me be even more practical. Why is this good for the 
United States? I do not want to imply that it is not good for 
the developing world, or the former socialist world, but I am 
trying to be practical here. These programs are essential to 
the United States in at least three ways.
    Number one, we are opening up global markets, and the 
United States will be better than anybody else. As I referred 
to earlier, a lot of our companies, whether it is Whirlpool or 
Honeywell or smaller companies that I suspect you have not 
heard of, the United States produces superb energy efficiency 
technologies. And if those countries around the world, the ones 
that AID supports, embraces efficiency, the U.S. companies will 
be winners in that.
    Number two, by improving the lives of people in the 
developing world we are, of course, going to lessen the appeal 
of radicalism and of anti-Western sentiments. I do not have to 
tell any American about that these days. But development is 
part of that agenda, and energy is a key component.
    And third, and I think perhaps most telling these days, is 
we know that oil prices are high, we know gasoline prices are 
higher than they have been in a long time, and one of the 
reasons for that is global demand keeps going up and up and up. 
There is only one world oil market, and if we can lower demand 
anywhere in the world, that keeps downward pressure and it 
lowers prices for U.S. consumers.
    So if you will forgive or allow the alliteration, by 
cutting oil use in Cairo that helps consumers in Chicago, by 
cutting it in New Delhi we are saving consumers' money in New 
York. And the reason is that there is just one oil market.
    And so these programs are very helpful to the countries 
that directly benefit, but they also are enormously helpful to 
the United States, and as you think about the competing 
pressures on your budget I hope you will keep that in mind.
    I can give you all the examples that you would give me time 
for, which is quite limited, of successful programs.
    This office in the past has had some flaws. As I mentioned 
they have had management changes in the past few months. I 
think your committee and your staff have rightfully challenged 
them. I think you can be much more comfortable now that your 
money will be well spent, whether it is in Eastern Europe, in 
the Ukraine they are working with schools and orphanages, and 
in Ghana an example of developing a non-profit called the 
Energy Foundation that has become the leader in West Africa. 
Whatever the case may be their money is well spent.
    If I could just briefly make some specific recommendations. 
Number one is that these budgets have been cut; we hope that 
you will restore those budgets, as other witnesses have 
testified to, to at least a level where they were a couple of 
years ago.
    Number two, we ask that there be a line item to help you 
keep track of this.
    And finally we ask you to keep pressure on AID that the 
energy efficiency programs are part of the other strategic 
goals of AID.
    I thank you, I thank your staff for your attention to these 
issues, and I appreciate the opportunity to testify today.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kirk. Thank you. Thank you for coming.
    Mrs. Lowey.
    Mrs. Lowey. Thank you.
    Mr. Kirk. Okay, thank you.
    I would like to call the largest landholders in America----
    [Laughter.]
    Michael Coda of the Nature Conservancy, and backed up, I 
see, by former Army field marshal, Bill McMillon.
    Welcome to the committee.
                              ----------                              

                                           Wednesday, April 2, 2003

                         THE NATURE CONSERVANCY


                                WITNESS

MICHAEL J. CODA, VICE PRESIDENT AND MANAGING DIRECTOR OF EXTERNAL 
    AFFAIRS, THE NATURE CONSERVANCY
    Mr. Coda. Thank you very much. It is an honor for me to 
appear before your committee. With your permission I will speak 
briefly and submit additional material for the record.
    The mission of the Nature Conservancy is to preserve the 
plants, animals and natural communities that represent the 
diversity of life on Earth by protecting the lands and waters 
they need to survive.
    In our work outside the United States we support strong 
local conservation groups that work to raise the effective 
level of protection of parks and nature preserves established 
by the local governments.
    I work in the United States and abroad. It is closely 
related. For example, it is not possible to ensure the health 
of the San Pedro River ecosystem and its biodiversity in 
Arizona without working on both sides of the international 
border. And we do. Thus our partnership with the Army at Fort 
Huachuca and our work with our Mexican partner, the Sonoran 
Institute for the Environment.
    The Nature Conservancy is a private, non-profit 
organization. Although 84 percent of our budget was raised from 
non-governmental sources, the assistance we received through 
our cooperative relationships with USAID is vital to our 
international work. It is very difficult to raise private 
dollars for international work. And without AID support these 
programs would be severely damaged.
    Our Parks in Peril programs in Latin American and the 
Caribbeans and our similar efforts in the Asia/Pacific region 
are widely regarded as among the most successful and respected 
in the world. These efforts are bringing real protection to 
more than 60 major sites. Parks and nature preserves in 27 
different countries comprising over 80 million acres. And in 
recent years, AID has supported Parks in Peril with about $6 
million. To put leverage on this, the U.S. government's 
investment in Parks in Peril is very high; more than $300 
million raised by us and by our local partners for conservation 
work in or near Parks in Peril places.
    Your committee has praised Parks in Peril in its past 
reports, and we hope that you will be able to do so again.
    We are also grateful for AID support for our other 
international projects, and especially through the Global 
Conservation Program and through the president's initiative 
against illegal logging. The GCP, for example, helped pay for 
work on the coral reef that surrounds Komodo Island in 
Indonesia for park rangers, army patrol boats, and alternative 
development projects for local people.
    AID's support to biodiversity is by far the largest 
proportion of all U.S. government funding for international 
conservation work; about $145 million in fiscal year 2003. Your 
committee has long-supported AID's biodiversity work. The 
administration's requested level for the foreign affairs 
function in fiscal year 2004 is up. But naturally most of the 
increase is driven by the war on terrorism and the Middle 
Eastern situation. We recognize the need for those priorities 
at this moment of national crisis.
    What we ask, in view of the new resources being made 
available to AID, that we have heard that the committee 
provides clear guidance to AID that investment in the 
conservation of global biodiversity should, at the least, not 
decline.
    The Tropical Forest Conservation Act, also known as the 
Portman Act, is also funded within Foreign Operations. The 
administration has requested $20 million in fiscal year 2004 in 
the Treasury account. The TFCA used debt reduction deals to 
create long-term income streams to protect forests. We strongly 
support this request. If TFCA gets the full $20 million, it 
will be possible to do perhaps four new deals beyond Panama. 
And we stand willing, as we have in the past, to donate our own 
privately raised funds to make these transactions successful in 
each case.
    Finally, I note that the Global Environment Facility is the 
single-largest source of biodiversity conservation funds in the 
world, leveraging this government's contribution is four-to-
one. And we welcome the administration's decision to seek $184 
million for the GEF; enough for the current U.S. pledge and a 
substantial payment toward the arrears. We urge the committee 
to approve this request.
    Thank you.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kirk. Thank you very much.
    Mrs. Lowey.
    Mrs. Lowey. Thank you very much for all your good work.
    Mr. Coda. Thank you.
    Mr. Kirk. What is the Panama deal?
    Mr. Coda. What it is, is a debt swap. I believe it is about 
$6 million or $7 million of debt that would be retired from the 
U.S. The Panama Canal Authority would put in something in the 
order of $20 million, $25 million as a matching amount. And 
then we have helped raised $1 million, which we will pledge, 
that we have pledged towards this project as well.
    And it is going to protect an area within the canal zone, 
allow the funding of park guards and the development of a 
management infrastructure there that just does not exist 
currently.
    Mr. Kirk. Great.
    Mr. Coda. So it is a wonderful project.
    Mr. Kirk. I hope to lobby you as well. We have a critical 
ecosystem in my district that we asked the TNC to look at, but 
it is only 60 acres. [Laughter.]
    Mr. Coda. What is it?
    Mr. Kirk. It is eight endemic Great Lake species on my 
Michigan shoreline, right now owned by the Navy. And we are 
looking for a good environmental custodian.
    So, anyway, I appreciate it.
    Mr. Coda. I will make sure that gets to the attention of 
our state program.
    Mr. Kirk. Thank you. Thank you very much for coming.
    Now we would like to hear from Susan Schram of the U.S. NGO 
Working Group on IFAD World Poverty.
    Welcome.
                              ----------                              

                                          Wednesday, April 2, 2003.

          THE U.S. NGO WORKING GROUP ON IFAD AND RURAL POVERTY


                                WITNESS

SUSAN G. SCHRAM
    Ms. Schram. Thank you. Mr. Chairman, Ranking Member Lowey, 
as one of the new co-chairs of the U.S. Working Group on IFAD 
and World Poverty, I would like to thank you very much for the 
opportunity to testify today regarding our priorities for the 
2004 budget. We have submitted more extensive remarks for the 
record, so I will just give a quick summary.
    I co-chaired this group now with Margaret Sigler from the 
Congressional Hunger Center. Our group works together on two 
primary goals, one to increase foreign assistance for ag and 
rural development in general; and secondly, to strengthen U.S. 
leadership in the International Fund for Agriculture 
Development, or IFAD.
    We are very pleased to be seeing progress on both these 
goals. The administration recently made a strong pledge to the 
sixth replenishment of IFAD's resources, and we see many 
growing signs that USAID is showing a renewed commitment by the 
United States to rural and agricultural development as the 
central elements of economic growth in developing countries.
    On behalf of the 19 NGOs that have signed on to this 
testimony, I would like to ask the subcommittee for two basic 
actions that can help to advance this progress. And one is 
again to give priority funding for agricultural and rural 
development programs overall.
    And secondly to help IFAD maintain its annual level of new 
projects. And that would involve two actions. One would be 
fully funding the administration's 2004 request and supporting 
IFAD's access; and secondly, supporting IFAD's access to HIPC, 
or the Heavily Indebted Poor Countries Debt Initiative Trust, 
administered by the World Bank.
    Agriculture accounts for 50 percent of GDP in developing 
countries. Therefore, if we really want our foreign assistance 
dollars to reduce poverty, those resources must reach the rural 
areas where 75 percent of the extreme poor are living.
    As well, while all of our emergency efforts are essential, 
emergency relief alone is not the answer. For truly sustainable 
development, this aid needs to be in the form of long-term 
technical and development assistance such as that funded by 
IFAD.
    It is important, I think, to emphasize the relationship 
between transforming agriculture and food systems in developing 
countries and achieving other social goals.
    In the interest of time, I will not go into detail in each 
of these areas. But working in agriculture definitely improves 
the status of women and reduces their poverty. In 1997, 
statistics showed that nearly 70 percent of working-age women 
in low income, food deficit countries were engaged in 
agriculture.
    Secondly, a vibrant ag sector improves health and nutrition 
and prospects for child survival, especially when kids can get 
a good start with a nutritious diet.
    Thirdly, it helps tackle HIV/AIDS, especially now where 
real poverty, HIV/AIDS and hunger lock us in a devastating 
spiral in many developing countries.
    And fourth, it can preserve and enhance natural resources. 
Sustainable ag and real development projects help the world 
poor increase productivity while preserving the natural 
resources upon which the future of agriculture depends.
    Despite these and other highly documented benefits, 
resources for agriculture development are still inadequate 
compared with need. While the current administration is 
dedicated to agriculture programs, Andrew Natsios noted in 
recent testimony that resources for this type of work had 
previously dropped $1 billion in 17 years. And that is not even 
accounting for inflation. This has been devastating to 
developing countries where economies are primarily 
agricultural.
    This makes the work of IFAD all the more important. IFAD 
focuses exclusively on the rural areas of developing nations, 
reaching the hard to reach poorest of the poor. IFAD works at 
the grassroots level, frequently with NGOs, cooperatives and 
other organizations helping to raise productivity and incomes 
and achieve food security.
    Our working group is very encouraged. The U.S. has pledged 
$15 million in each of the next three years in support of 
IFAD's work. And the administration requested $15 million in 
fiscal year 2004 to fund the first payment on this pledge. We 
encourage you to provide full funding of this and the very 
small amount that is also sought by the administration for part 
of the arrears to IFAD. And it is my understanding that it is 
only about $4,000.
    Finally, we would like to make you aware of a problem that 
IFAD faces regarding HIPC. Presently IFAD cannot tap directly 
into the HIPC Trust Fund established at the World Bank. IFAD 
can only receive trust fund resources if nations specifically 
earmark their contributions for IFAD. As a result, IFAD is 
forced to finance its debt relief from resources that could 
have gone to new and much-needed projects.
    So as you consider U.S. contributions to the trust fund, we 
would really appreciate your examining IFAD's situation in this 
regard.
    We are hopeful that we stand on the verge of a long overdue 
return to focus on the critical issues of agriculture and rural 
development. This subcommittee can play a real leadership role 
in making this a reality.
    Thank you again for your consideration and especially the 
support that you have given to our views in the past.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kolbe [presiding]. Thank you very much. I apologize. I 
did not hear all of your testimony, but we have been listening, 
all of us and thank you very much for participating.
    Mrs. Lowey. I just want to thank you for coming. And I am 
sorry Ms. Kaptur could not be here. She has been a leader, 
certainly on these issues as the ranking member on Agriculture. 
So I know that we will all work with you.
    Ms. Schram. And she has mentioned that she has been working 
with you on these issues and I really appreciate that greatly 
and appreciate the leadership that both of you have shown. 
Thank you.
    Mrs. Lowey. Thank you.
    Mr. Kolbe. Thank you very much.
    Well, we have obviously lost a bit of time here. We have 
got a little bit further behind. So we are going to move right 
along as rapidly as we can here.
    And we have Andrew Manatos from the National Coordinated 
Effort of Hellenes.
    Mrs. Lowey. Welcome.
    Mr. Kolbe. Welcome.
                              ----------                              

                                          Wednesday, April 2, 2003.

                NATIONAL COORDINATED EFFORT OF HELLENES


                                WITNESS

ANDREW E. MANATOS
    Mr. Manatos. Thank you, Mr. Chairman, Congresswoman Lowey.
    If it is okay with the committee, I will just submit my 
testimony for the record and just summarize points.
    Mr. Kolbe. The full testimony will be placed in the record.
    Mr. Manatos. If I might first address the subject of 
financial aid for Cyprus, ESF dollars that have gone to Cypress 
every year, it has been $15 million every year for over 20 
years. And here we are on the verge possibly of some 
breakthrough in Cyprus. This would really be the wrong time to 
send a message that somehow this is being diminished. It is 
symbolic. And the administration requested only $7.5 million 
and we would hope that the committee would do what they have 
done every year and that is increase it to $15 million.
    The second issue I wanted to mention is the Primary Health 
Care Initiative, which has been an extraordinarily successful 
program that this committee has supported.
    A small aside, as you know, those dollars go to Armenia, 
Georgia and Ukraine. They have been very successful and matched 
with private money and foreign money. They have American flags 
all over the health care centers.
    They have treated now over 300,000 people in those areas. 
And one of the areas where the aid went to was the little 
country of Uzbekistan which nobody had ever heard of in those 
days. But it contributed to the positive feeling toward the 
United States. And you well recall that when we had to go in 
following 9/11 and we moved then to try to go after Al Qaida, 
that they let us base our planes there. And that made a 
significant difference in going into Afghanistan.
    In terms of military aid, let me just remind the committee 
that for Greece's purposes, it has always been a defensive 
activity. Greece would like to see its military aid, military 
expenditures reduced. But it has been a matter of a very 
serious issue for them, and they have had to think defensively. 
We strongly support the administration's proposal for $600,000 
IMET.
    And if I might take just a moment to talk about the Cyprus 
settlement issue, which has been a focus of this committee for 
so many years, and it used to be that every time we would show 
up it, it would be the same old thing, and as you know now, 
things are dramatically different. I think the most interesting 
indicator was the demonstrations that occurred in Cyprus.
    And you will recall also part of the $15 million that 
Cyprus gets from United States is spent on projects like the 
American university project where they bring the Turkish 
Cypriot students and Greece Cypriot students over here to work 
together for the summer. And it becomes a love fest. These 
people just do not understand why they were ever upset with 
each other once they hear each other's side.
    This was thought this was maybe an anomaly until we got 
close to a Cyprus settlement this year. And then a phenomenal 
thing happened on that island. This is hard to even picture. 
Ninety percent of all the Turkish Cypriots citizens of the 
occupied area of Cyprus went to the streets and personally 
demonstrated to settle the Cyprus issue.
    They were not afraid to live with their Greek neighbors. 
They looked forward to it. And as was pointed out by our 
government and the U.N., the obstacle was one gentlemen, one 
Turkish-Cypriot gentleman that is injuring his people 
dramatically as they now see it.
    There have been encouraging things said by the new prime 
minister of Turkey. And obviously the people, the Turkish-
Cypriots and the Greek-Cypriots are very much in support of 
this.
    And as you know, the Greek-Cypriots are swallowing a 
difficult pill. Imagine in this country if we were asked to 
have a democracy, where we would have a rotating presidency and 
an individual from a minority in this county had to be 
president in a rotating fashion. And that is the way the 
government of Cyprus is being set up. But surveys show that the 
Greek-Cypriots were willing to accept even that to bring a 
unified country.
    A quick word on the country of Greece. As you know, Greece 
has been an American ally, one of only seven countries in the 
world, for over 100 years. And very recently with our troops in 
Iraq, the Bayhar Base at Suda Bay has been incredibly used. 
They are refueling planes. Our Navy is being taken care of 
there. It has become very strategic.
    And in light of the fact that with the problems we had with 
Turkey's involvement in that activity, Suda Bay has become even 
more important. I got a call from the American ambassador to 
Greece right after the publication of which countries were or 
were not cooperating, and I was very pleased to hear what he 
said about the continued support for American troops as has 
been the case for so many years.
    The only other issue I wanted just to mention very briefly 
involves something that I know Congresswoman Lowey has been 
involved in and that is the patriarch of Jerusalem. He was 
selected in August of 2001. Has not yet been officially 
recognized. The government of Israel has said many times they 
are on the verge of doing it. And we just want to do everything 
possible to get them to do it and get this problem behind us. 
It is a real opportunity for somebody to bring both sides 
together.
    And I apologize for going over my time, Mr. Chairman.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kolbe. Well, thank you very much. And think that we all 
share the view that the disappointment of the Cypriot 
unification plan did not work out for the moment. But I think 
that we are still all hopeful that we will see that happen in 
the near future.
    Mrs. Lowey. I know the chairman wants to move on, so I will 
just thank you very much. And you have many good friends in the 
Congress.
    Mr. Kolbe. Yes, you do.
    Mr. Lowey. Nice that you brought along your sidekick too. 
[Laughter.]
    Nice to see you.
    Mr. Kirk. I know you are very close to George Papandreou. 
And if you just say, just for all of the support Suda Bay they 
gave the 5th Fleet, that is critical. I do not know that many 
people realize how much the eastern Mediterranean squadron is 
helping out in this effort.
    And you could not do it without Greece you know. Thank you 
very much.
    Mr. Manatos. Thank you.
    Mr. Kolbe. Yes, thank you.
    Gene Rossides from American Hellenic Institute?
    Mr. Rossides, welcome. Thank you very much for being here.
                              ----------                              

                                          Wednesday, April 2, 2003.

                    AMERICAN HELLENIC INSTITUTE, INC


                                WITNESS

GENE ROSSIDES
    Mr. Rossides. Thank you, Mr. Chairman and Ranking Member 
Lowey, nice to see you again.
    I assume that our prepared statement will be made a part of 
the record----
    Mr. Kolbe. Yes, it will.
    Mr. Rossides [continuing]. Mr. Chairman.
    Mr. Kolbe. Your statement will be placed in the record.
    Mr. Rossides. Thank you. Chairman Kolbe and Ranking Member 
Lowey and members of the subcommittee, we appreciate very much 
the opportunity to be here and testify.
    Our testimony will be a little different. In the interest 
of the U.S., we oppose all military and economic aid to the 
military-controlled government of Turkey in this bill or any 
supplemental appropriations bills. It is unreasonable to give 
aid to Turkey in view of Turkey's actions opposing the use of 
Turkish bases by U.S. troops to open a northern front against 
the Saddam Hussein dictatorship. Turkey miscalculated and 
thought we would give her more dollars and a veto over the 
Iraqi Kurds.
    Secondly, Turkey's horrendous human rights violations 
against its citizens.
    And I list seven or eight reasons why we should not give a 
nickel to Turkey. But I want to concentrate on one of them, the 
fact that the Turkish military, Mr. Chairman, has tens of 
billions of dollars in cash reserve fund and owns vast business 
enterprises in Turkey, including all of the arms production 
companies. In effect, they would own Lockheed Martin, Northrup 
and all of the others by the Turkish military.
    We specifically oppose the administration's request for $1 
billion in grant aid to Turkey in the supplemental 
appropriations bill for the Iraqi war. That $1 billion can be 
leveraged into $8.5 billion. We understand it was added at the 
last minute. It should be withdrawn by the administration. It 
is not reasonable to put any amount in the bill for Turkey for 
the reasons stated above.
    Spokesman Richard Boucher, State Department spokesman, 
stated the amount for Turkey was ``A request, not a 
commitment.''
    Mr. Chairman, we hope it will be taken out fully.
    Number two, we support the $15 million in humanitarian aid 
for Cyprus. The aid is an important symbol for the U.S. support 
for Cyprus and the U.S. commitment to achieving a just, viable 
and comprehensive settlement.
    Mr. Chairman, the two most important bases in the eastern 
Mediterranean are the Suda Bay and Crete, both in the 1991 Gulf 
War, and Cyprus, which is a stationary aircraft carrier.
    Two British bases on Cyprus were essential in the 1991 
conflict and are being used heavily today.
    Mr. Chairman, as a matter of law, Turkey is ineligible for 
any aid because of its ``consistent pattern of gross violations 
of internationally recognized human rights'' under Sections 116 
and 502(b) of the Foreign Assistance Act.
    On February 26th, Mr. Chairman, we sent a joint letter to 
President Bush regarding what a senior administration official 
described as Turkey's ``extortion in the name of alliance,'' 
and setting forth the reasons why Turkey is not vital nor 
needed in the event of war with Iraq. That letter is attached 
to our statement as exhibit one, Mr. Chairman. It discusses 
Turkey's efforts to extract more dollars and a veto on actions 
regarding the northern Iraq Kurds.
    I would appreciate, Mr. Chairman, inclusion in the record 
of two other joint letters to the president dated September 4, 
2002 and December 11, 2002 regarding these matters in U.S. 
relations with Turkey. Would that be permissible, Mr. Chairman?
    Mr. Kolbe. Yes. We will place your documents in the record.
    Mr. Rossides. These letters discuss the moral issues 
involved. People do not realize that Turkey, since 1984, has 
killed 30,000 Kurdish and innocent civilians. It has 
assassinated 18,000. These are facts that are in periodicals 
and uncontested. They destroyed 2,500 Kurdish villages and 
created 2,500,000 Kurdish refugees. Edward Peck, retired U.S. 
ambassador and former U.S. chief of mission in Baghdad, stated 
that the Kurds and Turkey ``have faced far more extensive 
persecution than they do in Iraq.''
    These are the things that should be taken into account when 
the administration puts in money, $1 billion. We forget. In the 
old days $1 million was a big thing, and this is a thousand 
million dollars. It is unreasonable to do that.
    Any aid to Turkey, some people have suggested, should have 
some conditions. We have listed the number of conditions that 
we think should be added if there is to be any aid to Turkey.
    We also point out that it is clear in the public press that 
the Turkish military and Turkish-Cypriot leader Denktash have 
been stated as a reason that the negotiations broke down 
regarding Cyprus.
    And the last comment, Mr. Chairman, in the Cold War Turkey 
aided the Soviet Union on many, many important occasions. We 
can easily give those documentations.
    Thank you, Mr. Chairman.

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mrs. Lowey. Thank you very much. We enjoyed it.
    Mr. Kolbe. Thank you very much.
    Obviously, the committee yesterday took a different 
position. I appreciate your views. I think we are going to hear 
from the administration later today about their views of the 
importance of the assistance to Turkey. And just speaking for 
myself, I would say that I am not prepared to undercut the 
commander in chief at this point when he has said the 
assistance is absolutely vital, but we appreciate hearing your 
views.
    Thank you very much.
    Mr. Rossides. Right. But taking into account the cash that 
the Turkish military has, Mr. Chairman----
    Mr. Kolbe. Okay. Thank you very much. We appreciate it.
    Next is Michael Sawkiw from the Ukrainian Congress 
Committee of America.
    Thank you very much for being here.
                              ----------                              

                                          Wednesday, April 2, 2003.

             UKRAINIAN CONGRESS COMMITTEE OF AMERICA, INC.


                                WITNESS

MICHAEL SAWKIW, PRESIDENT, UKRAINIAN CONGRESS COMMITTEE OF AMERICA
    Mr. Sawkiw. Good afternoon. I have submitted my testimony 
for the record, so I wish that it be made part of the record.
    The organization that I represent is the Ukrainian Congress 
Committee of America, the representative organization of the 
Ukrainian-American community, and in its capacity as its 
president, I would like to take this opportunity to express the 
community's support for the U.S.-led coalition against 
international terrorism and, obviously, for the safe and speedy 
return of our troops.
    Indeed, the principles of American global leadership, 
admired by countries everywhere, come with the intent to bring 
about economic and political development. Such crucial elements 
have invited U.S. foreign assistance programs to Ukraine over 
the last several years. To understand what the future will 
bring for Ukraine one must understand the path it has taken and 
the path it is going to take.
    In its brief 11 years of renewed independence, Ukraine has 
achieved a myriad of domestic and international goals such as 
fundamental economic programs and system-wide reforms have 
begun to bear fruit in Ukraine. To date economic assistance 
provided to Ukraine has achieved truly historic goals for 
reform and stability. Real GDP continues to grow as in previous 
years. A number of Western companies are active in Ukraine and 
continually growing and these businesses are expanding their 
operations of goods and services.
    The enactment of commercial law reform, the improvement of 
law enforcement mechanisms, reform of Ukraine's legal system 
and the implementation of a rule of law remain the largest 
priorities and most difficult challenges in Ukraine today.
    In regard to democratic processes, Ukraine has held six 
elections, which have been deemed by international 
organizations as mostly free and fair, the latest being its 
parliamentary elections in March last year.
    According to the recently released State Department report 
on human rights practices in 2002, it noted that the 
parliamentary elections ``were an improvement over the 1998 
parliamentary polls in some respects but important flaws 
persisted.''
    One of the flaws in any post-Communist state, however, 
remains the need for an independent source of information. 
Though Ukraine possesses a wide range of opinion, as 
acknowledged by the State Department Human Rights Report, 
support for a viable and free mass media in Ukraine is crucial 
as Ukraine prepares for its upcoming presidential elections in 
October 2004.
    Moreover, in the international arena, Ukraine was the first 
country following the dismantlement of the Soviet Union to 
voluntarily disarm its stockpile of nuclear weapons, a 
reference to which was made by Condoleezza Rice in a January 
23, 2003 op-ed in the New York Times.
    ``The world knows from examples set by South Africa, 
Ukraine and Kazakhstan what it looks like when a government 
decides that it will cooperatively give up its weapons of mass 
destruction. The critical common elements of these efforts 
include a high political commitment to disarm, national 
initiatives to dismantle weapons programs and full cooperation 
and transparency.''
    Following the terrorist attacks upon New York and 
Washington, Ukraine joined the worldwide coalition against 
terrorism, giving overflight rights to U.S. air forces in the 
war in Afghanistan. And as recent as last week, Ukraine 
deployed a nuclear, biological and chemical battalion to 
Kuwait, the fourth largest troop presence, to provide 
assistance to coalition forces and civilians in the conflict 
zone in case of a biological or chemical weapons attack.
    This is Ukraine today, increasing its viability while 
continuing to enhance its political and economic reforms. Mr. 
Chairman and members of the subcommittee, let us think of U.S. 
foreign assistance programs to Ukraine as an investment with a 
strategic partner in a safe, stable and secure democracy in 
Central Europe.
    In fact, during last year's state visit by the president of 
Poland, President Kwasniewski reiterated the importance of 
cooperation with Ukraine in a trilateral framework. ``Ukraine 
should play an even more important role in Europe. And I am 
convinced that we should be supporting and favoring all efforts 
aimed at furthering development and cooperation with Ukraine 
and cooperation with the United States.''
    Ukraine's strategic importance to the United States is too 
vital to lose sight of and its success is incumbent on U.S. 
foreign assistance programs.
    Congress should focus its assistance to Ukraine through the 
use of regional specific organizations that target programs in 
the following key areas: legal infrastructure with an 
independent judiciary to implement cause; assistance for the 
struggle against crime and corruption, an unfortunate endemic 
factor of the former Soviet Union; the promotion of programs 
geared toward agriculture restructuring, which is the key to 
Ukraine's economic viability, as well as the building of a 
civic society in Ukraine through the promotion of greater press 
freedoms and NGO development.
    It is the considered advice that the rewards of sustained 
foreign assistance to Ukraine, a true strategic partner of the 
United States, should be maintained at previous levels.
    Thank you for your attention and I will answer any 
questions you might have.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kolbe. Thank you very much. We appreciate your 
testimony. Obviously, the issue of support for Ukraine has been 
a controversial one because of some of the actions of the 
government. And I know you are aware of that.
    Mr. Sawkiw. Yes.
    Mr. Kolbe. And that is something we will be taking into 
consideration as we decide.
    Mr. Sawkiw. If anything, we can look at this assistance is 
not necessarily going to the government. It is going to the 
people.
    Mr. Kolbe. Yes, I understand. And that is why we tried to 
make sure we directed it in that way.
    Mrs. Lowey. And I would like to say, as I mentioned before, 
my colleague, Marcy Kaptur, has been very much involved this 
issue as you probably know.
    Mr. Sawkiw. Been very involved.
    Mrs. Lowey. Particularly of the agricultural.
    Mr. Kolbe. Thank you very much. I appreciate your being 
with us here.
    We are next going to hear from Ken Hachikian for the 
Armenian National Committee.
                              ----------                              

                                          Wednesday, April 2, 2003.

                 ARMENIAN NATIONAL COMMITTEE OF AMERICA


                                WITNESS

KENNETH V. HACHIKIAN, ANCA CHAIRMAN
    Mr. Hachikian. Thank you, Chairman Kolbe, Ranking Member 
Lowey, my very own congressman, Mark Kirk.
    Mr. Kolbe. I knew he was waiting around for something.
    Mr. Hachikian. I appreciate your giving us the opportunity 
to be here today and for giving us this brief audience.
    Chairman, I bring you greetings from Major Aram Sarakian, 
who has testified previously on behalf of the ANCA, who trains 
in your district and who is presently serving over in Iraq on 
his third tour of duty. And I also bring you greetings from the 
Malikians of both Tucson and Phoenix.
    We have submitted written testimony so I am only here to 
highlight the key points.
    Mr. Kolbe. Your full testimony will be put in the record.
    Mr. Hachikian. Yes, thank you.
    U.S. foreign aid, which currently is approximately $90 
million to the Republic of Armenia is absolutely critical to 
the survival of the republic. Unfortunately, having gone 
through a difficult transition from communism, Armenia is a 
very poor country. Per capita income is less than $600 and the 
economy is only $2 billion in size.
    So the actual amount of dollars that the United States 
provides is quite essential and has a very, very meaningful 
impact. And frankly, it provides a very positive image. Aside 
from all the good that the foreign aid provides in Armenia, the 
people of Armenia are very appreciative of it.
    According to the World Bank, the illegal and immoral 
blockade that Turkey and Azerbaijan have maintained on Armenia 
for the past 10 years has had an impact of approximately 40 
percent of the gross domestic product of Armenia.
    And that is approximately $600 million. We in the United 
States have tolerated that blockade and have not pushed Turkey 
and Azerbaijan to do anything about it.
    And as a result this aid is absolutely essential. The 
foreign aid remains essential for the economic development and 
the self-sustainability of Armenia.
    We hope as fervently as anybody that Armenia does not need 
to have U.S. foreign aid, and we hope that there is, you know, 
not, in the not too distant future we can come before the 
committee and say, ``Thank you, but the country is 
independent.''
    But currently that foreign aid remains essential to expand 
U.S.-Armenia economic ties. According to the Heritage 
Foundation of the Wall Street Journal, Armenia is the 44th 
freest economy in the world, better than any other former 
Soviet Republic.
    It is committed to a free-market economy, it is committed 
to a democracy, and it has recently joined the World Trade 
Organization with economic growth last year of 12 percent and 
inflation at essentially zero. This is a country that is trying 
very hard and making good progress.
    But that aid is very critical. Also, I would add that the 
aid is essential to Nagorno Karabakh. Both for humanitarian 
reasons and economic development, the native Armenians in 
Karabakh absolutely depend upon the aid, and they, too, suffer 
tremendously from the illegal blockade imposed by Turkey and 
Azerbaijan.
    The ANCA is committed to the effective and productive uses 
of foreign aid. We push hard to avoid waste and inefficiency, 
and we have participated in round-table discussions that 
Ambassador Ordway and Missions Director Keith Simmons of the 
USAID have initiated in Armenia.
    I was there in October, I am going there in 10 days, they 
provide guidance. I think it is an excellent initiative that 
Ordway and Simmons have made.
    And we are also trying to encourage greater ties with 
diasporan organizations to get better leverage. There are 
significant volunteers, both here and in Armenia, who are 
prepared to help USAID get a better bang for the buck.
    In closing, our request is simple. We would ask for at 
least a $90 million earmark for the Republic of Armenia, at 
least $5 million for Nagorno Karabakh, and we ask the committee 
to reward an emerging democracy, to reward a commitment to a 
free economy, and to demonstrate leadership with respect to the 
blockade that we are not going to allow Turkey and Azerbaijan 
to smother the economy of Armenia.
    We very much appreciate your consideration.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kolbe. Thank you. I appreciate your comments and 
testimony here. Do you have any questions?
    Mrs. Lowey. Thank you so much.
    Mr. Kolbe. Mr. Kirk.
    Mr. Kirk. Thank you for coming to Washington.
    Mr. Hachikian. We appreciate your support and its 
longstanding support, and we know you are friends of Armenia.
    Mr. Kolbe. As you know, we do not do actual hard earmarks, 
we do, in the court language, that while we expect the money to 
be allocated or earmarked for any country.
    Mr. Hachikian. Right. But the committee has provided that 
language in your continuity report.
    Mr. Kolbe. Yes, and we will continue to provide the 
language. We are not going to commit at this moment the exact 
dollar amount.
    Mr. Hachikian. We appreciate that.
    Mr. Kolbe. We thank you very much.
    Mr. Hachikian. Thank you.
    Mr. Kolbe. Thank you. Mr. Karl Altau, from the Joint 
Baltic-American National Committee for Central and East Europe 
Coalition.
                              ----------                              

                                          Wednesday, April 2, 2003.

   JOINT BALTIC AMERICAN NATIONAL COMMITTEE FOR THE CENTRAL AND EAST 
                           EUROPEAN COALITION


                                WITNESS

KARL ALTAU, MANAGING DIRECTOR
    Mr. Altau. Thank you very much.
    Mr. Kolbe. Your full statement will be put in the record, 
as well.
    Mr. Altau. Oh, thank you so much. And honorable members of 
the committee, I am pleased to be with you today on behalf of 
the CEEC to discuss the importance of U.S. assistance programs 
to central and Eastern Europe.
    The Central and East European Coalition comprises 18 
national membership organizations, representing more than 22 
million Americans. We believe, we strongly believe, that the 
long-term national security and budgetary interests of the U.S. 
demand an unwavering commitment to the transition of the 
Central and East European countries to fully democratic free-
market nations.
    The commitment requires continued active U.S. engagement. 
Mr. Chairman, I want to use this opportunity to state for the 
record that we stand firmly in support of our American troops 
in Iraq and Afghanistan.
    We hope and pray for their safety and speedy return home. 
The key point that we would like you to consider while the 
committee moves through the appropriations process is the 
foreign assistance programs are serving U.S. strategic, 
political interests and practical interests from the war on 
terrorism to fighting corruption and public-health threats.
    When we cut these dollars we are shortchanging American 
interests. We are pleased that the fiscal year 2003 
appropriations bill continues to have support to Central and 
Eastern Europe.
    Funding for these countries, along with critical earmarks, 
has been a tangible contribution to reforms taking place in 
countries like Armenia, Georgia and Ukraine.
    Nevertheless, we are greatly alarmed by the trend of 
radical reductions in assistance to the countries in the region 
over the past several years.
    Peace, stability and democracy throughout Europe serves the 
national security interests of the U.S. During the past century 
the U.S. was called upon to fight two world wars and a long 
Cold War to protect and defend those objectives.
    The institutionalization of democracy and free-market 
economies in the region has proven to be the best means of 
guaranteeing that in the future there will be no further 
European conflicts which will require the costly intervention 
of the U.S.
    Following the collapse of the Soviet Union, peace, 
stability and democracy are being achieved in that region. The 
continued engagement, support and assistance of the U.S. is 
required to ensure the successful completion of these goals.
    With this in mind, the CEEC would like to bring to the 
committee three specific recommendations for the fiscal year 
2004 Foreign Operations Appropriations Bill.
    First, stability and security in Europe has been enhanced 
through NATO enlargement. We applaud the administration's 
commitment and strong bipartisan support in Congress for this 
process, which will add seven new members from the Baltics to 
the Black Sea.
    We urge the subcommittee to maintain the level of aid 
appropriated for countries designated by the U.S. as eligible 
for NATO enlargement assistance.
    NATO's door should remain open to all willing and qualified 
countries that have or will demonstrate their interest and 
commitment in joining the alliance.
    NATO enlargement, however, is only one part of the broad 
strategy to foster a peaceful, undivided and democratic Europe. 
Crucial components of this process are U.S. assistance programs 
such as FNF and INF.
    As a result of these programs, countries in the region have 
carried out vital military, economic, social and political 
reforms. These programs have enabled the Central and Eastern 
European countries to strengthen their role as U.S. allies and 
to increase their contribution to the stability and security of 
the trans-Atlantic community.
    We ask that FNF and INF funding for the region be 
maintained at the present levels.
    Second, the CEEC strongly urges the subcommittee to restore 
Freedom Support Act funding in the fiscal year 2004 
appropriations bill to fiscal year 2003 appropriated levels.
    The overall FSA budget is being reduced drastically. In 
particular, cuts up to 45 percent to the FSA have severely 
affected Armenia, Georgia and the Ukraine. In addition to 
encouraging restored and robust funding to these countries, the 
CEEC strongly supports earmarking aid to countries that have 
had funding appropriated.
    And we urge Congress to sustain these earmarks.
    The coalition strongly supports continued funding for seed 
programs, including regional funding for the Baltics. The 
funding addresses key U.S. policy priorities including fighting 
corruption and health threats, promoting democratic governments 
in Belarus and improving the climate for U.S. investment in the 
region.
    Congressional leadership in ensuring that the 
administration does not prematurely zero out seed assistance in 
the Baltics.
    For Bulgaria and Romania, we encourage Congress to retain 
seed levels set in prior years. With the precipitous erosion 
and already scarce U.S. assistance programs, especially in the 
FSA account, we fear that U.S. interests are not being properly 
served.
    They make a difference in a region that has suffered many 
decades of communist misrule, political repression, and the 
negative effects of high centralized command economies.
    You should not forget the financial and human costs of 
winning the Cold War.
    Third, in order to more effectively implement foreign 
assistance programs passed by Congress, the coalition looks to 
work on further reforming the revitalization in the area.
    The CEEC stands against the premature cuts and elimination 
of services at VOA and RFVRL, at least until these countries 
are securely in NATO and in the EU. It is vital especially 
today that America's voice be heard and heard clearly.
    The great support for the U.S. in the countries of Central 
and Eastern Europe has recently been affirmed. The U.S. should 
maintain its active support in this region as the region 
integrates with the trans-Atlantic community.
    The untimely exit of this invaluable resource will leave a 
void in which the image of the U.S. abroad would be undermined.
    Safety at nuclear power plants in the region is another 
area in which sustained U.S. support and guidance could be 
effectively used. We hope that USAID and other government-
funded entities in the U.S. continue to reach out to our 
organizations.
    And in concluding, the Central and Eastern coalition 
supports the continuing strong role of the U.S. in world 
affairs.
    The need for strong proactive diplomacy in support of 
foreign-policy objectives put forth by the president and 
Congress is not possible without appropriate funding levels to 
sustain America's leadership.
    Mr. Chairman, the CEEC greatly appreciates your attention 
to these important matters and looks forwarding to working with 
you and the distinguished members of the subcommittee in the 
following months.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kolbe. Thank you very much. I think the members of the 
Congress are not unmindful of the strong support that has been 
given to our office to enforce the United Nations resolutions 
from the Baltic states. And we are very appreciative of that.
    Thank you very much.
    Mr. Ross Vartian, the Armenian Assembly.
                              ----------                              

                                          Wednesday, April 2, 2003.

                    THE ARMENIAN ASSEMBLY OF AMERICA


                                WITNESS

ROSS VARTIAN, EXECUTIVE DIRECTOR
    Mr. Vartian. Thank you, Mr. Chairman.
    Mr. Kolbe. Thank you, Mr. Vartian for being with us.
    Mr. Vartian. Mr. Chairman, Ranking Member Lowey and 
distinguished members of the subcommittee, the Armenian 
Assembly is pleased to offer testimony regarding U.S. 
assistance and policy in the Caucasus generally and Nagorno-
Karabakh and Armenia specifically.
    Friendship between Armenia and the United States is long 
standing and deep. The United States is home to a large and 
vibrant Armenian community while Armenia has emerged as an 
active partner in the war against terrorism.
    As President Bush noted, ``The United States greatly values 
the contributions that Armenians make to our national life and 
is also deeply grateful for Armenia's swift and decisive 
cooperation in the war against terrorism.''
    The assembly commends Congress and this subcommittee in 
particular for continued assistance to Armenia and Norgon-
Karabakh. This assistance has been vital to post-conflict 
reconstruction and general economic recovery and should 
continue.
    We urge this subcommittee to maintain U.S. assistance to 
Armenia in fiscal year 2004 at the level of no less than $83.4 
million, the amount that the House of Representatives approved 
last year.
    At the same time we urge you to work towards developing 
necessary bilateral treaties to promote the already growing 
U.S.-Armenia trade.
    The assembly strongly supports U.S. military assistance to 
Armenia. While the administration requested $3.4 million in 
such assistance, we urge the subcommittee to consider 
additional funding to help Armenia upgrade its communication 
facilities as well as to ensure parity with Azerbaijan.
    Providing more military assistance to Azerbaijan than to 
Armenia is inadvertently harmful to the peace process and 
inappropriately rewards Azerbaijan's continuing calls for a 
military solution to the Karabakh conflict.
    The assembly commends the subcommittee's efforts to promote 
a peaceful resolution of the Norgono-Karabakh conflict, 
including provision of funding for regional projects and 
confidence-building measures.
    Azerbaijan has thus far declined to participate in any 
meaningful regional projects that include Armenia or Norgono-
Karabakh. Nevertheless, such efforts should continue.
    The assembly urges the subcommittee to vigorously monitor 
the conditional waiver of section 907 of the Freedom Support 
Act to ensure the safety of Armenia and of Norgono-Karabakh and 
call on the president to submit to Congress the report that was 
required of him by law within 60 days of enacting the waiver of 
Section 907.
    Should Armenia or Karabakh safety be compromised or the 
Norgono-Karabakh peace process be hindered as a result of any 
assistance provided to Azerbaijan, the assembly calls upon the 
subcommittee to terminate the waiver.
    Mr. Chairman, Armenia views the United States as a 
strategic partner and friend who responded during desperate 
times. Armenia and the United States continue to strengthen 
their relationship both on security and economic matters. A 
centuries-old Christian country, Armenia stands at the 
crossroads of Europe and Asia and on the front lines in the war 
against terrorism.
    Armenians and Armenia and Norgono-Karabakh look to the 
United States as the leader of the Western world and a beacon 
of hope in defense of freedom and self determination. They 
stand ready to help America deal with threats to international 
security so that the evils of terrorism are eliminated and that 
justice is done.
    Armenia is also ready and willing to be part of the massive 
humanitarian effort that is contemplated as Operation Iraqi 
Freedom comes to a successful conclusion.
    Thank you, Mr. Chairman.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kolbe. Thank you very much.
    Mrs. Lowey. Thank you very much.
    Mr. Kolbe. We appreciate your testimony. We have obviously 
heard from several today expressing similar views about the 
Armenia question and the questions of the region. And it is 
very helpful to us I think as members of the subcommittee to 
hear from your organization. And we appreciate the work that 
you do.
    Mr. Vartian. Thank you for the opportunity.
    Mr. Kolbe. We are actually going to hear from Mr. Seth 
Moskowitz of the American Associates Ben-Gurion University of 
the Negev.
    Mr. Moskowitz.
                              ----------                              

                                          Wednesday, April 2, 2003.

        AMERICAN ASSOCIATES, BEN-GURION UNIVERSITY OF THE NEGEV


                                WITNESS

SETH MOSKOWITZ, EXECUTIVE VICE PRESIDENT
    Mr. Moskowitz. Mr. Chairman, ranking member as well as 
members of the committee, thank you very much for the 
opportunity to appear before you today on behalf of Ben-Gurion 
University of the Negev and its Jacob Blaustein Institute for 
Desert Research.
    I am the executive vice president of the university's 
American Associates, an organization of volunteers of the 
United States who support the university and its unique 
academic and research contributions, both in the Middle East 
and world-wide.
    We are especially grateful for your committee's recognition 
over the past two years of Ben-Gurion University's applied 
research efforts concerning the vital water-resource issues in 
the region.
    To foster the cause of peace in the Middle East, it is 
important that we identify and support initiatives that address 
areas of tension and provide opportunities for the nations of 
the region to work together on matters of mutual concern and 
interest.
    Mr. Roy Zukovert, one of the founding sponsors of the Ben-
Gurion University's new Institute for Water, Science and 
Technology stated: ``Wars were caused by water and peace has 
been aided by water.''
    All existing Middle East peace agreements have prominently 
addressed water-quality supply and allocations issues. Future 
peace negotiations will surely do the same. We appreciate that 
you have recognized Ben-Gurion University and the work that its 
world-renowned research scientists have done to take on the 
challenges and solutions related to regional water quality, 
supply and allocation issues.
    The researchers at the Institute for Water, Science and 
Technology, headed by Dr. Aloma Dar, who received his Ph.D. 
from the University of Arizona, are widely regarded for the 
excellence of their scientific research for practical 
applications.
    For example, their work figured prominently in the critical 
water allocation process set forth in the Israeli/Jordanain 
peace agreement of 1994.
    The institute's water research including the cooperative 
efforts with several universities in the United States have 
been invaluable in improving relations between Israel and other 
countries, both in the Middle East and elsewhere.
    The continuing conflict in the Middle East reminds all of 
us how difficult it is to achieve peace in the region. Still it 
is clear that Ben-Gurion University's efforts regarding water, 
perhaps the most precious natural resource in the Middle East, 
have been a positive catalyst in Israel's international 
relations. Furthermore, these efforts have helped advance both 
Israeli and U.S. strategic interests and policies.
    Deserts and other dry lands constitute more than 40 percent 
of the global land area. Global environmental changes such as 
global warming and further desertification of dry lands affect 
more than a billion people in more than 100 countries.
    The mission of the Blaustein Institute is to carry out 
research on dryland environments required for promoting 
sustainable uses of the Negev Desert in Israel and other dry 
lands the world over. And for combat and desertification in 
Israel, in the Middle East, as well as globally.
    Water remains a key issue for the future cooperation among 
Israel and its neighbors in the Middle East. Most of the 
ground-water aquifers in the region are shared by at least two 
countries. Once all parties return to peace negotiations, the 
success of any lasting agreement will depend upon the ability 
of all parties to agree on equitable allocation of the region's 
scarce water resources.
    As your committee has stated in the past, desertification 
and water shortage in the Middle East is one such critical 
area. Thus, the artificial aquifer laboratory could make a 
critical contribution to the peace process by providing 
accurate, scientific information and innovative solutions to 
resolve water and related economic problems.
    The fiscal year 2002 and 2003 foreign operations reports 
recommended that the Department of State and the U.S. Agency 
for International Development provides funding for a project 
proposal by the Blaustein Institute to address the flow and 
transport of pollutants in ground water in the region.
    Although the project has received a positive reception from 
both the Department of State and USAID, no agreement has yet 
been reached on funding for the project.
    We hope that you will continue to support the vital 
initiative. Specifically, we are seeking support for $1 million 
in fiscal 2003 or fiscal 2004 funding to establish an 
artificial aquifer laboratory at the institute that will 
greatly expand and enhance further water research efforts in 
the Middle East.
    The laboratory is needed to effectively develop and improve 
the management of limited water resources in the Negev Desert 
as well as in other dryland regions in the area and around the 
world. It is an essential component of the peace process and 
will foster improved cooperation between Israel and its 
neighbors in the region as they address critical water resource 
issues.
    Thank you very much for your consideration.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kolbe. Thank you so much. I was just saying that, 
representing the University of Arizona, I am very aware of the 
close relationship that the University of Arizona and the air 
and land study program has with the University of the Negev. 
And there are so many things that are in common. And it is a 
terrific collaboration. And I am very pleased that it has 
worked as well as it has. Thank you very much.
    Mrs. Lowey. And thank you. I know the good work, and I 
respect the importance of it. Thank you very much.
    Mr. Kolbe. Thank you.
    We will jump out of order a little bit because we are the 
ones behind on schedule. We will not make Mr. Visclosky wait 
any longer, so we will jump a couple ahead to hear and take the 
member of Congress here.
    Mr. Visclosky.
    Now, Mr. Visclosky.
                              ----------                              

                                          Wednesday, April 2, 2003.

           USAID AND FUNDING FOR THE SOUTHERN CAUCASUS REGION


                                WITNESS

HON. PETER VISCLOSKY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA
    Mr. Visclosky. Do not waste time on that, Mr. Chairman.
    Mr. Kolbe. When does the next delivery of the staff cake 
arrive? [Laughter.]
    Mr. Visclosky. At your pleasure. [Laughter.]
    Mr. Kolbe. Mr. Visclosky is famous for those subcommittees 
and also just the ones you have, these other people better not 
deliver a cake. [Laughter.]
    But he is famous for delivering cakes to the staff members 
there, which is why his requests always get considered very 
carefully. [Laughter.]
    Mrs. Lowey. What kind of cake? I have not had the benefit 
of----
    Mr. Kolbe. You have never had the benefit of the cake? 
[Laughter.]
    Mr. Visclosky. When you have been over to the minority 
offices, apparently it has already been consumed. [Laughter.]
    The clock is running, and I simply want to thank the chair, 
Ms. Lowey, and the members of the committee for all of your 
kindness in the past. I have two requests before you. One is 
for a $1 million ear mark for the Kroc Institute for 
International Peace Studies at Notre Dame.
    The second is simply to, again, draw the subcommittee's 
attention to the Section 907 issue. I do commend my colleagues 
and the subcommittee for striking what I think is the 
appropriate balance during the last two years regarding Section 
907. It is a very important issue to me, because Armenia is now 
entering the 14th year of the blockade.
    I realize this is a very difficult issue. But I do think 
the focus of the subcommittee on this issue would send a clear 
signal that the U.S. Congress stands behind the current peace 
process and encourages Azerbaijan to work with the organization 
for security and cooperation in Europe's men's group. It is 
very important to me, but again, I think the chair fully 
understands that.
    I do not need to take more of your time. I do have a 
complete statement for the record.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kolbe. Thank you. We have the complete statement and it 
will be put in the record. And we appreciate the statement.
    Mrs. Lowey. We appreciate you taking time to come before 
us.
    Mr. Kolbe. We do, and I----
    Mr. Visclosky. Well, and I do want to personally emphasize 
the importance I attach to it, but I think you do appreciate 
that. But I would have been remiss not to come.
    Mr. Kolbe. Well, you have always been very attentive to 
this subcommittee in your interest in that. Spoken rather 
personally, and we very much admire that and appreciate it. 
Thank you very much.
    Mr. Visclosky. Thank you very much.
    Mr. Kolbe. The American Councils for International 
Education, Ambassador Collins.
                              ----------                              

                                          Wednesday, April 2, 2003.

             AMERICAN COUNCILS FOR INTERNATIONAL EDUCATION


                                WITNESS

AMBASSADOR JAMES F. COLLINS
    Ambasador Collins. Mr. Chairman, Representative Lowey, 
thank you for allowing me to present this statement on behalf 
of the American Councils for International Education.
    The statement is to support adequate funding for exchange 
programs with Central and Eastern Europe and Eurasia. I have a 
prepared statement, and I ask that it be put in the record.
    Mr. Kolbe. The full statement will be placed in the record.
    Ambasador Collins. Mr. Chairman, one of the greatest 
achievements of the 1990s was the opening of Russia and the 
rest of the new independent states to the outside world. And 
the early steps toward their integration into the global 
economic financial and security systems of the industrial 
democracies.
    The United States responded to the opportunity, the 
collapse of communist representative, by administering 
assistance to this region in a coordinated approach. That 
ensured scarce resources were used in support of our values and 
our national interest.
    It has been especially important why the substantial 
portion of that assistance has been directed at the younger 
citizens of this region. Congress has played a vital role in 
defining our national goals for these programs by enacting the 
Freedom Support Act and the Seed Act.
    And by sustaining funding for these and other creative 
programs over the years, this subcommittee in particular 
deserves credit for embracing these activities and adequately 
supporting them.
    My comments today are focused on three points: First, in 
the congressional request from the administration there is a 
concept of graduation for Russia and Ukraine from these 
programs. I believe that concept is misplaced insofar as 
graduation is meant to imply to exchange programs, and I would 
ask that full funding for Russia, Ukraine and other countries 
be kept within these programs.
    Second, I believe it unfortunate and unwise that the 
administration's budget request calls for a significant cut in 
funds for the exchanges component of our assistance to this 
region across-the-board. The cut is on the order of $38 
million.
    I would urge that in the interest of American security and 
long-term strategic interest in this area, Congress continue to 
provide support for our exchange programs with this vital 
region. An appropriate figure for the exchange activities would 
be $145 million, about the level of fiscal year 2002 after 
factoring in inflation.
    Third, in recognition of new challenges and opportunities 
in the aftermath of September 11 and our response to the 
attacks on the United States, I recommend that we utilize the 
programs we developed for Eurasia to meet the emerging 
challenges we face in countries along the silk road, and 
particularly in Afghanistan.
    Mr. Chairman, as you proceed with decisions on the fiscal 
year 2004 foreign operations bill, I hope that you will find 
the means to restore funding for the exchange programs for the 
new independent states, including Russia and Ukraine and for 
Eastern Europe.
    This is not the time to graduate any of these societies 
from engagement with the United States. I also ask that you 
consider favorably the other proposals made today concerning 
initiatives to strengthen exchange programs with Afghanistan 
and central Asia and the Title 8 Research and Training Program.
    Mr. Chairman, based on my more than 11 years continuous 
service in building our new relations with this region of the 
world, and I believe deeply that we can make no better 
contribution to this region than investing in the next 
generation of leaders from these countries. My experience tells 
me that such an investment will strengthen our own national 
security in the cause of world peace.
    Investment in the young is the strongest insurance we can 
build that future leaders of Eurasia will understand and share 
the values that Americans hold most valuable.
    Thank you very much.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kolbe. Thank you very much. First of all, Ambassador 
Collins, we are all very appreciative of your service to our 
country as ambassador to Russia at a very critical time. We are 
also appreciative of your work with the American Councils For 
International Education. I happen to be a strong supporter of 
exchange programs.
    The basic issue that we face, and Ms. Lowey knows this very 
well, is, in a world of finite resources, how do we decide to 
allocate resources between basic education and the kinds of 
tertiary or exchange programs that you represent here and those 
are tough choices that we have to make, but I am a strong 
supporter of that kind of exchanges. I was the beneficiary of 
one when I was a student myself, so I know the value of it.
    Mrs. Lowey. I remember when we came to Russia in 1993 and 
1994 and we could not fund anything else. The one thing we 
funded was the exchange programs. It was a bipartisan 
agreement. And I do hope we can helpful on this. I continue to 
believe that it is so important.
    Mr. Kolbe. In the area of the region that you talked about, 
of course, obviously, exchange programs and tertiary education 
is the basic issue. In many of the other parts of the world, of 
course, it is basic education that we are so vitally concerned 
about.
    Ambasador Collins. Well, I simply would make a plea that 
engagement with the young is probably the most effective use of 
scarce resources that I witnessed over a decade or more while 
working in this.
    Thank you very much.
    Mr. Kolbe. Thank you very, very much, Ambassador, we 
appreciate it.
    We are beginning to see the light at the end of the tunnel 
here.
    The Global Health Council, Dr. Nils Daulaire.
                              ----------                              

                                          Wednesday, April 2, 2003.

                         GLOBAL HEALTH COUNCIL


                                WITNESS

DR. NILS DAULAIRE, PRESIDENT AND CEO, GLOBAL HEALTH COUNCIL
    Dr. Daulaire. Thank you very much, Mr. Chairman and 
Congresswoman Lowey.
    I am going to forego repeating the written testimony that I 
have already submitted and highlight some of the key issues 
that I would like to bring to this subcommittee's attention.
    First of all, I want to thank you for what this 
subcommittee has done over the years. As a physician myself, 
having practiced in the developing world over several decades 
as the head of an organization that represents health 
professionals and service-delivery organizations around the 
world, this committee and your appropriations play a huge role 
that we recognize in the health and well being of literally 
millions of families. And I would like to talk today about the 
current toll of our unfinished business.
    There are 17 million people who will die this year 
unnecessarily, who are within our technical and probably 
financial capacity to save, and I want to talk about that in 
four different categories: First, HIV/AIDS; second, maternal 
and child health; third, infectious diseases; and, fourth, 
family planning.
    You have already had a number of people here today who 
testified about AIDS, and I do want to say that the entire 
global health community was enormously heartened by the 
president's comments in his State of the Union Address, his 
commitment to $15 billion over three years to fight global 
AIDS, to the integrated package that he put forward of 
prevention, care and treatment, and all of those things from 
our standpoint, are very much right on.
    We did note that the budget submitted by the administration 
was a bit short of the five-year average. We would strongly 
urge this committee to appropriate a full $3 billion towards 
this year. The field is read for it. The work can be done. And 
I know that there are questions that have been asked concerning 
how best to deploy it, whether through bilateral or through the 
multilateral channels of the global fund in U.N. AIDS.
    I think what this committee needs to do is to play strong 
oversight role without directing in minutia, but at the same 
time, keeping a clear vision of what is working, moving 
resources to where they can be most effective most quickly.
    And I will tell you from the standpoint of our membership 
who are out there in the trenches right now, they are not only 
service-delivery people, but they are people who will report on 
what is actually going on, and we will share that information 
gladly with you.
    The second issue, maternal and child health, is an issue of 
great concern to me, not only because that is where I worked 
for many years, but because we recognize, as health 
professionals delivering services, that this is all built like 
a pyramid. Treatment of AIDS is the very top of the pyramid. It 
is fairly complex, it is fairly costly, but you cannot do it 
without the base, and the base of health delivery in the 
developing world is maternal and child health services.
    That base in the current administration budget has been 
cut, so we are looking at this rather than this. We think that 
is dangerous.
    And I will tell you what could be done there. There are 11 
million children who die each year, and we have the technology 
and the means to deal with most of those deaths. Three million 
die of pneumonia.
    This is what I used to use for treating a case of childhood 
pneumonia; 10 pills taken over the course of five days. About 
85 percent effective in curing a child, that is 3 million 
deaths each year, costs about 25 cents.
    The second thing, and I think you have seen this already 
from our colleagues from UNICEF today is immunization. And this 
is a single-shot dispenser, which once it has been used once 
cannot be used again. It is just water in it I should tell you. 
[Laughter.]
    It locks itself out. So we have heard about some of the 
dangers of needles with AIDS. This is not a reusable----
    Mrs. Lowey. An example of how you got through security. 
[Laughter.]
    Dr. Daulaire. We were concerned about this.
    Two million children a year die from immunization 
preventable disease, measles, whooping cough and tetanus. 
Again, cheap and reliable.
    Oral rehydration salts mixed with water. This amount mixed 
with a liter of water rehydrates a child from diarrhea. And 
kids with diarrhea, 2 million of them will die this year. It is 
not because diarrhea itself infects their body, it is because 
they are losing all that fluid. This is what saves them. Again, 
a proven technology used for 20 years but still not available 
to about 40 percent of the world's children.
    So those are three big ones. And then I will end with two 
smaller ones, but not terribly small.
    This is not my tutu. This is a bed net impregnated with 
insecticide. Costs about $5 to produce. It is used now in sub-
Saharan Africa. The mosquitoes cannot get in. It is better than 
a regular bed net because you always get tears in them. And 
this keeps the malaria infected mosquitoes from getting in and 
infecting the child.
    And then on top of that, these simple drugs which are used 
for treatment of malaria. Between these two things, treatment 
and prevention, we could eliminate virtually all of the million 
malaria deaths among African children in the world.
    Mr. Kolbe. At what cost?
    Dr. Daulaire. Well, this is $5 and the treatment itself per 
child is about 25 cents.
    Mrs. Lowey. And which drug company makes it for that price?
    Dr. Daulaire. No, this is generic.
    Mr. Kolbe. It is generic.
    Dr. Daulaire. It is generic.
    And then, finally, this simplest thing of all. This is a 
vitamin A capsule.
    Mr. Kolbe. We saw that also this morning.
    Dr. Daulaire. Okay. That is two cents. I used to use these 
in Nepal every six months a child gets two. So you have a half 
a year of protection right there. And I brought the other half 
a year with me, as well.
    So those things by themselves could save a majority of the 
11 million children under five who die each year. It is simple. 
It is straightforward. And I think it is a real shame that we 
have lost the focus that we had.
    Let me move on because I know that time is out.
    Mr. Kolbe. Time is up.
    Dr. Daulaire. On the issues of infectious diseases we are 
all reading about SARS these days. If I had gotten on a plane 
from Hong Kong yesterday, I could be here breathing SARS at the 
distinguished members of the committee. I am not.
    But what happened five years ago was that Congress 
appropriated money to fight global infectious diseases. The 
fact that you did that five years ago is contributing directly 
to the rapid response of the World Health Organization and CDC 
to SARS.
    You combine that with control of TB and malaria around the 
world and you have really got a huge impact. The cuts in the 
proposed administration budget do not support that and we call 
for an adequate level of testimony, which is in my testimony.
    And, finally, family planning, which we look at not as a 
population issue, but as a health issue. Women who have the 
number of children they want when they want them are better 
mothers, healthier mothers. Their children are healthier. And 
it has a huge impact on the health of the families as a whole.
    So in summary, in the five minutes that I have been here, 
160 people have died from the things that I have talked about 
here. A metronome of death going off every two seconds. And all 
of these things are manageable. We have the technology. We have 
the know how. And I look forward to working closely with this 
committee and your staff to make sure that we do everything we 
can to assure American leadership with the hope and the vision 
that this country can provide.
    Thank you.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kolbe. Thank you very much, Dr. Daulaire. And just 
first of all, once again, these simple things that you give us 
here demonstrate--we have heard from several other groups this 
morning, as you know, about health care--and demonstrate that 
in very simple ways, very simple things, inexpensive things, we 
can make huge impacts on health care, on saving lives of 
children and people all over this globe.
    And sometimes we get so mesmerized by the very expensive 
treatments and the things that are very difficult to deal with 
we lose sight of some of these things.
    And I appreciate very much your reinforcing that and also 
the work that the council has done over the years of bringing 
to the subcommittee's attention, through your outreach efforts 
bringing to the subcommittee's attention so many of these 
health issues on a global scale. You have really been a leader 
in that and we really appreciate the outstanding work that you 
have done.
    Dr. Daulaire. Thank you very much, Mr. Chairman.
    Mr. Kolbe. Ms. Lowey.
    Mrs. Lowey. Thank you very much. I wish we could convey 
your views to the administration on family planning. And I also 
thank you for pointing out the deficiencies of our security 
system. [Laughter.]
    Mr. Kolbe. We, the subcommittee, will continue to be 
supportive of the health care issues. We will continue to do 
that, but it is helpful for you to remind us about that.
    Dr. Daulaire. Thank you.
    Mr. Kolbe. Thank you very much, sir.
    We have a vote under way and we have three people to go. So 
we are not going to be able to finish except to take a very 
quick recess. It will take me 60 seconds to run upstairs on 
this one vote. So we are going to recess for that length of 
time while I do it. I am going to start the moment I get back 
down here.
    Mrs. Lowey, hopefully you can join us quickly. I know you 
always get busy on the floor talking to other members there.
    The committee will stand in recess for about two minutes.
    [Recess.]
    Mr. Kolbe. All right. Florida State University, Talbot 
D'Alemberte.
                              ----------                              

                                          Wednesday, April 2, 2003.

                        FLORIDA STATE UNIVERSITY


                                WITNESS

TALBOT D'ALEMBERTE, PRESIDENT EMERITUS
    Mr. D'Alemberte. D'Alemberte.
    Mr. Kolbe. D'Alemberte?
    Mr. D'Alemberte. Yes, sir.
    Mr. Kolbe. D'Alemberte. Pleased to meet you, sir. Thank you 
very much.
    Mr. D'Alemberte. Sort of a North Florida French name?
    Mr. Kolbe. Yes, it is North Florida French, typical thing.
    Mr. D'Alemberte. Thank you very much, Mr. Chairman. I am 
Talbot Sandy D'Alemberte, president emeritus of Florida State 
University, and the principal adviser for the project which we 
are doing with USAID on distance learning, legal education in 
Central and Eastern Europe.
    I would like to first for all thank the chair, the 
committee for the support you have given to us in the past. It 
has been a great pleasure to work on this project.
    I have had two lives that seem to be converging in this 
project, two past lives. One, I was president of the American 
Bar Association just following the fall of the Berlin Wall, and 
I was involved very much in the development of a program called 
the Central and East European Law Initiative.
    And in that program we organized ourselves to provide 
technical, legal assistance in Central and Eastern Europe, a 
great deal of it with volunteer help.
    And I am very proud of what was done at that time. But 
another very dynamic experience I had was experience as a 
university president from 1994 until January of this year, and 
I had a chance to see what happens when you take and apply 
modern technology to the education mission.
    And I came away thinking that the problems in Central and 
Eastern Europe in legal education might very well be addressed 
by using educational technology.
    As you think about the law schools in this region most of 
them are led by senior faculty members who, when they went to 
law school, did not study commercial law, did not study 
property law, did not study human rights.
    They did not study the kinds of things that we think of as 
constituting legal education. And the inability of these law 
schools, operating without adequate teaching materials, to 
provide support for the kinds of changes in the rule of law 
really is a fairly dramatic situation.
    And our project has conceived the idea that teaching 
materials and education experience can be delivered through 
distance learning. And we are now just finished the first year 
of our project, the assessment year.
    We are now embarking on course development, we are 
recruiting faculty members, principally right now in Russia and 
Romania, on an experimental basis to try to test out these 
courses.
    We will have courses up and ready for delivery very soon 
and we are eager to expand the project. We are going to put in 
learning centers, we are going to train faculty, and we are 
going to provide some equipment and particularly some software 
that will allow them to develop their own course materials.
    We think that what we are doing in this region could be 
done in other parts of the world, and we very much hope that as 
you look forward to the fiscal year 2004 that you are 
considering including language to expand the project, which we 
think has great potential for success. We hope you will add an 
additional $2 million to the project for the former Soviet 
Union and Eastern Europe.
    And I also hope at some point we can discuss the possible 
applications in other parts of the world. Thank you very much 
for your support in the past, and I hope we can continue to 
give you progress reports, which will justify your continued 
support for this project.
    Mr. Kolbe. Your grant is for three years?
    Mr. D'Alemberte. Three years, yes, sir. And we just 
finished the first year.
    Mr. Kolbe. Just finishing the first year.
    Mr. D'Alemberte. And that was an assessment year, Mr. 
Chairman. But we found several really very competent and 
willing partners.
    Mr. Kolbe. And do you expect to have more institutions 
besides the two you mentioned?
    Mr. D'Alemberte. Yes, sir. We are negotiating with two 
additional institutions in Russia, both in Moscow, and we have 
had discussions in Bulgaria and we have had contact with some 
people in 17 different countries.
    But, frankly, the enthusiasm for seeing change is not 
present at all law schools. You have an entrenched educational 
establishment that somewhat fears a change to legal education, 
because they themselves were not trained in Western law.
    Mr. Kolbe. Are the lawyers and law professors trained over 
there or they will work in this country?
    Mr. D'Alemberte. We hope to bring teams to this country to 
make sure they understand the technology, and we then will take 
them back to their home countries and use them to facilitate 
the education experience there.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kolbe. Thank you very much. It is a very interesting 
project. We will be interested in hearing the continued updates 
on this.
    Mr. D'Alemberte. If we get it up and running it could be a 
project capable of a lot of leverage.
    Mr. Kolbe. It will ultimately be interesting to compare 
this testimony next year to see what you have to say to us. 
Thank you very much. We appreciate that.
    Jeffrey Plank, from the University of Virginia.
                              ----------                              

                                          Wednesday, April 2, 2003.

                       THE UNIVERSITY OF VIRGINIA


                                WITNESS

JEFFREY PLANK, ASSOCIATE VICE PRESIDENT FOR RESEARCH AND GRADUATE 
    STUDIES
    Mr. Plank. Thank you, Chairman Kolbe and members of the 
House Foreign Operations Appropriations Subcommittee. I am 
Jeffrey Plank, I am associate vice president for research and 
graduate studies at the University of Virginia.
    We are grateful for the opportunity to describe research 
and education activities that the University of Virginia has 
conducted in collaboration with higher education institutions 
in southern Africa.
    These collaborative activities demonstrate the feasibility 
as well as the considerable value of policies and programs that 
support capacity-building for science-based decision-making in 
developing countries, and the strengthening of American 
leadership in scientific fields that depend on long-term access 
to important geographical regions.
    Since the early 1970s, the University of Virginia has 
collaborated with southern African universities in research on 
major sub-Saharan ecosystems.
    Beginning in 1992, we initiated four large-scale multi-
disciplinary, multi-year regional research projects. The most 
recent of these, Safari 2000, for Southern African Fire, 
Atmosphere Research Initiative, sponsored by NASA, involved 
over 250 investigators from 18 countries in Africa and 
worldwide.
    I might point out that that project won the NASA 2002 
Public Service Award. Through these large-scale projects we 
recognized that we could build a university-based environmental 
research and education infrastructure with the potential to 
impact sustainable regional natural resource management policy.
    Along with the University of Eduardo Mondlane in 
Mozambique, the University of Botswana and the University of 
Venda and the University of Witwatersrand in South Africa, we 
have begun to explore inter-institutional collaboration through 
demonstration projects, particularly in our distinctive 
applications of distance learning technologies.
    In 2001, UVA, Eduardo Mondlane, and Wits offered a team-
taught, real-time, interactive video-conferenced undergraduate 
course, the first of it kind in African ecology to over a 150 
students at the three institutions simultaneously.
    In 2002, UVA and WITS tested a field and lab technique; 
video conference, of course. This spring UVA and the University 
of Venda are conducting an ecosystem modeling course that 
models a typical African village in how it functions socially, 
economically and environmentally.
    In July of 2002, UVA and African partners formerly launched 
SAVANA for Southern African Virginia Networks and Associations 
Consortium in Maputo, Mozambique.
    Our goals are: one, to create a shared curriculum that will 
increase the capacity of in-region universities to produce the 
future academic and governmental leaders necessary for 
environmentally sound sustainable policy-making; and, two, to 
create a regional scale network of rural environmental 
monitoring stations that can serve local and American students 
and faculty members and also serve as local centers for 
community development; and, three, to conduct workshops and 
training sessions in trans-boundary resource management for in-
region policy makers.
    The U.S. government has worked effectively with 
international partners, especially those in the developing 
world to promote the critical concept of good governance and 
institution building to progress to expanded sustainable 
development in the developing world.
    We seek your support in expanding policies and programs to 
enable American universities and their researchers to 
collaborate with their counterparts in developing countries to 
strengthen institutional capacity in science, technology and 
engineering programs for sound environmental research in water 
and good security and bio-diversity conservation.
    This research ultimately will provide the information 
required for effective local, national and regional level 
policy and decision making to take place. Such international 
partnerships, we believe, also can contribute to the 
development of lasting in-region capacity to alleviate poverty, 
to improve health and accelerate sustainable development in the 
developing world.
    Thank you.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kolbe. Thank you. Let me just ask you one question. We 
were in southern Africa a little more than a year ago, and went 
from Mozambique to South Africa and visited Kruger Park.
    Mr. Plank. Yes.
    Mr. Kolbe. And I was noticing that you work on ecosystems 
and in Mozambique.
    Mr. Plank. That is right.
    Mr. Kolbe. I am wondering because we were told there by the 
people at the park that really the ecosystem is not complete, 
Kruger Park is not all complete because of the political 
boundaries obviously; the boundaries for the ecosystem.
    Is there any thought about expanding the park in or a 
parallel park on the Mozambique side of the border?
    Mr. Plank. I do not know about plans to expand the border 
of the park, but there are several regional planning activities 
involved with the relationship between ecosystem integrity and 
political boundaries. There is a Kruger-to-Canyon Initiative 
underway that works from the Okavango Delta area in southern 
Africa--Zimbabwe, Botswana--all the way over to the Mozambique 
coast.
    So there are efforts underway to do exactly what you said, 
that is to build out the region that is considered to be an 
ecosystem.
    Mr. Kolbe. Well, thank you very much. We appreciate what 
you are doing. I think it is really an important project that 
you are involved with and we thank you for it.
    Mr. Plank. Thank you.
    Mr. Kolbe. Mr. Culvahouse from the American Bar 
Association. And let me apologize for being a bit behind 
schedule here. But considering that this is like an Amtrak 
train with 25 stops on it or 30 stops. [Laughter.]
    I think only 20 minutes behind is not too bad.
    Is that right. Well, I am told that we are doing much 
better since we normally run an hour and a half behind 
schedule. So I would like to say the chairman runs a tighter 
ship here. [Laughter.]
    Tighter train schedule than some, but we do appreciate your 
patience in being with us here today.
                              ----------                              

                                          Wednesday, April 2, 2003.

                        AMERICAN BAR ASSOCIATION


                                WITNESS

ARTHUR B. CULVAHOUSE
    Mr. Culvahouse. Thank you, Mr. Chairman.
    My first job out of law school was working for Howard Baker 
on the Senate side so I think you are doing very well, indeed.
    Mr. Chairman, the American Bar Association has submitted a 
longer statement for the record. And I would ask that it be 
included in the committee's record.
    But I am A.B. Culvahouse. My day job is I am the chairman 
of a large international law firm of O'Melveny and Myers. But I 
am also a member of the American Bar Association's Asia Law 
Initiative Council. And the ABA has asked me to present its 
views about the importance of providing robust funding for 
programs that promote the rule of law and democracy abroad.
    My personal interest in promoting the rule of law 
internationally dates from experiences from President Reagan's 
last White House counsel during 1987 and to 1989, in a time 
period, it was clear then and as it is clear today that 
establishing and exporting the rule of law internationally is 
vital to the creation of democratic societies and vital to the 
creation of market economies.
    We are talking about enforceable legal structures and legal 
institutions, concepts as basic as honest judiciaries, sanctity 
of contracts, written laws, access of citizens of those written 
laws and access to information. Those institutions, that 
infrastructure promotes commerce and investment. And it 
promotes reforms in basic criminal justice, in human rights and 
in property rights.
    The ABA has established rule-of-law initiatives in 
virtually every corner of the globe. And those are supported 
through the volunteer efforts of ABA members, practicing 
lawyers, law professors and judges, including members of the 
United States Supreme Court. Those volunteer hours support and 
leverage the United States government's foreign legal assistant 
programs in many, many segments of the world.
    The ABA's international initiatives are described at some 
length in our prepared statement, but let me mention quickly 
three today of particular concern.
    The first is the reduction proposed by the administration 
in foreign legal assistance funding for the former Soviet Union 
and Eastern Europe. The ABA agrees that democratic progress has 
been made in the former Soviet Union and Eastern Europe but 
feels that it is premature to reduce overall legal assistance 
funding. And it is premature to graduate countries from those 
programs prior to completion of democratic reform.
    The ABA urges the restoration of full funding for the 
former Soviet Union and Eastern Europe and to provide funding 
at the fiscal year 2002 levels for the ABA's CEELI, the Central 
European and Eurasian Law Initiative, that one of the prior 
witnesses referenced. And it is a very famous program indeed in 
the legal profession.
    The second area of concern is the possible departure from 
cooperative agreements between USAID and non-government 
organizations. Those cooperative agreements with USAID and the 
Department of State enabled the ABA, amongst others, to make 
extensive use of volunteers and to maintain sustained 
relationships with designated countries.
    Third, the ABA requests that the fiscal year 2004 budget 
include increased and adequate funding for the ABA's Asia rule-
of-law programs in China. A very important nation 
strategically. Funding of $1.2 million in fiscal year 2004 will 
allow the ABA law initiative to continue and expand its good 
work in China in rule of law and citizens' rights development 
and to focus in an enhanced way on human rights, criminal 
defense, land tenure rights and environmental governance.
    For these reasons and for the reasons set forth in our 
statement, Mr. Chairman, we ask that the committee continue to 
support the ABA's international legal assistance projects.
    Thank you for allowing me the courtesy to present the 
views.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Kolbe. Mr. Culvahouse, thank you very much. And again, 
I apologize for having the delay here but appreciate your 
coming at the end of this. I think it is a good actual bit of 
testimony to end on because I think ultimately many of the 
other things we are talking about, whether it is improving the 
economic livelihood of people, the health systems, all depend 
on the end on having a legal system that works and having 
respect for the rule of law, which is what this project is all 
about. And I think it is absolutely vital what you are doing 
around the world. And I am so very grateful to you and 
appreciate that very much.
    Let me in conclusion before we conclude mention that 
organizing a program of this extent with this number of people 
testifying and keeping everything on track and running as 
smoothly as possible takes a lot of staff effort and work. And 
I want to especially pay tribute to Lori Maes, our clerk for 
the subcommittee----
    [Applause.]
    Who contacted you all, whipped you into shape and made sure 
you were all here. Double-checked with you, triple-checked with 
you and got everybody here on time.
    And Lori, thank you very much for the outstanding job that 
you do.
    With that, the subcommittee will stand adjourned. Thank you 
very much.
    [Statements for the record follow:]
GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT    

</pre></body></html>
